<html>
<title> - DEPARTMENT OF EDUCATION: OFFICE OF THE SECRETARY</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                         TUESDAY, JUNE 5, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:15 a.m. in room SD-124, Dirksen 
Senate Office Building, Hon. Roy Blunt (chairman) presiding.
    Present: Senators Blunt, Alexander, Capito, Lankford, 
Kennedy, Rubio, Hyde-Smith, Murray, Durbin, Reed, Shaheen, 
Merkley, Baldwin, Murphy, Manchin, and Leahy.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. BETSY DeVOS, SECRETARY
ACCOMPANIED BY BILL CORDES, ELEMENTARY, SECONDARY, AND VOCATIONAL 
            ANALYSIS DIVISION DIRECTOR, BUDGET SERVICE


                 opening statement of senator roy blunt


    Senator Blunt. The Appropriations Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies will 
come to order.
    We are pleased, Secretary DeVos, that you are here with us 
today. Thank you for appearing to talk about your budget and to 
answer our questions.
    The 2019 budget request from the Department is 11 percent 
less than the money that the Congress appropriated for fiscal 
year 2018 in March. To the Department's credit, you propose 
eliminating and consolidating programs that may not be working 
effectively, and we will want to look at those very carefully 
with you.
    The budget also includes a $1 billion new competitive grant 
program for States and school districts to expand their choice 
programs.
    Certainly I appreciate the perspective, the new look, you 
have brought to the Department. I agree that we should look at 
programs that are either inefficient or ineffective and 
prioritize programs that work the best for students.
    We have a shared priority--your Department and the 
committee certainly--on STEM (Science, Technology, Engineering 
and Mathematics) education. I am interested in hearing more 
about how you think the Department can support STEM education, 
including computer science education, and what we can do in 
schools around the country. And I think you will find we will 
be particularly interested in rural schools that may not be 
where we would like them to be in that competitive environment.
    The omnibus included $50 million in dedicated funding for 
evidence-based STEM education programs. I want to certainly 
work with you, as our committee does, and the Department to see 
how we can support and expand that effort.
    I am also interested in working together to make post-
secondary education more accessible and affordable for all 
students. Two years ago, we were able to reinstate in our 
appropriating bill, with the cooperation of our authorizers, 
year-round Pell Grants. I just spent some time in Missouri at 
the end of the last college year talking about this being 
really the first summer where schools could plan and students 
could plan for year-round Pell. We think there are about 20,000 
more students on campus this summer in Missouri and about a 
million students nationwide because they have the potential to 
continue to make the pattern that is working continue to work. 
You know, if you are paying your way through college, working 
your way through college, maybe the first person in your family 
that is either attending or trying to graduate from college, 
having a pattern that works makes a big difference.
    When I went to college, the first person in my family to 
graduate from college, frankly as several people on this 
committee also are--and I went in 3 years and three summers. As 
I recall, it took 124 hours of credit to graduate. I had 124 
hours of credit, not one extra credit or one extra day. The 
best way, of course, to keep college cost down is to get done, 
and I think a lot of schools have responded to year-round Pell 
by being sure that they have bachelor degree programs that can 
realistically be completed, if that is what a student wants to 
do, in a shorter period of time.
    We look at what happened with year-round Pell. Now, we 
increased the Pell Grant through our committee last year by 3 
percent to $6,095. Your budget is still predicated on a top 
two-semester Pell of $5,920. I think we will, obviously, 
continue the other number and look for the authorizing 
committee, the Chairman and Ranking Member of which are on 
either side of me, to see their forward view on Pell Grants and 
other assistance programs.
    Many of the proposals in the budget eliminate programs. I 
think some of that can be done. I hope we can look at it 
carefully with you. But I think it is likely that the committee 
will look at the work we just completed, and the large formula 
grant programs are not likely to be eliminated. We are not 
likely to support the elimination of Impact Aid for Federal 
property, though this administration would not be the first one 
to suggest that Impact Aid could be looked at in another way.
    There are some small targeted programs eliminated like 
Special Olympics and Arts and Education. Again, while the size 
maybe looks like they do not make a lot of impact, it would 
make a lot of impact if you eliminated them. And I think our 
committee would want to think long and hard before we did that.
    Finally, Secretary DeVos, I want to acknowledge your 
efforts to realign the Department of Education's role in the 
education system. I believe, as many Members of the Senate and 
House do, that decisions should, whenever they can, be made 
closer to students and their family and local school districts. 
That is where those decisions should be made. It is hard enough 
to make a decision in a State capital that impacts an entire 
State as opposed to decisions in Washington, DC that impact the 
entire country. And your efforts to try to look for ways that 
more of those decisions can be made closer to where kids and 
their families are and where adult students are going to school 
is a wonderful thing for us to be talking about.
    I look forward to your testimony today and the discussion 
that will follow that.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Good morning. Thank you, Secretary DeVos, for appearing before the 
Subcommittee today to discuss the Department of Education's fiscal year 
2019 budget request.
    The fiscal year 2019 budget request for the Department of Education 
is $63.2 billion, $7.7 billion, or 11 percent, less than the fiscal 
year 2018 Omnibus passed in March.
    Like last year's request, this budget proposal includes significant 
changes to the scope of the Federal Government's investments in 
education. It eliminates or consolidates over 30 programs and 
significantly reduces funding for several others. It also includes $1 
billion for a new competitive grant program for States and school 
districts to expand school choice programs.
    I appreciate the fresh perspective you bring to the Department. 
This request makes difficult decisions and prioritizes funding for 
programs while working under tight budget constraints. I agree we 
should look for programs that are ineffective or inefficient, and 
prioritize that funding to programs that work best for students. I am 
confident we can work together throughout this year's budget process on 
that goal.
    We have a shared priority in STEM education. I am interested in 
hearing more about your ideas on how the Department can support STEM 
education, including computer science education, in schools across the 
country, particularly rural schools. The Omnibus included $50 million 
in dedicated funding for evidence-based STEM education programs and I 
want to work with you on how the Department can support and expand that 
effort as well as build upon the innovative work States and school 
districts are already doing in STEM education.
    I am also interested in working together to make post-secondary 
education more accessible and affordable for all students. Two years 
ago, the Labor/HHS bill reinstated Year Round Pell Grants. Year-round 
Pell is expected to help approximately one million students nationwide 
each year, and 20,000 in my home State of Missouri, where one-third of 
students receive a Pell Grant. When I was in Missouri last month 
visiting community colleges and universities, I heard from students 
about the benefits of being able to take classes continuously. And this 
is the first summer most students are able to benefit.
    Additionally, in the fiscal year 2018 Omnibus, we were able to 
build upon the success of Year-round Pell by funding several 
significant initiatives focused on college affordability and 
completion, including increasing the Pell Grant maximum award, 
increasing funding for campus-based aid programs like Federal Work 
Study, and focusing funding on TRIO programs to help students get into 
and complete college. As the first person in my family to graduate 
college, I understand the importance of finding a system that works. 
Staying continuously enrolled in school, having support from programs 
like TRIO, and access to financial aid through Pell and campus-based 
aid programs will help more students stay on track for graduation, 
enter or re-enter the workforce sooner, and graduate with less debt.
    We share a lot of common ground with regard to the role of the 
Federal Government in our education system. However, there are places 
we disagree. I continue to believe that certain elements of the 
Department's proposal on student loan servicing are misguided. The 
Omnibus bill prevents the Department from moving forward with a new 
system that does not include certain safeguards to promote 
accountability and transparency, and incentivize high-quality service 
for borrowers. I hope that we can work together this year to improve 
the Federal student loan servicing process for borrowers, while making 
sure these safeguards are in place.
    Further, many of the proposals in the budget request to eliminate 
programs were considered by our Subcommittee last year, and rejected. 
This Subcommittee will not pass a bill eliminating large formula grant 
programs supporting afterschool programs and teacher professional 
development. As we have done since the last Administration, our Labor/
HHS bill will not support the elimination of the Impact Aid Payments 
for Federal Property program, which represents a core aspect of the 
Federal Government's commitment to the parts of the country impacted by 
the presence of federally-owned land. Similarly, while some small 
targeted grant programs, like Special Olympics or Arts in Education, 
may simply because of their size not have widespread impacts, they can 
help leverage significant private funding and build the evidence-base 
for what works to improve student outcomes. As we look to produce our 
third consecutive bipartisan Labor/HHS bill at the end of this month, I 
expect these proposals will face the same result this year.
    Finally, Madame Secretary, I want to acknowledge your efforts to 
realign the Department of Education's role in our education system. I 
believe education decisions should be made as close to the student and 
family as possible. It is hard enough to make decisions for a student 
in Springfield, Missouri from Jefferson City, let alone Washington, 
D.C. We need to empower schools, students, and families to make the 
best decisions for individual students to help them succeed. I believe 
you are taking important steps to do that and limit the role of the 
Federal Government in both our elementary and secondary school system 
and at institutions of higher education. I will continue to support you 
in those efforts.
    My goal is for us to continue to work together to identify 
priorities and find common ground while responsibly allocating 
taxpayers' resources. Madame Secretary, I look forward to hearing your 
testimony today and appreciate your dialogue with us about these 
important issues.
    Thank you.

    Senator Blunt. And I am pleased now to recognize my good 
friend, Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you, Chairman Blunt.
    Thank you, Secretary DeVos, for joining us today.
    It is now 16 months since you were confirmed by an 
unprecedented tie-breaking vote as Secretary of Education, and 
you were confirmed despite millions of students and parents and 
teachers around the country who spoke up in opposition to your 
extreme ideological commitment to privatizing public education 
and who were concerned about your lack of experience in 
educating or in advocating for our public schools.
    Unfortunately, instead of taking those concerns to heart, 
you have doubled down on your harmful agenda and filled your 
Department with for-profit college executives and lobbyists 
looking out for their former employers and clients. And that 
could not be clearer when looking at your actions over the past 
year and the budget that you are here to defend today.
    Secretary DeVos, since you were confirmed, we have seen a 
barrage of actions out of the Department that hurt both 
students and taxpayers. You continue to prioritize your extreme 
privatization agenda, which would siphon taxpayer dollars away 
from public schools. You are ignoring the parts of our Nation's 
K-12 law, the Every Student Succeeds Act, that helps ensure 
equity in our schools. You have made it easier for predatory 
for-profit colleges and student loan companies to take 
advantage of our students by rolling back a number of consumer 
protections and effectively dismantling the unit that actually 
investigates claims of fraud and abuse. And you have taken a 
number of extremely concerning steps to undermine civil rights 
protections for our students, including attempting to scale 
back the Office for Civil Rights, rescinding guidance 
protecting transgender students, making it easier for schools 
to once again sweep sexual assault under the rug, saying it is 
a local decision to call ICE (Immigration and Customs 
Enforcement) on undocumented students, and so much more.

               SIMILARITIES TO PRIOR YEAR BUDGET REQUEST

    So let me turn to the budget you are proposing for next 
year. And I am really disappointed how similar this budget 
looks to what you proposed last year and which this committee 
soundly rejected.
    After years of budgets for education not keeping up with 
our needs, we are now seeing teachers and parents around the 
country organizing and standing up for public education because 
our kids should not be forced to learn in crumbling classrooms 
with shabby textbooks, and our teachers should be paid fairly 
for the important work they do. And yet, with this budget, once 
again you are ignoring what millions of parents and teachers 
and students are asking for, and you have instead proposed more 
than $4 billion in cuts to elementary and secondary education.
    I do not have time to name them all, but your budget would 
eliminate programs that help teachers grow and improve their 
teaching skills, grants that support before and after school 
programs, and investments that support low-income 
undergraduates.

                            SCHOOL VIOLENCE

    And this budget is another example of an empty promise made 
by this administration to address the senseless gun violence 
devastating our families and our schools and our communities 
around the country. President Trump has continued to give in to 
the demands of the NRA (National Rifle Association). Your Gun 
Safety Commission has yet to take any real action steps, and 
now your budget would eliminate grants that are used to improve 
students' safety for the second year in a row. After the tragic 
Parkland shooting, you said Congress should hold hearings on 
gun and school safety. So in a show of good faith, I urge you 
to commit to testify in front of the HELP Committee on what 
meaningful gun safety reform we can enact to help end the 
scourge of violence in our schools.

                             SCHOOL CHOICE

    Finally, while your discretionary budget cuts $7.7 billion 
in Federal investments in education, you are proposing $1 
billion for programs that align with your personal agenda but 
are not authorized by the bipartisan Every Student Succeeds 
Act. A little more than 2 months ago, Congress rejected 
virtually the same proposals in the bipartisan spending bill.
    So, Secretary DeVos, I have many questions for you this 
morning on why you once again put forth a budget that will hurt 
our students and families, and I look forward to your responses 
this morning. Thank you.
    Senator Blunt. So we have votes at 11:00, but we will 
continue the hearing through those two votes. We have a hard 
stop today at noon because of commercial travel. But Senator 
Leahy said that he would give up his time in return for us 
getting to questions quicker. So glad to do that.
    And Secretary, if you want to go ahead and make your 
opening statement, we would be pleased to hear that.

                 SUMMARY STATEMENT OF HON. BETSY DEVOS

    Secretary DeVos. Thank you, Chairman Blunt.
    Chairman Blunt, Ranking Member Murray, and members of the 
subcommittee, thank you for the opportunity to testify on the 
President's fiscal year 2019 budget request for the Department 
of Education.
    This budget sharpens and hones the focus of our mission: 
serving students by meeting their needs. When the Department 
was created, it was charged to prohibit Federal control of 
education. I take that charge seriously. Accordingly, President 
Trump is committed to limited government, fiscal discipline, 
and reducing the Federal footprint in education.
    The President's fiscal year 2019 budget would reduce 
overall funding for Department programs by $3.7 billion, or 5.6 
percent from fiscal year 2017 enacted levels, and $7.6 billion, 
or 10.8 percent, below the fiscal year 2018 enacted level.
    This budget was prepared prior to the 2-year cap deal and 
the Omnibus, for that matter. So the Administration submitted 
an addendum that restores valuable investments in students, 
including Impact Act Basic Support Payments, TRIO, school 
choice, Federal Work-Study, and Pell.
    For programs that we level funded in this budget request, 
our intent was to maintain levels appropriated by Congress. We 
used the numbers in place at the time, and our intent remains 
the same for newly appropriated funds.
    This Department's budget focuses on improving educational 
opportunities and outcomes for all students, while also 
returning power to the people closest to students.

                   PROMOTING SAFE AND HEALTHY SCHOOLS

    First, we must promote a safe and healthy culture in our 
schools. The tragedies at Noblesville West Middle School in 
Indiana and Santa Fe High School in Texas were only the most 
recent devastating reminders that our Nation must come together 
to address the underlying issues that create a culture of 
violence. I have directed my Department to do everything within 
the law to encourage States and districts to take advantage of 
flexibilities so newly appropriated funds, about $1.1 billion, 
under Title IV are most useful.

                           OPPORTUNITY GRANTS

    Second, our request would provide significant new resources 
dedicated to helping achieve the President's goal of giving 
every student the freedom to attend a school that best meets 
his or her unique needs. The budget provides funding for this 
program through a new Opportunity Grants program that would 
expand the number of students who have the opportunity to 
attend a school of their choice. Under this new program, States 
could apply for funding to provide scholarships to students 
from low-income families that could be used to transfer to a 
different school. Local educational agencies participating in 
the Department's student-centered funding pilot could request 
funds to build on the flexibility provided by establishing or 
expanding open enrollment systems. This way funds follow 
children based on their needs, not buildings or systems.
    In addition, the budget requests support for Charter 
Schools by providing an increase of $100 million, for a total 
of $500 million, and continues support for Magnet Schools. We 
are also proposing to expand use of direct student services to 
allow States to reserve up to 5 percent of their Title I 
allocations to further expand educational freedom, including 
helping students transfer to a school that better meets 
individual needs.

                 SUPPORT FOR STUDENTS WITH DISABILITIES

    Third, the Administration's request includes support for 
students with disabilities. Our request for essential K-12 
formula grant programs supports the Nation's neediest students, 
especially all programs authorized under the Individuals with 
Disabilities Education Act.

                          PATHWAYS TO CAREERS

    Fourth, our request creates more pathways to prepare 
workers to fill existing and newly created jobs, as well as 
jobs of the future. Expanding apprenticeships and reforming 
ineffective education and workforce development programs will 
help more Americans obtain relevant skills and enter high 
paying jobs.
    Students should be able to pursue a variety of pathways to 
successful careers. To that end, the budget expands the use of 
Pell Grants for high quality, short-term summer and certificate 
programs. It invests in career and technical education and 
streamlines student loan repayment.
    These proposals also support congressional efforts to 
reauthorize the Higher Education Act to address student debt 
and higher education costs while reducing the complexity of 
student financial aid.

                             STEM EDUCATION

    Fifth, our request supports STEM education to help better 
equip students with skills employers need. Consistent with the 
President's Memorandum on STEM Education, our request includes 
$200 million in new funding to support STEM education while 
continuing to fund almost $330 million in discretionary grants.

                       REFORM AND REORGANIZATION

    Finally, our request reflects a number of reform proposals 
aimed at streamlining the Department's internal organization 
and improving the Department's services to States, districts, 
postsecondary institutions, and the public. We recommend, for 
instance, a number of consolidations, including proposals for 
the Federal TRIO programs and the HEA Title III and V programs 
supporting Minority-Serving Institutions, making them formula 
grants so that States may use the funds more effectively. The 
budget eliminates, streamlines, or reduces funding for many 
discretionary programs that do not address national needs, that 
duplicate other programs, are ineffective, or are more 
appropriately supported with State, local, or private funds.
    The budget reflects our commitment to spending taxpayer 
dollars wisely and efficiently. The Federal Government does not 
and cannot know the unique needs of each individual student in 
America. Parents and teachers know their students best and know 
how their needs should be addressed.
    With this budget, we can continue to return power to those 
who walk side by side with students every day because that is 
who budgets are for, not for special interests, not 
legislators, not the system. This budget is about students. It 
is easy to get lost in the numbers and forget about the faces 
of students whom we have all pledged to serve. Education can 
truly change the trajectory of a child's life. All they need is 
the chance to attain it. More students need the freedom to seek 
an education that unlocks their potential and allows them to 
pursue their passions. That is the focus of this Administration 
and the focus of this budget.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The statement follows:]
                 Prepared Statement of Hon. Betsy DeVos
    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to testify on the President's Fiscal 
Year 2019 Budget Request for the Department of Education.
    This Department's Budget focuses on improving educational 
opportunities and outcomes for all students while also returning power 
to those closest to them.
    Ultimately, this Budget sharpens and hones the focus of our 
mission: serving students by meeting their needs. When this Department 
was created, it was charged with prohibiting Federal control of 
education.\1\ I take that charge seriously. Accordingly, President 
Trump is committed to reducing the Federal footprint in education, and 
that is reflected in this Budget.
---------------------------------------------------------------------------
    \1\ Department of Education Organization Act, Section 103(b); 
https://www.gpo.gov/fdsys/pkg/STATUTE-93/pdf/STATUTE-93-Pg668.pdf.
---------------------------------------------------------------------------
    I won't miss an opportunity to point out that past Federal 
education reform efforts have not worked as hoped. Too many of our 
children are still unprepared to lead successful careers and fulfilling 
lives, despite billions of dollars injected into the system with the 
goal of improving the outcome.
    The United States spends more per pupil than nearly every other 
developed country, many of which perform better than our Nation on the 
international stage. Yet there are many who, despite the evidence to 
the contrary, continue to push ``more funding'' as the answer to every 
challenge. Student success should be measured by the outcomes--by what 
they achieve. It should not be measured by the number of inputs. That's 
why this Budget refocuses taxpayer dollars more effectively to benefit 
students.
    The President's Fiscal Year 2019 Budget would reduce overall 
funding for Department programs by $3.7 billion or 5.6 percent from 
fiscal year 2017 enacted levels.
    The Budget was initially prepared prior to enactment of a 2-year 
cap deal, which raises the fiscal year 2019 caps significantly above 
the previous cap levels. To account for the resulting higher non-
defense spending levels in the most fiscally responsible manner, the 
Administration submitted an addendum to its 2019 Budget that includes 
nearly $3 billion in additional funding for a limited set of 
Administration priorities under the new, higher cap levels. The fiscal 
year 2019 Budget request is $7.6 billion or 10.8 percent below the 
fiscal year 2018 enacted appropriation.
    This addendum restores valuable investments in students, including 
Impact Aid Basic Support Payments, TRIO, school choice, and Federal 
Work-Study, while eliminating a proposed rescission of Pell Grant 
balances.
    This Budget seeks to support and empower families and expand 
postsecondary pathways, helping ensure students lead successful careers 
and fulfilling lives.
    First, our request would provide significant new resources 
dedicated to helping achieve the President's goal of giving every 
student the freedom to attend a school that best meets his or her 
unique needs.
    The Budget provides funding for this purpose through a new 
Opportunity Grants program that would expand the number of students who 
have the opportunity to attend a school of their choice. Under this new 
program, States could apply for funding to provide scholarships to 
students from low-income families that could be used to transfer to a 
different school, and local educational agencies participating in the 
Department's weighted student-centered funding pilot could request 
funds to build on the flexibility provided by establishing or expanding 
open enrollment programs.
    In addition, the Budget requests support for charter schools by 
providing an increase of $100 million--for a total of $500 million--and 
continues support for magnet schools. We also are proposing to expand 
the Direct Student Services reservation in section 1003A of the ESEA to 
allow States to reserve up to 5 percent of their Title I allocations to 
further expand educational choice, including helping disadvantaged 
students attending a school identified for improvement to transfer to a 
higher-performing school.
    Second, the Administration's request recognizes the importance of 
maintaining strong support for students with disabilities. Our request 
intended to maintain funding for programs authorized under the 
Individuals with Disabilities Education Act (IDEA), including essential 
preschool and K-12 formula grant programs that provide basic support to 
schools and programs that support research, demonstrations, technical 
assistance and dissemination, and personnel preparation and 
development.
    Third, our request creates more pathways to prepare workers to fill 
existing and newly created jobs, as well as jobs of the future. It 
includes proposals that would promote multiple pathways to successful 
careers while minimizing costs to students and families. The 
Administration believes students need to have a full host of options, 
including technical schools, community colleges, and apprenticeships.
    Students should be able to pursue a variety of pathways to 
successful careers. To that end, funding should follow the student, as 
they do in the Pell Grant program. The Budget requests expansion of the 
use of Pell Grants for high-quality, short-term programs. In addition, 
it invests in career and technical education, and streamlines student 
loan repayment.
    These proposals also support congressional efforts to reauthorize 
the Higher Education Act to address student debt and higher education 
costs while reducing the complexity of student financial aid.
    Fourth, our request supports STEM education to help better equip 
America's young people with the relevant knowledge and skills that will 
enable them to secure high-paying, stable jobs throughout their 
careers. Consistent with the Presidential Memorandum on STEM education, 
our request includes $200 million in new funding to support STEM 
education while continuing to fund almost $330 million in discretionary 
grants for STEM projects.
    Fifth, we look forward to working with Congress on promoting a safe 
and healthy culture in our schools. Our commitment to every student's 
success is one we must renew every day, but first we must ensure our 
children are safe at school. The tragedy at Santa Fe High School in 
Texas was only the most recent, devastating reminder that our Nation 
must come together to address the underlying issues that create a 
culture of violence.
    This Administration is committed to keeping our Nation's students 
and teachers safe at school. I've directed my Department to do 
everything within the law to encourage States and districts to take 
advantage of flexibilities in spending the $1.1 billion in new funding 
available beginning July 1 under the flexible Title IV-A grant program. 
Naturally, the primary responsibility for the physical security of 
schools rests with States and local communities. Schools must have the 
resources they need to improve safety infrastructure, hire more 
counselors, and host more programs and activities aimed at violence 
prevention. We owe the victims of school violence nothing less.
    Our request also supports a new round of School Climate 
Transformation Grants that will help States support effective 
implementation of school-based opioid abuse prevention strategies by 
addressing mental health and other needs of students affected by the 
epidemic. This funding would also support technical assistance centers 
that develop and provide opioid abuse prevention resources that would 
be publicly available to all schools and postsecondary institutions.
    Finally, our request reflects a number of reform proposals aimed at 
streamlining the Department's internal organization and improving the 
Department's services to States, districts, postsecondary institutions, 
and the public. We recommend, for instance, a number of consolidations, 
including proposals for the Federal TRIO programs and the HEA Title III 
and Title V programs supporting Minority-Serving Institutions, making 
them formula grants so that States may use the funds more effectively. 
The Budget eliminates, streamlines, or reduces funding for many 
discretionary programs that do not address national needs, duplicate 
other programs, are ineffective, or are more appropriately supported 
with State, local, or private funds--reducing taxpayer costs by $7.6 
billion.
    The Budget reflects our commitment to spending taxpayer dollars 
wisely and efficiently. The Federal Government does not--and cannot--
know the unique needs of every individual student. Parents and teachers 
know their students best and know how their needs should be addressed.
    With this Budget we can continue to return power to those who walk 
side-by-side with students every day.
    Thank you for this opportunity to testify. I will be happy to 
respond to any questions you may have.

                 SCHOOL SAFETY FUNDING AND FLEXIBILITY

    Senator Blunt. Well, thank you, Secretary DeVos. Glad to 
have you and Mr. Cordes from the budget office there with you.
    Let us talk about student safety to start with. Clearly the 
idea that people go to elementary school and high school and 
any school anywhere with some sense that bad things have 
happened in other schools and can happen in their school--what 
are we doing to try to minimize that likelihood? There was a 
$22 million increase in the spending bill that you just got at 
the end of March for school safety. What are you doing with 
that? And what ideas do you have of other programs that we 
might allow more flexibility to use those programs like Title 
II and Title IV, as an example, for school safety? With the 
situation we are in now, every parent, every grandparent, every 
citizen sees that as unacceptable. What can we do to encourage 
school districts getting to the right place on the safety of 
kids at school?
    Secretary DeVos. Thanks, Chairman, for that question.
    I know we all share concern for students as they attend 
school each day and feel for the parents who fear for their own 
children's safety. It is a focus of this Administration. I know 
it is the focus of this body as well.
    And I would just broaden the question and the issue around 
the issue of the Commission that the President has commenced 
and that I am chairing to look at practices that are happening 
in States and in some communities. We have been charged with 
about 27 different items to look at and study and to raise up 
best practices on to share more broadly. I think one of the 
most important things we can do is help others learn about what 
has been effective in a local community or in a State and 
encourage them to adopt some of these measures in their own 
communities or in their own States.
    I know many State legislatures are debating this very topic 
and issue right now and are formulating plans and policies that 
are unique to their situations. We know there is no one-size-
fits-all approach. We know that our geographies and our people 
are very dispersed. And so we have to make sure that there are 
ample menu options to choose from for communities to consider, 
ensuring that their school buildings--that their students are 
safe at school each day.

      APPLICATION OF $22 MILLION INCREASE IN SCHOOL SAFETY FUNDING

    Senator Blunt. And are there things we can do with $22 
million that you did not have in the past for this purpose or 
other programs to encourage those menu options to be looked at 
and funded when chosen?
    Secretary DeVos. Yes, indeed, and also the Title IV funds 
for which there is great flexibility. Those all will be part of 
the forward-looking focus of this Commission and the 
recommendations that will follow. And as States and communities 
develop their plans and programs, these funds will be available 
for proven solutions, ones that have been enacted in certain 
places that have proven effective. And we are there. We want to 
support those activities and ensure that each community is able 
to answer and address this situation unique to their 
circumstances.

                              PELL GRANTS

    Senator Blunt. I am sure others will come back to that, so 
let me move on quickly in the minute and 30 seconds I have 
left.
    On Pell Grants, you are talking about allowing Pell Grants 
to be used for certification programs and other programs that 
in the short-time programs in the past we have not allowed Pell 
Grants to be used. I am supportive of that, but I would like to 
hear a little bit more about your thought as to how those 
shorter-term certification programs would be defined and how 
Pell Grant eligibility would help prepare that workforce.
    Secretary DeVos. Well, thank you.
    We know that fewer and fewer students today are traditional 
students, going from high school into a 4-year college or 
university. And we know that there are many opportunities for 
students to pursue a shorter-term program, a certification, a 
credentialing that will get them into the workforce into a 
meaningful path and track for whatever their interests might 
be. Our proposal is to develop high quality, short-term 
programs and do so in conjunction with Congress to put the 
appropriate guardrails around that, but acknowledging that 
students are very different today than they were 20 or 30 years 
ago, and to meet their needs and to meet the needs of our 
economy today, we can do so by recognizing and allowing for 
those kinds of flexibilities and innovations.
    Senator Blunt. Well, I think in the interest of everybody 
being sure they get their questions in on the panel, I am going 
to enforce the time limit pretty carefully. So I will enforce 
it on myself. My time is up and now to Senator Murray.

             OFFICE FOR CIVIL RIGHTS RESOURCES AND STAFFING

    Senator Murray. Thank you very much, Mr. Chairman.
    Secretary DeVos, let me start with you. You claim the 
Office for Civil Rights is more efficient under your new 
policies. One new policy that you have allows the Office for 
Civil Rights to dismiss complaints if it places an unreasonable 
burden on OCR (Office for Civil Rights) resources. If you feel 
there is a strain on OCR resources, you should be asking 
Congress for more funding to make sure that every student is 
protected.
    Last year, you reduced the number of staff at OCR through 
voluntary buy-outs. Does that not result in fewer staff to 
handle the workload?
    Secretary DeVos. Thanks for that question, Senator.
    And before I answer that one, I just want to make reference 
to your opening----
    Senator Murray. Well, I have a very short amount of time.
    Secretary DeVos. I know that.
    Senator Murray. So if you could just answer me yes or no on 
that question, and we will get a chance to hear on your others 
later. But I want to know.
    Secretary DeVos. The Office for Civil Rights is very much 
focused on the work that it has before it. They have been able 
to do so with effectiveness and efficiency. I am very proud of 
the work that they have done, and they continue to address all 
complaints appropriately and will continue to do so.

          IMPACT OF REQUESTED FUNDING ON OCR CLAIMS DISMISSAL

    Senator Murray. Well, you are requesting even fewer 
resources for OCR. Does that mean OCR will dismiss even more 
complaints because of the burden it places on their efforts?
    Secretary DeVos. We are committed to ensuring that the 
rights of every student are protected, and the Office is very 
much committed to continuing that work.
    Senator Murray. Well, I think it is very clear with fewer 
resources, fewer staff, and that we are going to take fewer 
claims and protect fewer students. That really is not how OCR 
is supposed to operate. Congress has taken very clear steps to 
address that issue with our budget. In the spending bill that 
we passed last year, Republicans and Democrats actually 
rejected your proposed cuts to OCR and instead directed OCR to 
increase staff in order to effectively and timely investigate 
the complaints. Your staff would not provide specific 
information to our bipartisan, bicameral appropriations staff 
during a briefing on your hiring plans. Will you commit here 
and now to get back to our staffs with specifics on that, 
please?
    Secretary DeVos. We will be happy to get back with you on 
that. We are in the process of following the orders and the 
intent of Congress. We remain very committed to protecting 
students' rights.
    Senator Murray. Okay. Your staff refused to give us 
answers. So we would like that and would appreciate getting 
back to us.
    Secretary DeVos. Of course.

                            TEACHER STRIKES

    Senator Murray. During your April meeting with State 
Teachers of the Year, you claimed that the teacher strikes 
occurring around the country were coming, quote, ``at the 
expense of children''. Those teachers out there are fighting 
for new school supplies for their students, classrooms that are 
not falling apart, and the ability to support their families on 
their salaries. Do you think children benefit when they have to 
use outdated and worn books or when their teachers have to work 
multiple jobs just to make ends meet?
    Secretary DeVos. I think students, when they are not able 
to go to school because they do not have anyone to go to school 
to teach them--that hurts them. And so my point has been that I 
hope that adults will have their disagreements and debates 
outside of the time that it impacts and affects students. We 
need to ensure that students are kept in the center of the 
equation on this whole question.
    Senator Murray. Well, it takes money to pay teachers more. 
And you keep trying to cut Federal investments, as I talked 
about in my opening statement. Do you think children benefit 
from your proposals to cut billions from public elementary and 
secondary schools, including funding to train teachers, 
underfunding grants for students' safety, well-rounded 
education and other issues, an after-school program for almost 
2 million students? Do you think children benefit from that?
    Secretary DeVos. Our budget is focused on helping students 
that need the most help. And we are keeping in mind the fact 
that the Federal Government is only 10 percent of the equation 
of funding for schools. We need to stay focused on what 
actually benefits students the most, and we believe our budget 
stays very focused on those students----

                REFUGEE STUDENTS AND TEACHER OF THE YEAR

    Senator Murray. I can tell you as a former school board 
member, I can tell you every dollar counts.
    Finally, you may have seen the student letters that Mandy 
Manning--she is the National Teacher of the Year from my home 
State of Washington. The National Teacher of the Year. She 
delivered it personally to President Trump. And she teaches 
English actually to refugees and immigrants. And one of her 
students wrote to President Trump. And I want to read it to 
you.
    When you say you don't want refugees, students in the hall 
at school tell me that they don't want me here because I am a 
refugee. You can change this by saying good things about people 
like me.
    That is what a student said from the Teacher of the Year.
    Do you think it would be good for all children if the 
President would say good things about students like those of 
our National Teacher of the Year?
    Secretary DeVos. I had the pleasure of meeting Mandy, and I 
think she is an awesome teacher. I think that the work that she 
does is so important, and I think that we need to continue to 
support her and all of our counterparts.
    Senator Murray. Do you think adults should be careful with 
their language because of the impact it has on students like 
that?
    Secretary DeVos. I think we all have an opportunity to be 
careful with what we say.
    Senator Murray. Including the President?
    Secretary DeVos. All of us have the opportunity to be 
careful.
    Senator Murray. Thank you.
    Senator Blunt. Thank you, Senator Murray.
    Senator Lankford.

                 PUBLIC SCHOOL CHOICE WITHIN A DISTRICT

    Senator Lankford. Thank you, Mr. Chairman.
    Madam Secretary, it is good to see you again. Thanks for 
all the work that you are doing for our kids and our teachers 
around the country. I appreciate the ongoing work.
    I want to ask you about a proposal that you have dealing 
with students having and parents having options within a 
district to be able to choose a different school within a 
district. Now, this is a very different kind of discussion 
about school choice.
    I happened to grow up in a district that had four high 
schools in it, and I was allowed, even at the time that I went 
to high school, to be able to pick whichever high school that I 
wanted to be able to attend. I was in the band. I liked the 
band program in one of the high schools that was across town 
better than the one that was closer to me. So I had the 
opportunity to be able to choose to drive across town and to be 
able to get there. Now, that was a burden for my family and all 
those things to be able to work on transportation issues, but 
it gave me the option to be able to choose that.
    I think that is what I am hearing from you when you are 
talking about somewhat about school choice within districts. 
You are talking about having that opportunity. What is the 
incentive? How would that work for the school that was not 
chosen? How does that work for parents? And what do you 
envision there?
    Secretary DeVos. Thanks, Senator, for that question.
    I would just say at the beginning you were very fortunate 
because your school district must have been a real leader in 
its time in allowing for open choice within the district.
    There are few districts--there are some that offer that 
today, and we encourage districts to look seriously at opening 
up their district-wide choice to meet students' needs better. 
Part of our proposal through the Opportunity Grant proposal and 
also through the student-weighted funding pilot program through 
ESSA (Every Student Succeeds Act) provides a couple of 
different ways that local districts could look at opening up 
options to a wider range of schools within the district. We 
very much encourage States and school districts to look at 
doing so because it does help continue to give students the 
kinds of options and choices that they need.

        FLEXIBILITIES REQUIRED TO EXPAND CHOICE WITHIN DISTRICTS

    Senator Lankford. So mechanically how would that work? You 
have got a parent that does not have any kind of wealth, that 
transportation is going to be a challenge for them, that want 
their kids to be able to go to another school on the other side 
of the district and say they may have better opportunities 
there, they may have better test scores, whatever it may be. 
The finances and the flexibility--could they use that for 
transportation and be able to help? How would that impact the 
first school there, that now has smaller class sizes because 
they have fewer students? But how does that help them as well?
    Secretary DeVos. Well, we have seen this implemented on a 
smaller scale in a number of States. It really does depend on 
what the needs of that district are. Transportation costs could 
be factored in and a variety of different accommodations to 
ensure that the students' needs are met and that the disruption 
is minimized in the district. The idea of the proposal is to 
remain flexible so that States and local districts can adopt 
the kind of approach and the kind of supports that will work 
for them.
    Senator Lankford. I met last week with a group of African 
American pastors and floated this concept to them. They 
happened to be in an urban district in my State. And I asked 
them, how would this work for you, how would this work for your 
parents. The gentleman to my left immediately said I would be 
glad to take any opportunity that we had to be able to do that, 
for my parents to be able to choose whichever school in the 
district they want to be able to go to as long as the school 
close to me is not forgotten because some parents will not have 
that opportunity.
    Do you envision that there is still that focus from the 
district to say we are not leaving any one school behind, but 
we are also giving parents that option?
    Secretary DeVos. Well, again, I think in the districts that 
have implemented this well that has been a high sensitivity for 
them. I think about Indianapolis that has done a really 
innovative job of addressing this and have created innovation 
schools alongside some of the traditional schools within the 
district. They have, again as a district, been quite sensitive 
to what the needs of the whole district are. So that 
opportunity is very much there, and the proposal remains very 
flexible so that districts can address these issues according 
to the local need.

             IMPORTANCE OF INTERDEPARTMENTAL COLLABORATION

    Senator Lankford. Terrific.
    Let me bring up one caveat as well. I know that the 
Department of Education and the Department of Labor are trying 
to be able to work together because ultimately we are preparing 
people for careers. So that cooperation should be there. In 
fact, in most other countries, education and labor are one 
entity within government rather than two. So I appreciate the 
cooperation.
    I would like to encourage continued cooperation as well 
between Interior and Education because our Indian education 
continues to suffer around the country. There are some assets 
that you could bring to bear that would help the Bureau of 
Indian Affairs and the Bureau of Indian Education to be able to 
have that cooperation together. So as you are cooperating with 
Labor, I would encourage continued cooperation with Interior as 
well.
    Secretary DeVos. Indeed. Thanks, Senator.
    Senator Lankford. Thank you.
    Senator Blunt. Thank you, Senator Lankford.
    Senator Leahy.

                        SCHOOL SAFETY COMMISSION

    Senator Leahy. Thank you, Mr. Chairman.
    Secretary DeVos, welcome back to the subcommittee.
    Secretary DeVos. Thank you.
    Senator Leahy. I regret that we are discussing a budget 
proposal that does not support all students seeking to learn in 
our education system. And I will not repeat what Senator Murray 
said, but I totally agree with her statement.
    Let me go into another area. You are the chair of the 
President's School Safety Commission that was formed after the 
school shooting in Florida that left 17 students and educators 
dead. Our country is now averaging a school shooting each week. 
In fact, 1 day after the Commission met last month, another 10 
students and teachers were killed in Santa Fe, Texas.
    I understand your commission intends to release its 
recommendations by the end of the year. Will your Commission 
look at the role of firearms as it relates to gun violence in 
our schools?
    Secretary DeVos. Thanks, Senator, for that question.
    It is an honor to serve and to lead this Commission.
    We are focused on the 20-some different provisions that 
the----
    Senator Leahy. I understand there is a lot. But I am also 
thinking the chairman has difficulties. So I tried to give you 
a question that could be answered yes or no. Will your 
Commission look at the role of firearms as it relates to gun 
violence in our schools?
    Secretary DeVos. That is not part of the Commission's 
charge per se.

                    ROLE OF GUNS IN SCHOOL VIOLENCE

    Senator Leahy. I see. So you are studying gun violence but 
not considering the role of guns?
    Secretary DeVos. We are actually studying school safety and 
how we can ensure our students are safe at school.
    Senator Leahy. Well, you are studying things like how much 
time they spend on video games and all that, but you can go to 
a lot of other countries where they spend just as much time but 
have only a tiny fraction of the shootings that we do.
    The gun of choice for mass shooters is an AR-15. Do you 
believe an 18-year-old high school student should be able to 
walk into a store, and minutes later come out with an AR-15 
style rifle and hundreds of rounds of ammunition?
    Secretary DeVos. Well, sir, I know that this body and your 
counterparts on the other side of the Capitol have addressed a 
number of these issues, and I know that you are going to 
continue to debate them and discuss them.
    Senator Leahy. I am trying to give you questions that could 
be answered yes or no. So let me repeat it in case I was not 
clear.
    Secretary DeVos. Thank you.
    Senator Leahy. Do you believe an 18-year-old high school 
student should be able to walk into a store and minutes later 
come out with an AR-15 style assault weapon and hundreds of 
rounds of ammunition?
    Secretary DeVos. I believe that is very much a matter for 
debate. And I know that has been debated within this body and 
will continue to be.
    Our focus is on raising up successful, proven techniques 
and approaches to ensuring schools are safe for students to 
attend.
    Senator Leahy. Are you looking at those other countries 
where the students spend just as much time on social media and 
video games and everything else but have much lower gun 
violence in their schools?
    Secretary DeVos. We had a very important meeting last week 
in Maryland at a school within a district that has employed an 
approach called PBIS (Positive Behavioral Interventions and 
Supports) for 16 or 18 years that deals with----
    Senator Leahy. I am sorry. Maybe I did not make my question 
clear. Are you looking at some of those countries where the 
students do just as much time on video games, just as much time 
on social media as we do, but do not have gun violence? Are you 
looking at those at all? That is a yes or no.
    Secretary DeVos. Not per se.

AFTER SCHOOL PROGRAMS AND SUPPORTING STUDENTS AFFECTED BY OPIOID CRISIS

    Senator Leahy. Thank you.
    So we will look at gun violence in schools but not look at 
guns. It is an interesting concept.
    Now, I have learned from after-school programs across my 
own State of Vermont. Many of the families who participate are 
struggling with opioid addiction. I think the same could be 
said probably of every single State represented by Republicans 
or Democrats in this body. Are you concerned that by pulling $1 
billion in after-school funding the Department of Education 
would be complicating recovery for many families who depend on 
safe and educational care for their children in order to hold 
down a job or focus on addiction treatment?
    Secretary DeVos. We are very much focused on this program--
I mean, on this problem and have, in fact, in the budget 
included $43 million to identify and encourage replication of 
effective prevention programs. We also know that there is a lot 
of flexibility----
    Senator Leahy. That is not included in the 11 percent that 
you have cut from key programs that do support our students.
    Secretary DeVos. The focus is on flexible funding to be 
used as needed by the districts and the States in which these 
problems are more prevalent, and we encourage States to take 
that flexibility and to apply it in ways that it is going to be 
particularly effective and meaningful for their communities.
    Senator Leahy. Thank you. My time is up, Mr. Chairman. 
Thank you.
    Senator Blunt. Thank you, Senator.
    Senator Alexander.

                       ESSA STATE PLAN APPROVALS

    Senator Alexander. Thank you, Mr. Chairman.
    Madam Secretary, welcome.
    Under our new Every Student Succeeds Act, replacing No 
Child Left Behind, every State submits a plan to you for 
approval in order to receive about $18 billion of Federal 
funding for Titles I, II, and IV. I have some questions on that 
because it has been suggested by some--not me--that you are not 
following the law in approving those plans.
    How many State plans have been approved so far?
    Secretary DeVos. 46 State plans.
    Senator Alexander. Do you believe it is a requirement of 
the law that States collect, report, and use data on the 
performance of all students and each subgroup of students?
    Secretary DeVos. Yes, indeed.
    Senator Alexander. Do all the State plans that you have 
approved thus far propose to look at data from, ``all students 
and each subgroup of students''?
    Secretary DeVos. They do, yes.
    Senator Alexander. Do you believe it is a requirement of 
the law that States identify schools with, ``consistently 
under-performing subgroups''?
    Secretary DeVos. Yes.
    Senator Alexander. Do all of the State plans that you have 
approved thus far propose to identify schools with, 
``consistently under-performing subgroups''?
    Secretary DeVos. Yes, indeed.
    Senator Alexander. After the Passage of the Every Student 
Succeeds Act, Secretary Duncan reportedly said, ``Candidly, our 
lawyers at the Department of Education are much smarter than 
many of the folks who are working on this bill.'' Are any of 
those smart lawyers still at your Department?
    Secretary DeVos. Indeed, they are, probably most of them.
    Senator Alexander. Do those smart lawyers at the Department 
agree that the plans that you have approved meet all of the 
requirements of the law?
    Secretary DeVos. They do.

             SIMPLIFYING FINANCIAL AID APPLICATION PROCESS

    Senator Alexander. Thank you, Madam Secretary.
    Now, let me ask you this. We have had a lot of discussion 
in our authorizing committee about trying to make it simpler 
for students to apply for and pay back where they need to their 
Federal student aid, $100 billion in loans each year, $30 
billion or so in Pell Grants.
    It seems to me that applying for Federal aid for college 
should be as simple as buying a plane ticket on your phone or 
buying a book with one click. This has been invented and we use 
it for all sorts of things.
    Now, you have asked for $50 million in the budget in order 
to modernize the system by which students apply for and pay 
back their Federal financial aid. What can you tell us about 
that? How do you plan to spend the money? And why do you think 
you will be successful doing this when we were so unsuccessful 
in technology when we dealt with the Obamacare exchanges, which 
turned into a big mess?
    Secretary DeVos. Thanks, Senator, for that question.
    I am really excited about the effort to modernize Federal 
student aid, both the process and the experience. We believe 
that students should have a world-class experience when 
applying for and then subsequently paying down their student 
loans. The framework and infrastructure for this has not been 
modernized and has not been--it has been sort of patched over 
the last 20-some years. So our approach is to completely 
restructure and make that experience one that will be seamless 
for students, one that we can complete the Federal student aid 
application on your smart phone, and again have the world-class 
experience that we have come to expect in every other area of 
life.
    The confidence I have in being able to do that is that we 
have the right leadership in place to be able to ensure that--
--
    Senator Alexander. Who is that? Why do you think that?
    Secretary DeVos. Well, we have Dr. Wayne Johnson who comes 
from the financial services field with much experience and lots 
of entrepreneurial activity in that field. In fact----
    Senator Alexander. Has he ever done anything like this 
before?
    Secretary DeVos. He has, indeed. Some of you may recall 
years ago when you got new credit cards in the mail, they would 
come without an activation code because that was just how it 
was done. Strangely enough, many of those cards disappeared in 
the process of getting from the origination point to your 
mailbox. Well, he developed the 1-800 number that now we just 
go online to activate. But the 800 number was his invention, 
and it became ubiquitous across the financial services 
industry. So very forward-thinking and a very deep knowledge of 
that field and that process and that experience.
    We are committed to having the first steps completed for a 
pilot test in July of this year, and we will be able to in the 
fall--hopefully by October 1st--have the full thing being able 
to roll out so that student aid applications for the next 
school year will be able to be completed online in one sitting.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Alexander.
    Senator Shaheen.

             SCHOOL VIOLENCE FROM INTERNATIONAL PERSPECTIVE

    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you for being here, Secretary DeVos.
    I want to go back to an issue that was raised by Senator 
Leahy because we got an email from a high school student from 
Dover, New Hampshire in our office, and she writes--and I am 
quoting--``it should be known that I am a student and that 
February 14th, 2018, which was the date of the Parkland 
shooting, was not the first time in my life that I have stayed 
up at night thinking extensively about how I would react in a 
situation such as a school shooting. I at 16 years old should 
not have an intimate relationship with the idea of mass 
shootings. But I do. And so does every one of my friends. So do 
my parents. So does my 9-year-old brother, and so does the rest 
of the country.''
    I think that outlines very dramatically a problem that is 
unique to the United States, sadly. School shootings in the 
U.S. occur at a scale far beyond any other major industrialized 
nation. Since 2009, the U.S. has had 57 times more school 
shootings than the rest of the G-7 countries combined. That is 
288 school shootings in the U.S. compared with 2 each in Canada 
and France, 1 in Germany, and none in Japan, Italy, or the 
United Kingdom.
    So the question that I have for you is, are you going to be 
looking at this? What are these other countries doing to 
protect their students from school shootings? Do they have 
fewer mentally ill people? Are they arming their teachers? Or 
do they have more sensible gun laws?
    Secretary DeVos. Senator, thank you for that question. 
These are, of course, very important questions in the whole 
context of talking about keeping schools safe and making sure 
students are safe in school.
    The Commission that has begun its work is very much focused 
on the range of issues that we have been asked to address and 
to focus on. It does get down to looking at what is this 
culture of violence, where does it come from. It really is the 
issue of violence, and violence can manifest in several 
different ways.
    Senator Shaheen. Excuse me for interrupting, but we do have 
limited time.
    But given that, it does seem to me that you should think 
about reworking the mission of the Commission so that it is 
also taking a look at guns and the role that guns play in 
school violence. So I would urge you to do that.

                   AFFORDABILITY OF HIGHER EDUCATION

    I would like to move on to another topic because you said 
in your opening remarks that education can change the 
trajectory of a child's life, and I very much believe that. I 
believe that going to good schools and having an opportunity 
for a higher education provides opportunities that young people 
can get in no other way.
    And so that is why I am so puzzled about why your budget 
proposes cutting so many of the programs that help our students 
in New Hampshire, the after-school programs, the help for 
college students, particularly first generation college 
students. We heard from some students at the University of New 
Hampshire, one pre-med student who says coming to college can 
be very overwhelming. Personally I did not have family members 
that could guide me to college, tell me what to expect or what 
to do. And being part of TRIO, they were that family.
    So we also have the second highest student loan debt in the 
country, and yet your budget proposes cuts that will force 
students to take out even more loans to pay for school. You 
eliminate work-study programs. You eliminate subsidized loans 
for undergraduates. How should we tell students in New 
Hampshire that they are going to be able to afford college and 
that they are going to be able to go to good schools?
    Secretary DeVos. Senator, we are very much focused on 
ensuring that students that have the greatest need have also 
the greatest opportunity. This budget was predicated on making 
decisions around the parameters that we were given and is 
really focused on programs that do meet students that are in 
the greatest need directly. Some of the programs that you 
referred to are ones that have not been proven to be effective 
or have been spread too thinly or----

                    EVIDENCE OF INEFFECTIVE PROGRAMS

    Senator Shaheen. And do you have reports that show that 
they have not been effective? Can you share that with the 
committee why the 21st Learning Grants you believe are not 
effective?
    Secretary DeVos. Yes, indeed. There is data that 
demonstrates ineffectiveness in that program and we would be 
happy to share that.
    Senator Shaheen. I think we would very much appreciate 
seeing that information.
    [The information follows:]
           performance and evaluation data for 21st century 
                   community learning centers program
    While limited evaluation and survey data from certain States and 
individual centers demonstrate benefits from participation, such as 
improved behavior and classroom grades, overall program performance 
data show that the 21st CCLC program is not achieving its goal of 
helping students, particularly those who attend low-performing schools, 
meet challenging State academic standards. For example, in 2016, only 
26 percent of elementary school program participants improved from not 
proficient to proficient or above on State assessments in reading and 
only 19 percent of middle and high school program participants improved 
from not proficient to proficient or above on State assessments in 
mathematics. Furthermore, student improvement in academic grades was 
limited, with States reporting higher math and English grades for less 
than half of ``regular program participants,'' defined as students who 
attended programs for 30 days or more during a school year. 
Additionally, the last rigorous national evaluation of the program, 
conducted in 2005, found the program had limited academic impact (see 
https://www2.ed.gov/rschstat/eval/other/cclcfinalreport/cclcfinal.pdf).
    The program's longstanding failure to contribute meaningfully to 
improved academic outcomes may be partly explained by the fact that 
less than half of all participants (728,000 out of 1.9 million, or 44 
percent) attended programs for 30 days or more during the 2015-2016 
school year. These data suggest that low participation rates and 
limited or infrequent access to federally funded activities are 
significant obstacles to program effectiveness.
    A 2010 report prepared by the Department's Policy and Program 
Studies Service, ``21st Century Community Learning Centers: Descriptive 
Study of Program Practices,'' analyzed data from a nationally 
representative sample of 21st CCLC programs to evaluate State and local 
program implementation (see http://www2.ed.gov/about/offices/list/
opepd/ppss/reports.html#after-school). The evaluation focused on how, 
and to what extent, funds support high quality programs that emphasize 
academic content, as well as staffing patterns and other features of 
after-school program implementation that may have an impact on the 
quality of the programming offered. Centers reported that about half of 
their students attended roughly 2 days a week or more. In addition, 
three-quarters of the centers reported that a typical student 
participated in reading activities (75 percent) and mathematics 
activities (81 percent) for less than 4 hours per week. About half of 
centers reported offering professional development opportunities to 
staff through training courses or conferences.
    A 2005 program evaluation conducted by the Department's Institute 
of Education Sciences found that there were no differences between 
treatment group students and control group students on most academic 
outcomes; treatment group students scored no better on reading tests 
than control group students and had similar grades in English, 
mathematics, science, and social studies. This study identified a 
potentially contributing factor to the lack of academic gains resulting 
from the program: only 53 percent of the treatment group students who 
continued to have access to a 21st CCLC program in year 2 of the 
evaluation continued to attend a center (see https://www2.ed.gov/
rschstat/eval/other/cclcfinalreport/cclcfinal.pdf).

                  PROPOSED CUTS TO FEDERAL WORK-STUDY

    Senator Shaheen. And on higher education, you think the 
Work-Study program has not helped students with----
    Secretary DeVos. The Work-Study program we have continued 
to propose funding for. The piece that you are referring to is 
the graduate piece of that program and again, making difficult 
decisions around where to focus the resources. By the time a 
student gets into a graduate program, there are other 
opportunities. We are focused on trying to get the greatest 
number of students the opportunity to pursue higher education 
whatever that looks like for them. That is why we have 
suggested a short-term Pell program as well because we cannot 
make the assumption that a 4-year college or university is the 
right answer or the right pathway for every single student.
    Senator Shaheen. My time is up. Thank you.
    Senator Blunt. Thank you, Senator Shaheen.
    Senator Capito.

                 ADDRESSING REJECTED TRIO APPLICATIONS

    Senator Capito. Thank you, Mr. Chairman.
    And thank you, Secretary DeVos, for coming this morning and 
thank you for your service.
    I wanted to follow up. You came by the office a few weeks 
ago and we talked about the TRIO programs. And I wanted you to 
share with the committee your plan for reviewing these 
applications that were discarded due to either formatting or 
budget issues. This Committee, thanks to Chairman Blunt and 
others, wants to make sure that institutions like WVU and West 
Virginia State are not penalized for the minor errors in their 
applications.
    Secretary DeVos. Thanks, Senator, for that question.
    We did have that conversation. And as you know, the 
formatting issue was dealt with I think later last year. But 
there were some other applications that had some issues with 
the budgetary formatting and/or some of the numbers, frankly. 
Per the direction of Congress, we have gone back and have 
opened a process to reexamine those--I think it is--40-some 
applicants that fall into that category.
    Senator Capito. Do we have a timeline on that?
    Secretary DeVos. I do not have the specific timeline, but I 
would be happy to get that to you.
    Senator Capito. Thank you.
    In your remarks, you mentioned that a number of 
consolidations are occurring, including proposals for the 
Federal TRIO, HEA, Title III and Title V supporting Minority-
Serving Institutions, making them formula grants so that the 
States may use the funds more effectively.
    Could we talk about that a little bit? Does that mean it is 
formula grants down to the State to make that decision? Is that 
how you envision that? And why is that more efficient and a 
better way to deliver the funding than what we presently have?
    Secretary DeVos. So let me just go back to your previous 
question because I just--we are on track to have the process 
for the 40-some schools we just talked about done by the summer 
so that it is in advance of the next school year.
    Senator Capito. The fall. Great.

            PROPOSAL TO SHIFT COMPETITIVE TO FORMULA GRANTS

    Secretary DeVos. With respect to your question about some 
of the programs that we have proposed for consolidation, all of 
these programs--about 90 percent of the funding continually 
goes to the same entities. And yet, we have a large process 
within the Department of Education that goes through all of 
these grant programs repetitively time after time and ends up 
granting them out to the same places.
    So our proposal is to make that more efficient and 
recognize what it essentially is, which is more of a block 
granted program, and do so to the States. The States, we 
believe, are closer to the institutions and have a better 
handle on whether there are some new entrants into the market 
that might be considered and also how the existing ones are 
doing. And so that is our proposal to streamline that and make 
that process more effective and recognize what it basically is.
    Senator Capito. I mean, I agree with the premise of giving 
the States the flexibility. I think that goes along with the 
Every Student Succeeds Act that we passed and others.
    My questions is--and I think Senator Shaheen will--her ears 
will perk up on this one as well--whenever I hear the formula 
funding, it always sounds like it is going to be population-
based, and for smaller States, sometimes and a lot of times 
that can be detrimental to maybe previous years. So I would 
just put that on your radar screen.
    Secretary DeVos. The proposal would be for the States to 
get the same level of funding that they had previously.

                            APPRENTICESHIPS

    Senator Capito. Okay. That makes me feel better.
    On the apprenticeships, you and I talked about skills gaps. 
We hear this all the time. You basically cannot have an 
economic development conversation with any businesses who are a 
problem finding the right skill sets for the jobs of tomorrow 
and even the jobs right today. This is a big concern for all of 
us I think. So I am interested in your expansion of the 
apprenticeship, and I know that obviously you all have that.
    What steps are you taking to--are you working with the 
Secretary of Labor on this to expand this? Are you working with 
the unions to expand this? If you could just talk about that 
aspect of it, please.
    Secretary DeVos. Sure. The Task Force on Apprenticeships 
that President Trump had----
    Senator Capito. Right. Put together.
    Secretary DeVos [continuing]. Put together just completed 
its report last month and submitted I think about three dozen 
different recommendations on how to expand this important 
opportunity and pathway. It is one area of import. Actually I 
am going to be in Switzerland later this week where I am 
attending an international forum on apprenticeships, and I 
think this is an area where America can learn a lot from their 
model there. Almost 70 percent of the students in Switzerland 
go into apprenticeships of some sort. When we think of 
apprenticeships, I think we think of a pretty narrow definition 
for them here. And yet, in Switzerland it goes into every 
sector. So I think these are areas that we have to get a lot 
more serious about.
    Referencing back to the work of the Apprenticeship Task 
Force, the group that really discussed the recommendations and 
brought them forward was a very robust combination of business 
leadership, labor leadership, and higher ed leadership, all 
really coming together in a very unanimous and supportive 
fashion to say these are programs and these are areas that we 
have to become much more intentional about supporting business 
to form these new consortiums and apprenticeship opportunities 
and then having the theoretical and instructional pieces come 
alongside and do so in a way that is going to be relevant and 
current for students and able to be flexible to change as the 
needs change.
    Senator Capito. Thank you.
    Senator Blunt. Thank you, Senator Capito.
    Senator Durbin.

                 PROPRIETARY SCHOOLS AND LOAN DEFAULTS

    Senator Durbin. Welcome, Madam Secretary.
    I think we both would agree that when students default on 
their student loans, there are many losers: the student, the 
student's family, America's taxpayers, and you might say other 
students who are counting on that money coming back into the 
Treasury for their generation to have a chance at higher 
education.
    So I want to ask you a question, and I am going to give you 
multiple choice answers. Here is the question. Which group of 
colleges and universities enroll 9 percent of all postsecondary 
students--9 percent of high school grads--but account for 33 
percent of Federal student loan defaults? Here are your 
choices: (A) public colleges and universities, (B) private not-
for-profit colleges and universities, and (C) for-profit 
colleges and universities. Which one would you choose?
    Secretary DeVos. C.
    Senator Durbin. Exactly right.
    So could you explain to me why for-profit colleges and 
universities, which enroll just 9 percent of high school 
graduates, account for 33 percent of all Federal student loan 
defaults?
    Secretary DeVos. It is a very serious issue, Senator, and 
it is one that we have--I think collectively we have to get 
much more serious about looking at both the opportunities for 
students and acknowledge--I think this is a much broader 
question than just what you are trying to get at because----
    Senator Durbin. Well, let me just say----
    Secretary DeVos [continuing]. Students today need to know 
early on before they even get into high school a number of 
different options that they have to pursue beyond high school.
    Senator Durbin. It just seems to me that one class with 
fewer than 10 percent of the students and 33 percent of the 
student loan defaults really has a problem that the other types 
of universities and colleges do not, at least to some extent.
    So here is what is comes down to as far as I am concerned. 
They are charging too much and they are providing too little. 
They are misleading these students into debt and enrollment and 
then casting them off.
    Now, how can I say something as extreme as that? Because 
here is what the statistics show. Two out of three graduates 
from for-profit colleges and universities make less money than 
their high school graduate counterparts who never attend a 
university. So they are not making much money. And it also 
turns out that three out of four students from these types of 
for-profit colleges and universities are not able to pay $1 on 
their Federal student debt within 3 years of entering 
repayment. So a lot is going on here.
    And luckily for us, you have been in charge of a Department 
which has an investigative unit that is going to keep an eye on 
these for-profit colleges and universities because they are 
being investigated by everybody. In fact, some of them are 
failing because of the abusive approaches they have used and 
their misleading marketing: Corinthian, Westwood, ITT Tech and 
so forth and so on.

               APPOINTEES FROM FOR-PROFIT COLLEGE SECTOR

    But here is the thing that troubles me and what I want to 
ask you a question about. Were you aware--I am sure you are not 
aware of this, but you should be. Were you aware of the fact 
that the people you have appointed to the enforcement unit to 
keep an eye on for-profit colleges and universities that are 
ripping off students and their families and taxpayers--I am 
sure you are not aware of this. But it turns out that the head 
of the unit, Julian Schmoke, was a former dean at DeVry, one of 
the largest for-profit colleges and universities in my home 
State of Illinois. And it also turns out that Robert Eitel in 
that same unit you appointed and Diane Auer Jones and Carlos 
Muniz were former employees at Bridgepoint and Career Education 
Corporation, for-profit colleges and universities, themselves. 
So were you aware of the fact that you were appointing people 
to the enforcement and investigative unit who had a conflict of 
interest because of their own private careers before they 
joined you?
    Secretary DeVos. Well, Senator, the enforcement unit, part 
of Federal Student Aid, is very robust and functioning very 
well. And most of those individuals you just referred to are 
not part of the enforcement unit. So that is erroneous 
information.

                      STUDENT AID ENFORCEMENT UNIT

    Senator Durbin. So tell me what happened at the enforcement 
unit?
    Secretary DeVos. Let me just say we are very focused on 
ensuring that colleges and universities have a--the 
opportunities that students have are quality. We have to 
focus----
    Senator Durbin. You have reduced the number.
    Secretary DeVos [continuing]. On the opportunities and the 
outcomes for students----
    Senator Durbin. Well, if you focused on the outcomes and 33 
percent are defaulting on their student loans and only 10 
percent of the students and you took a dozen attorneys in the 
enforcement unit and cut it down to three and then you riddled 
the unit with people with conflicts of interest, it is no 
wonder that little or nothing is being done by way of 
investigation.
    Secretary DeVos. Well, I am sorry, but your information is 
just erroneous.
    Senator Durbin. Mr. Chairman, I ask that the article from 
the ``New York Times,'' which catalogues this in detail--and I 
am sure you have seen it--be made a part of the record after my 
question.
    Senator Alexander [presiding]. So ordered. Thank you, 
Senator Durbin.
    [The article follows:]

New York Times
Education Department Unwinds Unit Investigating Fraud at For-Profits
By Danielle Ivory, Erica L. Green and Steve Eder
May 13, 2018

Members of a special team at the Education Department that had been 
investigating widespread abuses by for-profit colleges have been 
marginalized, reassigned or instructed to focus on other matters, 
according to current and former employees.

The unwinding of the team has effectively killed investigations into 
possibly fraudulent activities at several large for-profit colleges 
where top hires of Betsy DeVos, the education secretary, had previously 
worked.

During the final months of the Obama administration, the team had 
expanded to include a dozen or so lawyers and investigators who were 
looking into advertising, recruitment practices and job placement 
claims at several institutions, including DeVry Education Group.

The investigation into DeVry ground to a halt early last year. Later, 
in the summer, Ms. DeVos named Julian Schmoke, a former dean at DeVry, 
as the team's new supervisor.

Now only three employees work on the team, and their mission has been 
scaled back to focus on processing student loan forgiveness 
applications and looking at smaller compliance cases, said the current 
and former employees, including former members of the team, who spoke 
on the condition of anonymity because they feared retaliation from the 
department.

In addition to DeVry, now known as Adtalem Global Education, 
investigations into Bridgepoint Education and Career Education 
Corporation, which also operate large for-profit colleges, went dark.

Former employees of those institutions now work for Ms. DeVos as well, 
including Robert S. Eitel, her senior counselor, and Diane Auer Jones, 
a senior adviser on postsecondary education. Last month, Congress 
confirmed the appointment of a lawyer who provided consulting services 
to Career Education, Carlos G. Muniz, as the department's general 
counsel.

The investigative team had been created in 2016 after the collapse of 
the for-profit Corinthian Colleges, which set off a wave of complaints 
from students about predatory activities at for-profit schools. The 
institutions had been accused of widespread fraud that involved 
misrepresenting enrollment benefits, job placement rates and program 
offerings, which could leave students with huge debts and no degrees.

Elizabeth Hill, a spokeswoman for the Education Department, attributed 
the reduction of the group to attrition and said that ``conducting 
investigations is but one way the investigations team contributes to 
the department's broad effort to provide oversight.'' She said that 
none of the new employees who had previously worked in the for-profit 
education industry had influenced the unit's work.

She also said the team's deployment on student loan forgiveness 
applications was an ``operational decision'' that ``neither points to a 
curtailment of our school oversight efforts nor indicates a conscious 
effort to ignore `large-scale' investigations.''

Aaron Ament, a former chief of staff to the office of the department's 
general counsel who helped create the team under President Barack 
Obama, said it had been intended to protect students from fraudulent 
for-profit colleges. ``Unfortunately, Secretary DeVos seems to think 
the colleges need protection from their students,'' said Mr. Ament, who 
is now president of the National Student Legal Defense Network.

Senator Elizabeth Warren, a Democrat from Massachusetts, also 
criticized the team's new direction. Ms. DeVos has taken a number of 
actions to roll back or delay regulations that sought to rein in abuses 
and predatory practices among for-profit colleges--actions that Ms. 
Warren and other Democrats have said put the industry's interests ahead 
of those of students.

``Secretary DeVos has filled the department with for-profit college 
hacks who only care about making sham schools rich and shutting down 
investigations into fraud,'' Ms. Warren said.

DeVry did not respond to requests for comment, and Mr. Schmoke declined 
to be interviewed. Mr. Schmoke recused himself from matters involving 
DeVry, according to the department.

DeVry agreed to pay $100 million in 2016 to settle a separate Federal 
Trade Commission lawsuit alleging that it misled prospective students 
with ads about employment and salaries after graduation.

The Education Department announced a limited settlement with DeVry the 
same year after finding that the school could not substantiate claims 
that 90 percent of its alumni since 1975 were employed in their field 
of study within 6 months of graduating. But the investigative team 
continued to look into the institution's job placement claims and other 
recruiting practices.

The former and current employees disputed Ms. Hill's account, and said 
the group and its work had become an issue of contention during 
meetings with the Trump transition team. Several of the employees said 
that there had been a staff push to continue the investigation as 
recently as this year, with no result.

The group had also been looking into similar issues of recruiting and 
advertising at Bridgepoint and Career Education during the latter part 
of 2016, the employees said.

Ms. Hill declined to comment on those cases. ``To preserve the 
integrity of investigations, program reviews and other enforcement 
activities,'' she said, ``the department's practice is to neither 
confirm nor deny current or potential investigations.''

In a statement, Bridgepoint said the company was aware of a review 
beginning in 2015, but had ``not been made aware of any investigation 
or involvement by the enforcement unit.'' Career Education did not 
respond to requests for comment.

Bridgepoint has a high-profile connection in the Trump administration 
beyond the Education Department: It is a former client of Mercedes 
Schlapp, who is now the director of strategic communications at the 
White House.

Ms. Schlapp was a consultant for Bridgepoint at Cove Strategies, a 
lobbying and consulting firm she founded with her husband, Matt 
Schlapp. Bridgepoint said that it remained a Cove client.

The White House did not say whether Ms. Schlapp had recused herself 
from issues involving Bridgepoint and did not respond to a request to 
interview her. Mr. Schlapp said in an email that ``Bridgepoint and 
other online institutions were persecuted by President Obama's 
administration because they dared to bring innovation to the education 
market.''

He added, ``I believe educational innovation and disruption are a fight 
worth having and it matches the President's agenda of rolling back the 
excess of the Obama regulatory stranglehold.''

Mr. Eitel, the senior adviser to Ms. DeVos, last year recused himself 
from issues involving both Bridgepoint and Career Education, where he 
was previously a top lawyer.

Ms. Jones, the senior adviser on postsecondary education, has not 
recused herself from matters involving Career Education, where she 
previously worked, according to a list of recusals the department 
provided. The department did not say whether Mr. Muniz had recused 
himself from issues involving the company.

Ms. Jones worked for about 5 years as a senior vice president at Career 
Education Corporation after serving as assistant secretary for 
postsecondary education for President George W. Bush. She joined the 
Trump administration early this year.

In a letter to Ms. DeVos last week, Ms. Warren and nine other 
Democratic senators called on the department to reveal the extent of 
Ms. Jones's ties to the industry, suggesting she had a history of 
working ``on behalf of bad actors.''

The department issued an extensive statement defending Ms. Jones, 
calling her background an ``asset'' that would advance the department's 
goals. Ms. Jones has had ``vast higher-ed experience in community 
colleges, research universities and for-profit colleges,'' it said in 
the statement, adding that she had spent only a fraction of her career 
in the for-profit industry.

The investigative team emerged in the wake of Corinthian Colleges' 
shutdown as the Obama administration faced criticism for providing 
loans to students attending other for-profit schools that had also been 
accused of illegal activity, substandard practices or predatory 
behavior. While not created expressly to focus on for-profit schools, 
the group directed its attention to those institutions because of their 
recruiting practices and the large amount of students they serve.

Separately, another group, the borrower defense unit, focused on 
forgiving loans for students at Corinthian and other schools where 
fraud had been identified. That group's work all but came to a stop 
last year, but has recently gotten going again.

After Mr. Trump's victory, some employees openly worried about the fate 
of the investigative unit, and policies quickly changed with the new 
administration, according to the current and former employees.

Communication with outside groups now required special approval, 
including with state attorneys general, who had been partners in 
identifying cases, and Federal agencies like the Consumer Financial 
Protection Bureau, which had been aggressively monitoring a number of 
for-profit colleges. Without permission, team members could not contact 
schools or other parties to request documents, an essential part of 
making a case, which effectively halted investigative work.

Ms. Hill, the Education Department spokeswoman, said the department was 
``focused on weeding out bad actors'' across higher education, ``not 
capriciously targeting schools based on their tax status.''

In recent months, the three remaining team members have been looking at 
small cases and examining student requests for loan forgiveness, like 
one filed by Josue Perez.

Mr. Perez, 30, said he was persuaded by an admissions officer at 
Corinthian Colleges' Everest Institute in the Boston area to take out a 
$5,000 loan to attend the school for massage therapy.

The officer told him, according to Mr. Perez, that the college would 
help him find a job when he graduated. But Mr. Perez never received the 
help, he said, and he still has not worked in the field. The loan has 
since tripled to more than $15,000, he said.

He has been waiting for more than a year for the Education Department's 
decision on his claim to forgive the $15,000, he said. In the meantime, 
he worries about the department's new direction.

``They're basically removing the police force that keeps these colleges 
in check,'' he said.

    Senator Alexander. Senator Hyde-Smith.

                      ISSUES FACING RURAL SCHOOLS

    Senator Hyde-Smith. Thank you, Mr. Chairman.
    Secretary DeVos, first of all, I am thrilled that you are 
here. I enjoyed getting to meet you over the phone, and thank 
you for talking with me.
    Rural schools, like many in my State, face unique 
challenges from recruiting and retaining teachers to the lack 
of access to broadband. I believe it is imperative that the 
Department support research to address the specific needs for 
rural schools and students.
    It is my understanding that the Department will recompete a 
grant to establish a Research and Development Center dedicated 
to rural education.
    My question is, what does the Department consider the most 
pressing issues facing rural schools, and how will you help 
tackle these needs, including the severe teacher shortage?
    Secretary DeVos. Senator, thanks for that question.
    I know that the needs of rural communities are very unique 
and they differ from community to community. We very much 
support the flexibility for rural communities to address their 
issues and their needs specifically.
    When we think about opportunities and making sure that 
students have a broad range of opportunity, I think one of the 
most important things is that the schools and the communities 
have access to broadband in a very robust way. I know that that 
is continuing to improve. That is not part of the Department of 
Education's purview but we certainly advocate for the 
widespread adoption of and availability of broadband. That is I 
think one tool that communities can use to ensure that students 
are introduced to a broader subject range through courses that 
they may not be able to provide at their school. But we again 
acknowledge that every rural community is different as well. So 
we support the communities' approaches to address the needs 
that they have for their students and are focused on trying to 
do so in a way that recognizes the varying geographies and the 
varying needs.

         GEOGRAPHY AND REGIONAL DIVERSITY IN FUNDING DECISIONS

    Senator Hyde-Smith. And another question is, how does the 
Department consider the geographic distribution and disparities 
of research projects and fundings?
    Secretary DeVos. The research projects and fundings--those 
are programs that are generally looked at competitively and as 
a whole. And if you have a specific one that you are interested 
in, I would certainly look forward to hearing about that and 
for the Department to look at that program seriously--or that 
request, I should say.
    Senator Hyde-Smith. Thank you for that.
    The Department recently awarded Striving Reader Literacy 
Grants to 11 States, and I understand that this funding is used 
to help States create a comprehensive program to advance 
literacy skills for students from birth through grade 12. Would 
you please share with the committee what the Department is 
doing to ensure these grants benefit a wide variety of States, 
especially rural areas with underserved populations like 
Mississippi?
    Secretary DeVos. Well, we are certainly taking into account 
the very diverse populations that we have in our country and 
are hoping to ensure that a wide range of communities and 
students are able to take advantage of that program. Again, if 
you have a specific interest in that one, I would be glad 
offline to talk with you about that and try to ensure that we 
are looking very objectively at the requests from your State.
    Senator Hyde-Smith. Great. Thank you very, very much.
    Senator Alexander. Thank you, Senator Hyde-Smith.
    Senator Manchin.

        CUTS TO FLEXIBLE FUNDS APPLICABLE TO ADDRESSING OPIOIDS

    Senator Manchin. Thank you, Mr. Chairman.
    And thank you, Secretary, for being here.
    I know the vote is going on. I got to hurry.
    I want to thank Secretary DeVos for being here.
    While the fiscal year 2019 budget proposal does not cut as 
much funding from the Department of Education as last year, I 
am very concerned about the significant cuts that have been 
proposed and appreciate you are here to answer our questions.
    I am particularly concerned about the $3.6 billion in cuts 
that come primarily by eliminating the 21st Century Community 
Learning Centers and the Title II teacher grant funds. Both of 
these programs are critical for West Virginia communities but 
particularly so in all of our rural communities and rural 
States.
    As you know, the bipartisan Every Student Succeeds Act 
includes a program called Title IV Student Support and Academic 
Enrichment Grants Program. The block grant is designed to 
provide States and school districts the flexibility to provide 
a wide range of services that support a well-rounded education. 
Congress authorized more than $1.6 billion in funding. Then we 
appropriated $1.1 billion in funding. And the President's 
budget, however, eliminates all the funding entirely.
    The problem is we are using that for opioid concerns that 
we have with students coming from addicted households and maybe 
even addiction themselves. It puts us in a critical situation, 
Madam Secretary, and I did not know how you all plan to work 
with this or navigate this since there is no money.
    Secretary DeVos. Well, Senator, thanks for the questions.
    The budget in total was produced in the context of the 
restrictions and the parameters that we had. We had to make 
choices around programs that were duplicative or spread thinly 
or shown not to be effective. I would say that the funding that 
Congress did restore in the Omnibus to Title IV is an area that 
I think we look at differently given the circumstances today 
versus when the budget was originally generated.
    Senator Manchin. You have gone from like $400 million up to 
$1.1 billion, which I am very much appreciative, but then it 
goes right back to nothing. Opioid addiction in my State, as 
you know, and a lot of States--the flexibility that we had with 
those grants, those titles--we were able to use that to 
intervene, to identify, to replace children that were coming 
from addicted homes. And it is going to be imperative we have 
some way of doing that.
    Secretary DeVos. Absolutely. Well, the funding that remains 
in the proposed budget is very flexible and can be used in----
    Senator Manchin. So you are intending to basically use with 
the base budgets you have in education because there is 3.6 
percent cut overall.
    Secretary DeVos. But as I said, the budget was put forward 
prior to the enactment of the 2018 Omnibus. Given the time 
frame and the elapsed time since then and the focus both on 
school safety issues, as well as the opioid crisis, we look 
anew at the Title IV----
    Senator Manchin. If your staff can get with us and show us 
how you intend for us to be able to still address the problems 
we are having because our educators are concerned next year 
everything stops. We got a program moving right now identifying 
children that are coming from addicted homes, placing them, 
getting them out of risk. And it is just imperative that we 
have some----
    Secretary DeVos. I know the opioid issue is a very horrible 
one.

              PLAUSIBILITY OF SCHOOL CHOICE IN RURAL AREAS

    Senator Manchin. The other thing is I am concerned--and you 
and I have spoken about this before--is choice and school 
charters. In small rural States, the only choice we have is 
either improving the education we have or doing without. There 
is not an option in some of the rural areas. So I am concerned 
about the $3.6 billion that are being cut while at the same 
time shifting $1.5 billion from critical education programs to 
school choice. That is going to be very, very hard.
    So would your choice program not simply leave holes in West 
Virginia? I mean, the way it is right now in our West Virginia 
school budgets created by these proposed cuts, it is just going 
to leave a hole that we cannot fill.
    Secretary DeVos. Well, sir, the proposal around choice 
really does offer rural districts opportunities to think 
differently and to meet students' needs differently as well. 
And that is really sort of the big picture----
    Senator Manchin. In West Virginia, we just cannot afford to 
start another education system. We do not have the market where 
the private market is moving into that. All we are doing is 
taking funds away from--hopefully enhancing a system, making it 
better than what we have right now.
    Secretary DeVos. But sometimes you can think of choice 
differently, and I think we often think in terms of 
infrastructure and buildings. In rural areas, I understand that 
maybe the biggest challenge is a school that is not able to 
offer some AP courses because they simply do not have enough 
students. So offering course choice via a virtual classroom is 
an opportunity to----
    Senator Manchin. That would be great except I do not even 
have Internet connect in most of the rural areas and even cell 
service. So sometimes----
    Senator Alexander. Senator Blunt will be upset with me if I 
do not enforce the rule.
    Senator Manchin. I know. With that, we would like to invite 
you to West Virginia to come into some of these real rural 
communities without connectivity to see firsthand. Okay?
    Secretary DeVos. Yes, thanks. I mean, I know that is a huge 
issue.
    Senator Alexander. Thank you, Senator Manchin.
    Senator Murphy.

                   FEDERAL AUTHORITY ON CIVIL RIGHTS

    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you, Madam Secretary, for being here today.
    I think you have heard some concern from many of us about 
the changes in procedures for civil rights investigations and 
dismissal of claims. And so let me just try to square some of 
your opening comments with some of the changes that you have 
been asked about.
    You have made it very clear that you do not think that 
there should be a one-size-fits-all approach to education in 
the country, you should not think as much authority for making 
decisions about kids' education should be in the hands of local 
educators. And there are certainly lots of members of this 
committee who agree.
    But on the issue of civil rights, should there be a one-
size-fits-all for civil rights protections, or should that 
decision be in the hands of local communities? Or should your 
office consider different community standards regarding issues 
like civil rights when making decisions?
    Secretary DeVos. The role of the Department is an important 
one in enforcing students' civil rights and protecting them. 
And it is one that I am committed to and it is one that the 
Office for Civil Rights is committed to.
    Senator Murphy. So I understand that. But there should be a 
one-size-fits-all standard for civil rights protections. Right? 
We should have a Federal civil rights law. All students should 
be protected by that under the same standard.
    Secretary DeVos. Indeed.

                    RIGHTS OF UNDOCUMENTED STUDENTS

    Senator Murphy. Let me ask you a question that you were 
presented with in a House hearing around the question of 
whether teachers should refer undocumented students to ICE for 
immigration enforcement. In the hearing, I think you stated 
that that should be up to each individual State or school 
district, and then you released a follow-up statement in which 
you said that our Nation has both a legal and moral obligation 
to educate every child and it is well established under the 
Supreme Court's ruling in Plyler and has been consistent in my 
position since day one.
    So I am worried that that statement is still not clear on 
this sort of very important question of whether or not a 
teacher or a principal is allowed to call ICE to report an 
undocumented student under Federal law. Can a teacher or 
principal call ICE to report an undocumented student under 
current Federal law?
    Secretary DeVos. I will refer back again to the settled 
case in Plyler v. Doe in 1982 which says students that are not 
documented have the right to an education. I think it is 
incumbent on us to ensure that those students have a safe and 
secure environment to attend school, to learn, and I maintain 
that.
    Senator Murphy. So let me ask the question again. Is it 
okay--you are the Secretary of Education. There are a lot of 
schools that want guidance and want to understand what the law 
is. Is it okay for a teacher or principal to call ICE to report 
an undocumented student?
    Secretary DeVos. I think a school is a sacrosanct place for 
students to be able to learn, and they should be protected 
there.
    Senator Murphy. You seem to be very purposely not giving a 
yes or no answer, and I think there are a lot of educators that 
want to know whether this is permissible.
    Secretary DeVos. I think educators know in their hearts 
that they need to ensure that students have a safe place to 
learn.
    Senator Murphy. Why are you not answering the question?
    Secretary DeVos. I think I am answering the question.
    Senator Murphy. Well, the question is yes or no. Can a 
principal call ICE on a student? Is that allowed under Federal 
law? You are the Secretary of Education.
    Secretary DeVos. In a school setting, a student has the 
right to be there and the right to learn. And so everything 
surrounding that should protect that and enhance that student's 
opportunity and that student's environment.
    Senator Murphy. So they cannot call ICE.
    Secretary DeVos. I do not think they can.
    Senator Murphy. Thank you.

                 SCHOOL SAFETY AND CONSISTENT STANDARDS

    Lastly, on your School Safety Commission, I guess I am just 
trying to square again this belief about not having one-size-
fits-all with the goal of the Commission to establish best 
practices. So how do you do both? Because if you just give a 
menu to schools, that might not be terribly helpful. What would 
be helpful is to look at evidence, what works, what does not. 
Obviously, you know my interest in making sure that teachers 
are not armed. I would argue that if you look at the evidence, 
it will not point you in the direction of arming teachers.
    I am out of time here. But just how do you balance telling 
schools what works based on the evidence versus not having a 
one-size-fits-all presentation on the issue of school safety?
    Secretary DeVos. Well, I do not think it is a role of the 
Federal Department of Education to tell schools what they can 
and should do or cannot and should not do. It is the role for 
States and local communities to decide what is going to be best 
to protect their students. And we know that there are countless 
legislatures at the State level debating how they are going to 
address these issues now. The role of the safety commission is 
to ensure that we raise up these practices and encourage States 
to look at them and encourage communities to look at them.
    One of the first things that we did was to go back to the 
reports following Sandy Hook, following Columbine and Virginia 
Tech and to look at what actually has been adopted in places 
and that is being assessed now. But evidence-based approaches 
that have been demonstrated to work--we need to urge and 
encourage more of those to be broadly adopted.
    Senator Murphy. Great. Thank you.
    Senator Alexander. Thank you, Senator Murphy.
    Senator Reed.

                  SCHOOL FACILITIES AND INFRASTRUCTURE

    Senator Reed. Thank you very much, Mr. Chairman.
    Madam Secretary, during the campaign, President Trump 
strongly advocated for fixing schools up as part of an 
infrastructure plan, and the schools certainly need it. The 
American Society of Civil Engineers gives our school facilities 
a D-plus rating, about a $38 billion gap between necessary 
repairs to bring them up to standard. And that is certainly a 
level that cannot be supported by States and localities alone.
    One of the ironies is that we are spending money 
programmatically in schools that, because of the disrepair, are 
not functional. The kids are not being well educated not 
because they do not have good teachers. It is just that the 
windows are broken and the computers are damaged by rain and 
all those things.
    So just what are you doing to address this issue of 
improving school facilities at the Department of Education or 
getting the President to get it into his infrastructure plan?
    Secretary DeVos. Well, thanks, Senator, for that question.
    As you know, the specifics around school infrastructure 
were not part of the infrastructure proposal, and that really 
does not fall under the purview of the Department of Education. 
These issues are left to the States and local communities to 
deal with, and I think that is where those are best addressed.
    Senator Reed. The issue of addressing them locally goes to 
just like highways and roads and bridges, yes, but without 
Federal support, they will not be effectively addressed. And we 
are spending a lot of time here talking about educational 
reform, programmatic reform, enhancing the teachers' skills, et 
cetera when kids are sitting in rooms where the ceilings are 
falling in, the windows are broken. Should you not be 
advocating that the President incorporate it in his 
infrastructure plan, that this is absolutely critical to 
education success?
    Secretary DeVos. Well, I obviously think that learning 
environments are important to students, but I also think that 
we can have an opportunity to think a little more broadly as 
well. I visited a school last week that is a public middle 
school located in a public museum, and the whole city is their 
classroom. These are the kinds of approaches that I think more 
schools can be thinking about and utilizing. And I would 
encourage that because the world has changed.
    Senator Reed. Well, Madam Secretary that is a novel and 
perhaps unique experience. Most schools--in fact, too many 
schools--I will not say most, but I will say too many schools 
are just without basic maintenance and funds for 
rehabilitation. And it is an issue that is an educational 
issue. You do not see the connection between a suitable school 
facility with adequate heat and windows and an education? That 
is disconnected?
    Secretary DeVos. I do think it is an important part of an 
educational experience.
    Senator Reed. So you will advocate from the Department of 
Education based on educational issues that we do something for 
school infrastructure?
    Secretary DeVos. Infrastructure is a State and local issue. 
It is a matter for those entities to address and deal with to 
ensure their students have the kind of environment that is 
conducive to their learning.
    Senator Reed. So you are saying no, that the Federal 
Government should not be involved in providing support to 
schools for reconstruction, for rehabilitation, and for 
physical improvements.
    Secretary DeVos. Well, it is not part of the President's 
plan and it is not part of the Administration's proposal.
    Senator Reed. But it is a big part of education from the 
perspective of most people that I know, students, teachers, and 
other people.

             COORDINATING WITH DEFENSE ON LOAN FORGIVENESS

    Your student loan program proposals. The request would make 
student loans more expensive. You are eliminating the in-school 
interest subsidies for needy students, ending public service 
loan forgiveness. This particular issue I think is problematic 
because we have heard comments from the Department of Defense 
that they use this loan forgiveness as a means to begin 
recruiting personnel into the military. Have you coordinated 
with DOD (Department of Defense) about the effect of rescinding 
the loan forgiveness?
    Secretary DeVos. We have been in conversation with DOD 
about serving our military and our veterans well, including the 
students of those military families----
    Senator Reed. I am talking about prospective recruits which 
would rely upon or could benefit from the loan forgiveness, but 
if it is taken away, they might decide that going into the 
service is not their best option.
    Secretary DeVos. Well, I hope that we will be supportive 
and continue to be supportive of veterans in their careers and 
beyond.

                         TEACH GRANT SERVICING

    Senator Reed. Finally, the TEACH Grant program has had 
tremendous servicing issues. People have discovered after they 
thought they spent years in a program that would allow them to 
have their loan forgiven that because of poor servicing, bad 
advice, they have failed. They do not get the relief they 
thought they would have.
    What are you doing to fix that servicing problem?
    Secretary DeVos. I will look into that specific question 
and issue and get back with you on that.
    [The information follows:]
        review and oversight plans for servicing of teach grants
    The Department reaffirms its commitment to improve its 
administration of the Teacher Education Assistance for College and 
Higher Education (TEACH) Grant Program. Taking note of past servicing 
issues, the Department is studying all aspects of the program to 
determine necessary modifications so as to align servicing of the TEACH 
Grants with Congressional intent. This will ensure that students who 
agree to teach for 4 years at an elementary school, secondary school, 
or educational service agency that serves students from low-income 
families have the resources and support that they need.
    In the interim, the Department will continue to perform oversight 
and review of TEACH Grant-related disputes and escalated issues 
resulting from interactions with recipients. Moreover, the Department 
will continue to perform periodic on-site and off-site monitoring to 
ensure adherence to existing TEACH Grant regulations, requirements, and 
other issues.

    Senator Reed. Thank you, Madam Secretary.
    Senator Alexander. Thank you, Senator Reed.

                   HIGHER EDUCATION REGULATORY REFORM

    Other Senators are coming back, Madam Secretary, but in the 
meantime let me ask you this.
    A distinguished group of higher education officials headed 
by the chancellor of Vanderbilt and the chancellor of Maryland 
at the request of a bipartisan group of Senators on this 
Committee gave us a group of 59 recommendations to cut through 
what they described as the, ``jungle of red tape interfering 
with their administration of higher education.'' 12 of those 
are items that the Department of Education can deal with 
without legislative action.
    Are those on your priority list, and where do we stand with 
that?
    Secretary DeVos. They are, Senator. And I will get back 
with you with the specifics on each of the ones that are 
administratively able to be done. They are in varying degrees 
of process forward.
    [The information follows:]
                   higher education regulatory reform
    Consistent with President Trump's Executive Order 13771, Reducing 
Regulation and Controlling Regulatory Costs, the Department of 
Education fully shares the goals of the Task Force on Federal 
Regulation of Higher Education (Task Force). In particular, we agree 
with the Task Force that ``oversight of higher education by the 
Department of Education has expanded and evolved in ways that undermine 
the ability of colleges and universities to serve students and 
accomplish their missions.'' The Department is currently undertaking a 
comprehensive regulatory reform effort pursuant to Executive Order 
13771, focusing on rescinding and modifying all outdated, unnecessary, 
or ineffective regulations, guidance, and information collection 
requests. As part of this effort, the Department published on June 22, 
2017, a Federal Register notice soliciting public input to inform its 
evaluation of existing regulations and guidance. The Department has 
reviewed these comments, which it will continue to consider as part of 
our overall regulatory reform initiative.
    With regard to the specific regulatory actions identified by the 
Task Force, the Department has already taken action, including 
negotiated rulemaking in the areas of borrower defense to repayment, 
financial responsibility requirements for institutions, false 
certification discharges, closed school discharges, and gainful 
employment. In addition, the Department intends to conduct negotiated 
rulemaking on a variety of issues identified by the Task Force, 
including accreditation, State authorization distance education and 
related disclosures, ``regular and substantive interaction'' 
requirements for distance education, ``credit hour'' requirements, and 
direct assessment programs and competency-based education.

             DEPARTMENT VS CONGRESSIONALLY INITIATED REFORM

    Senator Alexander. Well, I just want to make sure that 
those 12 items are things that you can do while we are still 
debating when to move ahead with our Higher Education Act, and 
I would hope that you could do that because they have broad 
support within our higher education system. There are, of 
course, 6,000-plus institutions. And one of the most common 
complaints we hear from administrators is, for example, the 
University of Maryland wants to offer online programs in this 
country. It has to get approval from every single State.
    Secretary DeVos. Yes.
    Senator Alexander. And they recommended a change in that. 
That is something that maybe we have to do, but there are some 
things you can do.

                                TITLE IX

    Another area where you are moving ahead is in the area of 
Title IX. Since 1999 when the Supreme Court decided the word 
``sex'' includes sexual harassment, we, the Congress, have not 
passed a law defining what we mean by sexual harassment, and 
the Department has not done any regulations in that area. All 
we have had are a series of letters of guidances, and that is 
very confusing to the more than 6,000 higher education 
institutions and 50,000 public schools who are governed by 
Title IX.
    I mean, as a former university president, it would be 
helpful for me to know, if I were in that business, exactly 
what is the definition of sexual harassment? When am I required 
to act under the Federal law? What about off-campus incidents? 
What is a fair and impartial process?
    Now, I would assume that since you have said and testified 
in the House you are in a regulatory process that you cannot 
talk about that very much because of the way our laws are 
written. But what can you say to us, if anything, about the 
Department's effort to regulate under Title IX?
    And let me say to begin with I support what you are doing. 
It should have been done some time ago. This is a very 
important area for the students and faculty members and 
administrators all over the country. They have a right to know 
what the Federal law expects, and if Congress itself does not 
define these issues, then the only other proper way to do 
something of this importance is to do it through Federal 
regulation where interested people have a chance to make 
comments and you have a chance to consider them. And a Federal 
regulation has the rule of law. These guidances and letters, 
which have been popping out of the Department of Education on a 
variety of matters every other day it seems like, are not 
supposed to have the force of law, but it is very confusing to 
institutions.
    So what can you say to the college and university 
presidents and the high school principals about what the 
Department is doing on Title IX, and what should they expect?
    Secretary DeVos. Thanks, Senator, for that question.
    You and I have talked about this at some length. The 
guidance letter that the last Administration put out with 
respect to this issue was one that has been very confusing for 
institutions, and it is also one that has in many cases not 
really respected the due process rights of both parties 
involved in a complaint. So we are focused on making sure, 
first of all, that we do this in the proper way through a 
formal regulatory process, and we are in the midst of that 
process now. In the coming months, we will have a draft for 
comment. We are focused and intent on ensuring that 
institutions will have clarity around their responsibilities in 
this area and that the rights and due process rights are 
respected for all parties involved in such complaints.
    Senator Alexander. Where does the regulatory process stand 
right now in terms of what you are doing?
    Secretary DeVos. We are close to being able to release a 
draft for comment.

                            ESSA STATE PLANS

    Senator Alexander. Let me switch back to another area.
    You have now reviewed, I think you said, 46 State plans.
    Secretary DeVos. ESSA (Every Student Succeeds Act) plans. 
We have approved 46.
    Senator Alexander. Approved 46 State plans, Titles I, II, 
and IV. That is about $18 billion in a year that goes out to 
State and local governments. Have you been encouraged by the 
plans?
    I mean, the idea of Congress was to give--what we were able 
to agree on in this committee, pretty remarkably, was that we 
wanted to continue the 17 Federal tests, and some other 
requirements and the disaggregation of those tests. We wanted 
the public to know what our 50 million students in 100,000 
public schools--how they were doing and how the schools are 
doing. And we continued that. That is quite a bit of Federal 
involvement. We wanted local governments to then have the 
responsibility for what to do about the results of the tests.
    Have you seen many States that have taken advantage of this 
new flexibility in a good way?
    Secretary DeVos. A number of the States are actually 
approaching this question with some level of creativity and 
intentionality to ensure that this information is widely shared 
and that it is very accessible to students and parents. I think 
the rubber will meet the road in the next year or so when they 
actually have it fully implemented. I know that we have 
continued to encourage States to seize all the opportunity they 
have for flexibility in those areas, and we will continue to do 
so. And I think as States implement them, it is going to become 
obvious variation of approaches and hopefully States will learn 
from one another.
    Senator Alexander. Well, I am going to turn this back over 
to the chairman.
    But it would be fair to say, would it not, that we are not 
likely to get a fair and complete picture of how the States' 
plans operate until we see them actually operate? And then 
perhaps some of the questions that Senators have about whether 
States are doing what Senators and Congressmen intended them to 
do will be clearer.
    Secretary DeVos. Exactly, yes.
    Senator Blunt [presiding]. Senator Baldwin.

                 PROPOSED CUTS TO STEM-RELATED PROGRAMS

    Senator Baldwin. Thank you, Mr. Chairman.
    Secretary DeVos, you and I have agreed on the importance of 
career and technical education, or CTE, both in private 
meetings and at previous hearings before this and the HELP 
Committee. Yet once again, your proposed budget fails to 
significantly invest in these programs.
    Now, I am pleased that, unlike your fiscal year 2018 budget 
proposal, there are no cuts to programs under the Perkins 
Career and Technical Education Act. However, I am disappointed 
that the budget simply requests fiscal year 2017 level funding 
for the Perkins Basic State Grant program and that, once again, 
it seeks to cut two K through 12 programs that can support 
career and technical education in STEM, namely the Student 
Support and Academic Enrichment Grant and the 21st Century 
Community Learning Centers Grant.
    You have talked about the need to strengthen investments in 
high quality career and technical education programs and STEM 
education, but the budget proposal does not back that up.
    So why does flat funding and even cutting funding for these 
programs support your commitment to career and technical 
education and STEM if they are, indeed, priorities for you?
    Secretary DeVos. Well, thank you, Senator for that 
question.
    To put the budget a little more in context, when this 
budget was proposed, it was within the parameters of the 
broader Administration budget proposals, and so decisions had 
to be made around programs that were most effective in reaching 
students and the needs that they have. That resulted in the 
proposed elimination of a couple of the programs that you have 
referred to because they are spread thinly and they have been 
demonstrated to not be particularly effective.
    That said, any line item that has been basically flat 
funded--proposed to be flat funded from 2017 is considered a 
high priority by us, by the Administration. And so career and 
technical education investments continue to receive that kind 
of support.
    We have also made a proposal for short-term Pell Grants 
recognizing that there are not as many traditional students 
today and that high quality, short-term certification programs 
through Pell would provide students a lot of other 
opportunities to pursue some of these career and technical 
programs that they may not be able to otherwise.
    Senator Baldwin. On that last point, I appreciate that. 
That is a policy change that I have been seeking to make for 
some time, recognizing the need for sometimes shorter-term 
programs and things that lead to a credential that would 
otherwise be unaidable.
    However, when you say that flat funding is what you are 
doing for your most high priority programs that is 
disappointing.

                         COLLEGE AFFORDABILITY

    Let me move to college affordability. In your testimony, 
you suggest that your budget hones the focus of the 
Department's mission, ``serving students by meeting their 
needs.'' But just as it did last year, your budget proposal 
would make college less affordable for students in my State, 
Wisconsin, and across the country. It again targets three 
campus-based programs: Perkins Loans, Federal Work-Study and 
Supplemental Education Opportunity Grants, all of which allow 
campuses to target financial aid to the students they know to 
be in need. It slashes them all, eliminating SEOG (Federal 
Supplemental Educational Opportunity Grant), cutting work-study 
in half or almost half, and supporting an end to the Perkins 
program.
    This would eliminate in the State of Wisconsin roughly $461 
million in aid for Wisconsin students. It also cuts billions 
from other programs that make college more affordable, 
including by eliminating Federal subsidized loans and the 
Public Service Loan Forgiveness program. As you know, college 
costs continue to rise and push the promise of higher education 
out of reach to more and more, young people.
    How do these massive cuts to Federal financial aid programs 
further your Department's mission to, quote again ``serve 
students by meeting their needs?''
    Secretary DeVos. Thank, Senator, for that question.
    And just in reference to a couple of the programs that you 
cited, the Perkins program has been continually phased out by 
Congress. So I guess the budget reflects a continuation of 
that.
    The Work-Study program. We continue to propose funding 
Work-Study but really focused on the students that are in the 
baccalaureate programs versus the graduate programs. The 
elimination is really for graduate level work-study.
    The bigger question about how can we make sure that 
students have opportunity to pursue higher education refers 
back to again supporting a multitude of pathways and then also 
for students that take on debt in order to do so really 
streamlining that experience and then their repayment. We have 
made proposals for an income-driven repayment program that is 
much more robust for them, can be counted on for the students 
that elect that option. We think that will help students that 
heretofore have not been able to pursue higher ed in a longer-
term, meaningful way to be able to do so. We are focused on 
finding ways to make sure that students that are most in need 
of these opportunities are able to access them and then have 
good options for the back end in repaying.
    Senator Blunt. Thank you, Senator.
    We have two more members. We are going to try to finish up 
right at noon. And Senator Kennedy, you are first, followed by 
Senator Rubio.

     COMPARING SPENDING AND RESULTS VERSUS INTERNATIONAL EDUCATION

    Senator Kennedy. Madam Secretary, welcome.
    If you add up all State, local, and Federal dollars that we 
spend on pre-K to 12, my understanding is we spend on average 
in the United States about $13,000 per public school student. 
Does that sound about right?
    Secretary DeVos. That does.
    Senator Kennedy. I also understand we rank about the same 
as Slovakia, which spends about half the money. Is that right?
    Secretary DeVos. I think that would be about right.
    Senator Kennedy. Name me the one single thing that Congress 
could do in your considered judgment to improve elementary and 
secondary education on the public side in America.
    Secretary DeVos. The one single thing that Congress can 
do----
    Senator Kennedy. The most important.
    Secretary DeVos [continuing]. Would be to empower parents, 
especially low-income parents, to find and choose the right 
education setting for their child on the one hand and to really 
embrace and support individual local public schools to be 
creative and innovative with how they meet their students' 
needs so that we do not see the kind of one-size-fits-all 
approaches that are prevalent in many States across the 
country.

                    VOLUNTEERING TO SUBSTITUTE TEACH

    Senator Kennedy. This is just one person's opinion, Madam 
Secretary. And I think you are doing a wonderful job, by the 
way. I think a lot of our policymakers do not understand what 
our public schools are like today. They do not. That is true at 
the State and local level. I think it is also true at the 
Federal level. We cannot control what our colleagues at the 
State and local level do, but we can control what we at the 
Federal level do.
    And I am going to make a general suggestion to you. Start 
with the upper echelon folks at the Department of Education. 
How you define that will be up to you. Eventually I would like 
you to consider extending this to every policymaker in the 
Department of Education. Ask them to volunteer to substitute 
teach at least once in a public school, not a private school, 
in an inner city public school. And I do not mean going in and 
talking to the civics class about how a bill becomes a law. I 
mean signing up as a substitute. All you need is a B.A. degree 
or a B.S. college degree, and you go to an orientation. And 
then you are a substitute teacher. And you start at a quarter 
to 7:00 and you go to 2:45, and you do either bus duty or 
lunchroom duty and it is you and 25 or 20 or 30 kids. And you 
are going to learn some stuff.
    Would you consider doing that?
    Secretary DeVos. I think it is a great idea, and in fact, I 
think we have an example that I am looking at right now. As I 
understand you do this two or three times a year in Louisiana.
    Senator Kennedy. Yes.
    I mean, what you see is how hard it is to be a teacher. 
Teachers--they do not just have to teach. They have to be mamas 
or daddies and social workers and psychologists. And it is so 
much harder being a kid today. These young people are seeing 
things in the 6th grade that I did not even know about until I 
was in college. And I just think a lot of our policymakers have 
lost sight of that. It is easy to tell teachers, well, just 
maintain discipline in the classroom. But in a lot of our 
schools, violence is common and learning is rare. And it just 
seems to me that is an appropriate place to start.

                   COST VS VALUE OF HIGHER EDUCATION

    Here is my final question. The cost of a college education 
has gone up since 1985, more than the cost of healthcare, which 
is breathtaking. Do you believe that the value of a college 
education has gone up commensurate with its cost?
    Secretary DeVos. I think that is a very good question, and 
I think that varies from place to place and from institution to 
institution. And I think we can be helpful in helping students 
and parents evaluate these questions and issues by providing 
more information.
    Senator Kennedy. How could we lower the cost? What is the 
one thing we can do to lower the cost?
    Secretary DeVos. I do not know that there is one thing to 
lower the cost. I think that allowing for a lot more innovation 
in higher education is one area that has to be explored, and it 
has to be allowed to happen because again the world has changed 
in every other area except primarily the world of education.
    Senator Blunt. Thank you, Secretary.
    Senator Rubio.
    Senator Kennedy. Thank you, Mr. Chairman.

                     SCHOOL VIOLENCE AND DISCIPLINE

    Senator Rubio. Thank you for being here. I guess I get to 
bat cleanup it sounds like.
    One of the things that struck me in the aftermath of 
Parkland was even before the authorities had released the name 
of the shooter, all the students knew who it was. Everybody 
knew who it was without even seeing it.
    We now know, for example, that this student--this killer 
had been suspended 67 days in a single year for things like 
bringing bullets to campus claiming that he sold knives at 
school, drawing swastikas and hate speech on his book bag, a 
series of other offenses, a number of which, including off 
campus, would have had him formally reported to law enforcement 
and in turn, added to the NICS (National Instant Criminal 
Background Check System) system that would have prevented him 
from purchasing a firearm.
    As your Department has reviewed the school discipline 
policies nationally and in particular in Broward County, what 
do we know to this point about the school discipline policy in 
Broward or nationally.
    Secretary DeVos. Thanks for the question, Senator.
    As you know, this policy is part of the menu of items that 
the School Safety Commission is charged with considering. We 
are looking at and evaluating the policy. Clearly the goal of 
the policy, to ensure that no student is discriminated against 
in a discipline situation, is a valid and noble goal and we 
certainly embrace that. The question is, is the policy doing 
some harm in some way? And we are in the middle of reviewing 
that and considering that, and it will be part of the work of 
this Commission to come out with a result and recommendation.
    Senator Rubio. And indeed, the goal is to prevent school 
discipline policies from having an unfair impact, for example, 
on minority students. I agree with that. No one wants to see 
minority students disproportionately or unfairly impacted.
    Do we know that as a direct result of the guidance, has the 
Department found any schools or school districts to have 
discipline policies that violate civil rights?
    Secretary DeVos. We are in the process of reviewing that, 
and I do not have anything to add at this moment about it but 
will soon.
    Senator Rubio. Do we know how many have been investigated 
for potential violations leading up to your time at the 
Department?
    Secretary DeVos. I do not have that specific number now, 
but I can get that to your office.
    Senator Rubio. I guess my last question is clearly the 
intent of the school discipline guidance that was issued under 
the previous administration could not have been meant to 
prevent teachers from reporting a student to law enforcement 
when the student commits an act that may result in them being 
prohibited from legally purchasing a firearm. Clearly that 
should not be the intent of the policy. You would agree.
    Secretary DeVos. I would agree.
    Senator Rubio. And the reason why I bring that up--and I 
hope to encourage you to be supportive of it. It is an issue of 
first impression. I am not even sure we have shared it--we 
might have shared it with your office already. But it is 
legislation that I have introduced called ABCs in School 
Discipline Act, and it would make it clear. It would provide 
clear guidance on this that the discipline policy of our school 
districts should in no way prevent teachers from reporting a 
student to law enforcement when the student commits an act that 
may result in them being prohibited from legally purchasing a 
firearm later on for obvious reasons. And so I hope that is 
something that we can get put in place so that something like 
this may never ever happen again.
    I think I am fine. Just in the interest of time, thank you 
for being here today.
    Secretary DeVos. Thanks, Senator.
    Senator Blunt. Well, thank you, Senator Rubio.
    Thank you, Secretary DeVos, for being here with us today.
    The record will stay open for 1 week for additional 
questions, and the subcommittee----

                ESSA GOALS AND ADMINISTRATION BRIEFINGS

    Senator Murray. Mr. Chairman, if I could just make one 
statement simply because ESSA has been raised a number of times 
here.
    Secretary DeVos, you know I disagree with much of what you 
said. When we wrote the bipartisan Every Student Succeeds Act, 
we agreed that the performance of students who have 
historically struggled must be factored in when States measure 
overall school performance. The ``Wall Street Journal'' has 
reported that a State may award an A letter grade to a school 
even if only 40 percent of African American students can read 
at grade level. That is exactly why we put in those provisions. 
I do not think you would give an A to a student who got 40 
percent of the answers right. I do not think it is fair for 
families of African American families to be told their students 
are going to an A-rated school even if only 40 percent of 
African American students are reading at grade level.
    So I disagree with the conversation very clearly that has 
occurred here today. And I just want to reiterate my staff has 
requested multiple times that your Department begin to provide 
bipartisan staff briefings on this so we can examine it. And I 
reiterate that request to you today.
    Secretary DeVos. Thank you, Senator.
    Senator Blunt. Thank you, Senator. I am sorry I did not ask 
if you had anything to add before we started to finish up 
there.
    I would say on the topic of just being responsive to the 
committee, that is really important. It needs to happen. 
Everybody could be better at it. But I think it is a priority 
and it gets you a long way by just providing the information 
when it is asked for as quickly as it is asked for, and 
frankly, if you are working on things that you know are going 
to be a problem with the committee, to step forward with that 
as well.
    Secretary DeVos. Senator, if I could just say we have asked 
and invited Senator Murray on multiple occasions to talk about 
the specific issues that she has had questions on. So we will 
continue to do so and welcome that opportunity.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Blunt. And again, thank you for being here today.
    The record will stay open for 1 week for additional 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Roy Blunt
  next generation financial services environment and compliance with 
                     omnibus servicing requirements
    Question. The fiscal year 2018 Omnibus includes bill language to 
promote accountability, transparency, and competition in the Federal 
student loan servicing, and specifically requires the Department to 
ensure that any future Federal student loan servicing environment 
include: (1) the participation of multiple student loan servicers that 
contract with the Department to manage a unique portfolio of borrower 
accounts; (2) that each servicer manage the full life-cycle of borrower 
accounts from disbursement to pay off with certain limited exceptions; 
and (3) that new borrower accounts are assigned to servicers based on 
performance. Given this language, how specifically does the Department 
plan to move forward with its Next Generation Financial Services 
Environment proposal so that it is consistent with current law and 
congressional intent?
    Answer. The Department is committed to enhancing the borrower 
experience, improving and simplifying loan servicing, and optimizing 
outcomes, and it will ensure compliance with all statutory 
requirements. We will continue to work closely with Congress on an 
ongoing basis to communicate more detailed information as it becomes 
available.
   role of enhanced servicers in next generation financial services 
                          environment proposal
    Question. The Department has indicated that it plans to include 
``enhanced servicers'' as part of the Next Generation Financial 
Servicers Environment for borrowers who are more than 90 days 
delinquent on their loan. How does this fit in with the Departments 
larger Next Generation Financial Services Environment proposal?
    Answer. One of the key goals of the Next Generation Financial 
Services Environment (NextGen) is to drive better borrower outcomes by 
creating a simpler, more consistent, and more customer-friendly 
environment throughout the student aid lifecycle. With regard to 
``enhanced servicing,'' FSA will increase outreach to borrowers as soon 
as they miss three payments, which is much earlier than the 270 day 
default trigger. Earlier outreach will help borrowers get into an 
appropriate repayment program long before they are in default. NextGen 
will leverage world-class mobile and other digital engagement and self-
service technologies while also deploying real-time, customer-driven 
analytics to inform our outreach efforts. The final structure of 
NextGen will be determined through the ongoing active procurement. We 
will continue to work closely with congressional staff on an ongoing 
basis to communicate more detailed information as it becomes available.
               current portfolio of stem-related funding
    Question. In your testimony, you say that the budget request 
includes $200 million in new funding for STEM education while 
continuing to funding almost $330 million in discretionary grants for 
STEM projects. What specific programs and grants are included in that 
existing $330 million?
    Answer. Most existing STEM investments are in our higher education 
programs, including the HSI STEM and Articulation program, Upward Bound 
Math and Science, the McNair Postbaccalaureate program, Student Support 
Services, Graduate Assistance in Areas of National Need, the Minority 
Science and Engineering program, and Teacher Quality Partnerships. 
Other key programs supporting STEM projects include Magnet Schools 
Assistance, Javits Gifted and Talented, IDEA Stepping Up Technology 
Implementation, and research grants administered by the Institute of 
Education Sciences. We have also posted a Notice Inviting Applications 
for STEM apprenticeship and pre-apprenticeship programs through the 
National Programs authority under the Perkins Career and Technical 
Education Act.
               stem priorities at requested funding level
    Question. How does the Department plan to prioritize STEM education 
projects as part of the $200 million in new funding within EIR and 
Career and Technical Education?
    Answer. The $180 million request for Education Innovation and 
Research includes proposed bill language that would allow the 
Department to award all fiscal year 2019 EIR funds under one or more 
STEM priorities. The Department would use existing National Programs 
authority under the Perkins Career and Technical Education Act to use 
the $20 million requested in fiscal year 2019 solely for projects that 
promote innovative CTE programs in STEM fields, including computer 
science.
          funds supporting stem for fiscal years 2018 and 2019
    Question. What other discretionary grant programs will the 
Department include STEM priorities in for fiscal year 2018 or 2019, and 
does the Department have an estimate of how much funding will be used 
for STEM education as part of those other programs?
    Answer. In fiscal year 2018 we are using STEM priorities in the 
following programs: Teacher Quality Partnerships, Supporting Effective 
Education Development, GEAR UP, and Graduate Assistance in Areas of 
National Need. The STEM Priority is also being used in Education 
Innovation and Research, Special Programs for Indian Children, the 
Training Program under Federal TRIO Programs, Center on STEM Learning 
for Young Children with Disabilities, Innovative Approaches to 
Literacy, Pathways, Upward Bound and Fund for the Improvement of 
Postsecondary Education's Pilot Program for Cybersecurity Education 
Technology Upgrades for Community. The actual investment in STEM 
projects under these programs depends on the number and quality of 
applications meeting the STEM priorities. The Department has not yet 
completed its fiscal year 2019 spending plan, which will include 
determining the specific programs using STEM priorities for 2019 
competitions.
      planned changes for defaulted federal student loan borrowers
    Question. The Department has indicated that it will make 
significant changes to the way it manages borrowers who have defaulted 
on their Federal student loans. What specific changes does the 
Department plan to make in this area?
    Answer. The Department is in the process of reviewing and refining 
our approach to delinquency prevention and default collection, with the 
twin goals of improving outcomes for borrowers and enhancing our 
stewardship of the over $1.4 trillion Federal investment in student 
loans and related administrative costs. This process has been, and will 
continue to be, informed by past experience, the results of pilots and 
other analyses, market research activities, and input from a broad 
range of sources within and outside of government. Details of the 
Department's plans have not been finalized, but the Department will 
share with Congress after they are completed. Although the general 
outline of the planned changes have been approved and shared with the 
public, the Department continues to develop the details. Those details 
will be shared with Congress as they are completed.
           determining capacity to serve defaulted borrowers
    Question. Under the current process, and until the Department could 
transition to a new one, how did the Department determine that it has 
sufficient capacity in its current contract to properly serve students 
in default, and what factors or performance measures did the Department 
consider as part of that process?
    Answer. The Department's determination regarding the current flow 
of new accounts being handled by the current 13 PCAs was based on a 
review of monthly account placements over the last 14 months. The 
average number of placements during this period was 120,000 accounts 
per month (in December 2017 an eight month backlog of accounts was 
assigned due to the Court's prior injunction of all account placement 
activity). The Department also based its determination on its ongoing 
assessment of PCA capacity. Based on that review, the Department 
determined that small businesses would have a ``going forward'' monthly 
capacity of about 750,000 new accounts. The two 2017 award term 
extension (ATE) would contribute an additional 210,000 account capacity 
to that monthly total. The available capacity far exceeds the recent 
monthly average for account assignments.
                                 ______
                                 
               Questions Submitted by Senator Marco Rubio
   application of obama administration school discipline guidance in 
                judgment of civil rights act violations
    Question. Mrs. Secretary, during your testimony I asked for 
specifics regarding the Obama Administration's Dear Colleague Letter on 
the Nondiscriminatory Administration of School Discipline and you noted 
that you would provide this information later.
    As a direct result of the Obama Administration's guidance, has the 
Department of Education concluded that any schools or school districts 
have discipline policies that violate the Civil Rights Act?
    Answer. As a result of the Obama Administration's guidance, OCR 
found that one school district had a discipline policy that violated 
Title VI of the Civil Rights Act.
  investigations under obama administration school discipline guidance
    Question. Do you know how many schools, or school districts, have 
been investigated for potential violations?
    Answer. The prior administration opened 439 cases for 
investigation.
availability of racial data on those victimized by disciplined students
    Question. It is my understanding that the Department keeps some 
records about the race of students subject to disciplinary actions. 
Does the Department have similar statistics about the race of the 
student(s) victimized when a school-based punishment occurs? Would you 
consider including that question in your agencies reviews?
    Answer. Although OCR collects racial data for school discipline 
numbers through its Civil Rights Data Collection, OCR is not able to 
definitively say how many schools have declined to appropriately 
discipline a student due to their racial minority status. Such a 
practice would be impermissible conduct under Title VI, because it 
would treat non-minority students more harshly based on their race, and 
if such a complaint were brought to OCR, the office would evaluate the 
allegation for investigation.
    That being said, with respect to racial discipline cases more 
broadly, we can offer the following information.
    The total number of racial discipline cases received since January 
2014 and opened for investigation: 503 (473 elementary and secondary 
and 30 postsecondary).
    The total number of racial discipline cases received since January 
2014 that has found violations: 1.
  --Still under investigation: 329
  --Early Complaint Resolution: 10
  --302 resolution agreement (pre-OCR determination): 22
  --Resolved w/OCR involvement, no agreement: 3
  --Insufficient evidence: 90
  --Administrative closure: 48
    The total number of racial discipline cases involving non-minority 
white students received since January 2014 and opened for 
investigation: 15 (14 elementary and secondary, 1 postsecondary).
    The total number of racial discipline cases involving non-minority 
white students received since January 2014 that has found a violation: 
0.
  --Still under investigation: 6
  --Early Complaint Resolution: 1
  --302 resolution agreement: 1
  --Resolved w/OCR involvement, no agreement: 1
  --Insufficient evidence: 6
        ensuring accurate reporting of student disciplinary data
    Question. Multiple Broward county media outlets have reported that 
Broward County failed to report numerous discipline actions, including 
alleged acts of trespassing, bullying, theft, battery, and bringing 
weapons to schools. The Broward County League of Cities' School and 
Community Public Safety Task Force's initial report stated, ``[w]hile 
there is certainly a defined process for discipline, it was reported 
that some individual participants in BCPS system may have a real or 
perceived incentive to underreport or not impose consequences. The Task 
Force was unanimous that such incentives need to be eliminated and 
audits need to be performed to make sure the discipline process is 
being followed with fidelity.''
    What can your Department do to ensure that school districts are 
accurately reporting these incidents to the States?
    Answer. OCR coordinates with local educational agencies (LEAs) or 
school districts, in most cases, and with State educational agencies 
(SEAs), such as in Florida's case, for the Civil Rights Data Collection 
(CRDC). OCR and responding school districts and SEAs work together to 
ensure CRDC data are an accurate and comprehensive depiction of student 
access to educational opportunities in school districts. The submission 
system includes a series of embedded edit checks to ensure significant 
data errors are corrected during the data submission process. OCR also 
ensures that data quality-checks of submitted data occur and excludes 
outlier data when appropriate. Additionally, each district or the 
submitting SEA, such as Florida, is required to certify the accuracy of 
its submission. Only a district superintendent or designee, or the SEA 
designee in Florida, may certify the CRDC submission. Ultimately, the 
quality of the CRDC data depends on accurate collection and reporting 
by the participating districts and SEAs. Additionally, with each survey 
cycle, OCR engages in continuous improvement of the data quality 
processes. New data quality checks and technical assistance materials 
are developed, particularly when new data elements are introduced.
            anonymous feedback on school discipline guidance
    Question. Has the Department considered asking school districts or 
teachers for anonymous feedback as to whether the Federal school 
discipline guidelines, or local pressures, have discouraged them from 
reporting school disciplinary actions?
    Answer. Although the Department has not solicited anonymous 
feedback, OCR has held several listening sessions with organizations 
representing school districts and educators concerning the impact of 
the Federal school discipline guidelines. Those sessions included 
discussions on the issue of whether educators have felt pressure to 
avoid reporting school disciplinary actions.
                                 ______
                                 
            Questions Submitted by Senator Cindy Hyde-Smith
   applying and allocating funds to serve rural schools and students
    Question. Secretary DeVos, rural schools, like many in my State, 
face unique challenges from recruiting and retaining teachers to the 
lack of access to broadband. I believe it is imperative that the 
Department support educational research to address the specific needs 
of rural schools and students. I understand the Department will re-
compete a grant to establish an Institute of Education Sciences 
National Research and Development Center dedicated to rural education. 
How will this specific Research Center help tackle needs of rural 
schools, including severe teacher shortages? How does the Department 
consider the geographic distribution and disparities of research 
projects and funding?
    Answer. The Notice Inviting Applications for an Education Research 
and Development Center on Improving Rural Education was published in 
the Federal Register on May 21, 2018; applications are due August 9, 
2018; and the Department anticipates making an award in fiscal year 
2019. The Center will examine how to build the capacity of rural 
schools and postsecondary institutions to use high-quality, scientific 
research to improve student educational outcomes. The goals of the 
Rural Center are (1) to conduct research on a major problem or issue in 
rural education that involves local stakeholders and addresses their 
needs and (2) to develop and test a tool or method to support the 
conduct of education research in rural settings. The Department does 
not mandate specific areas of research but, instead, encourages 
applicants to identify the problem or issue they will address, based on 
locally-identified needs. Applicants must explain why the area they 
selected is significant to education policy and practice and how the 
proposed research will help rural schools and institutions of higher 
education improve student education outcomes. The applications will be 
reviewed by non-Federal peer reviewers who are knowledgeable about the 
issues to be addressed by the center.
    Other research opportunities also are available to address the 
unique needs of rural areas. Under the IES Education Research Grants 
competition for fiscal year 2019 awards, IES noted that it was 
particularly interested in understanding how technology may be used to 
expand educational opportunities in underserved areas, such as low-
income and rural communities. The notice also identified areas where it 
felt there are critical research gaps, including issues related to 
providing educational services in rural communities.
   determining need and reaching rural students in awarding literacy 
                                 grants
    Question. Madam Secretary, the Department recently awarded Striving 
Reader literacy grants to 11 States to help States create a 
comprehensive program to advance literacy skills for students from 
birth through grade 12. Please share with the Committee what the 
Department is doing to ensure these literacy grants benefit a wide 
variety of States, especially rural areas with underserved populations, 
like Mississippi. What metrics does the Department use in determining 
States with the greatest need are awarded these grants, including 
States with reading scores significantly below the national average?
    Answer. Of the 11 grantees in the 2017 Striving Readers 
Comprehensive Literacy (SRCL) cohort, five explicitly discussed in 
their funded applications the unique issues that students in rural 
communities face. These five applicants received 48 percent of the 
funds available for new awards in 2017. The Department asked States to 
submit, as part of their applications, State- and local-level literacy 
plans that were informed by a comprehensive needs assessment. The local 
literacy plans were required to include evidence-based literacy 
interventions tailored to local needs and a strategy for tracking 
student outcomes over time. External peer reviewers then reviewed and 
scored each application by reviewing the contents of the proposed 
literacy plans and determining the extent to which such plans were 
relevant to the stated needs of students that would be served. Finally, 
the 2017 notice inviting applications for new SRCL awards explicitly 
stated that when awarding subgrants States must prioritize districts 
that would serve greater numbers or percentages of disadvantaged 
children, including children who are performing below grade level.
 content center priorities, training and technical assistance to serve 
                           rural communities
    Question. Madam Secretary, in fiscal year 2017 and fiscal year 2018 
budget requests, the Department indicated funding for Comprehensive 
Centers would ``support a new cohort of Content Centers to be selected 
through a competitive process to reflect the changing priorities and 
new demands resulting from the reauthorization of ESEA.'' To date, the 
Department has not indicated when new Content Centers would be selected 
or which priorities within ESEA would be addressed. Should Congress 
provide funding for Comprehensive Centers in fiscal year 2019, when 
does the Department plan to release details on which issues Content 
Centers will address? Since ESSA provides greater flexibility to State 
and local schools, how does the Department plan to use Comprehensive 
Centers to provide training and technical assistance (TTA) to build 
capacity within low-performing schools? Please explain how the 
Department plans to establish a Content Center focused on assisting 
rural schools with TTA, as emphasized in the fiscal year 2017 and 
fiscal year 2018 Senate Labor-HHS-Education Appropriations Committee 
Reports.
    Answer. The Department is developing plans for a competition for 
new Comprehensive Center awards in fiscal year 2019, should Congress 
choose to fund the program, and anticipates publishing a notice of 
proposed priorities in the fall of 2018. The Department will take the 
special needs of rural areas into consideration when designing the 
competition and making awards.
     timeline and actions on promise neighborhood extension grants
    Question. Secretary DeVos, you and I have previously discussed how 
proud I am of Mississippi's two Promise Neighborhood programs in the 
Delta region. In the fiscal year 2018 Consolidated Appropriations Act, 
Congress provided detailed guidance to the Department regarding the 2-
year extension of Promise Neighborhood grantees from the fiscal year 
2011 and fiscal year 2012 cohorts. Extended support would allow 
grantees additional time to formalize relationships for long-term 
sustainability. I appreciate the attentiveness the Department has given 
to this issue. Please provide the Committee with an update on the 
timeline and actions the Department have taken on awarding extensions 
grants.
    Answer. The Department awarded three extension grants on July 2 to 
South Bay Community Services (CA), Mission Economic Development Agency 
(CA), and Delta Health Alliance (MS). Each grantee was awarded $6 
million to be spent over 2 years.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
   preemption of state authority in student loan servicing oversight
    Question. Does the Department believe it would have benefited from 
input from affected State and local officials in developing the Notice 
of Interpretation entitled ``Federal Preemption and State Regulation of 
the Department of Education's Federal Student Loan Programs and Federal 
Student Loan Servicers,'' published in the Federal Register on March 
12, 2018, even if it does not assert that it was legally required to 
obtain such consultation?
    Answer. The Notice of Interpretation (``Notice'') reflects the 
Department's legal position regarding State regulation of Federal 
student loan servicing. The Department is open to receiving input from 
State and local officials on important issues related to the 
Department's responsibilities, including its loan servicing practices; 
however, as with litigation or other legal proceedings, the Department 
does not solicit opinions from outside the Federal Government when 
determining its own legal position. The Notice is also consistent with 
the Department's approach in previous statements where it asserted 
Federal preemption over State laws regulating Federal student loan 
servicing and the administration of Federal student loan programs. For 
example, in 1990, the Department did not seek public comment when it 
published a Notice of Interpretation that Federal law preempted State 
law regulating the conduct of certain loan collection activities by 
guaranty agencies. See 55 FR 40120. During the prior Administration, 
the Department did not seek public comment when it intervened in 
litigation and successfully asserted that Federal law preempted State 
law that was being used to regulate Federal Family Education Loan 
Program (FFELP) Loan servicing. See Chae v. SLM Corporation, 593 F.3d 
936 (9th Cir. 2010).
     disaggregated private collection agency volume and performance
    Question. The explanatory statement accompanying the Consolidated 
Appropriations Act, 2018 (Public Law 115-141) asks the Department to 
provide the performance metrics, total loan volume, and number of 
accounts broken out by servicer and for each private collection agency. 
The Department has provided total loan volume and number of accounts 
for some private collection agencies, but no performance metrics. 
Please indicate which performance metrics have been used to evaluate 
private collection agency volume and specify the performance on those 
metrics, disaggregated by each private collection agency currently 
holding Federal loan volume.
    Answer. FSA does not think that it is possible to draw a meaningful 
comparison between performances of our 11 small business private 
collection agencies (PCAs) to the PCAs with unrestricted contracts 
because the two contracts have operated during different periods of 
performance and with different contractual incentives. Historically, 
when FSA has compared the performance of its PCAs, we have compared the 
performance on groups of accounts assigned to those PCAs 
contemporaneously. This is not possible to do between two different 
contracts because FSA stopped transferring accounts to the unrestricted 
contractors at roughly the same time that we began transferring 
accounts to the small business contractors. Because it takes a minimum 
of 10 months for a borrower to rehabilitate his or her defaulted loan, 
the age of a PCA's portfolio is a critical factor in comparing 
performance; we would expect very different performance statistics for 
a cohort of borrowers a PCA has held for a year rather than for just 6 
months.
    The Small Businesses have been effective in resolving defaulted 
accounts. Since November 2015, these PCAs collected more than $585 
billion (Voluntary payments and AWG) and to date have rehabilitated 
more than 137,000 defaulted borrowers' accounts, excluding additional 
borrowers who are working to complete rehabilitation but have not yet 
completed.
    FSA does monitor prime performance in a number of ways., First, 
Quality Control (QC) is performed monthly on both complaints filed and 
calls handled by the PCAs and focuses on regulatory compliance and 
customer service. The results are shared regularly with PCAs. Secondly, 
Quality Audit Reports (QAR) is performed periodically and focuses 
primarily on the extent of a vendor's adherence to contractual 
requirements, along with applicable policies and procedures documented 
in the vendor's Quality Control Plan. Finally, Contractor Performance, 
Monitoring and Evaluation (CPME) was developed as a tool by which to 
measure success in default collections, adherence to regulatory and 
customer experience via QC of calls, and volume of complaints. The 
intent of CPME is to eventually utilize it as a tool to determine 
monthly allocation volume to all vendors based on these competitive 
results. Until CPME is utilized, monthly allocations are distributed 
solely on capacity provided by the vendors. Unfortunately, litigation 
has prevented us from previously implementing CPME.
     servicer payment reductions for borrower benefit noncompliance
    Question. In response to written questions submitted in March 2018 
by Representative Rosa L. DeLauro, you indicated that ``FSA reduced 
payments to Great Lakes Higher Education Corporation, Granite State 
Management & Resources, and Oklahoma Student Loan Authority in 2017 as 
a result of noncompliance in the application of a borrower benefit.'' 
Which borrower benefit were these servicers found to be out of 
compliance with administering, and what was the total amount of the 
reduced payment for each servicer?
    Answer. FSA reduced payments to Great Lakes Higher Education 
Corporation, Granite State Management & Resources, and Oklahoma Student 
Loan Authority in 2017 as a result of noncompliance in the application 
of the 0.80 percent interest rate reductions. From October 1, 2000--
September 30, 2001, the Department offered an up-front, permanent 
interest rate reduction of 0.80 percent to borrowers who consolidated 
their loans and made 12 consecutive on-time payments. This was a one-
time reduction and could not be regained if the 12 consecutive on-time 
payments were not made. FSA found that some borrowers were provided 
with either a double interest rate incentive (0.80 percent X 2 = 1.6 
percent) or originally lost the 0.80 percent interest rate incentive 
but regained the incentive once the new servicer received 12 monthly 
on-time payments.
    Servicers are not entitled to payment for borrowers who are not 
being serviced in compliance with requirements. Therefore, FSA reduced 
payments to Great Lakes, Granite State, and OSLA by the amount 
previously paid by FSA for the improper servicing of affected student 
loan borrowers.
    In April 2017, FSA worked with Great Lakes, Granite State, and OSLA 
to determine how much FSA paid each servicer for the affected borrowers 
for the entire period of noncompliance. The period of noncompliance is 
from the time of the improper deduction until January 26, 2016 (for 
borrowers who received a double deduction) or until May 5, 2016 (for 
borrowers who were improperly granted the deduction). The calculated 
amounts were as follows: Great Lakes--$1,260.14; Granite State--
$37,437.57; and OSLA--$42,549.57.
    In May 2017, FSA requested that these amounts be credited, and the 
amounts were credited on the servicers' next invoices.
              list of routine and targeted servicer audits
    Question. Please provide a list of all routine or targeted audits 
of Direct Loan servicers conducted by FSA in the last 5 years, 
including the name of each servicer for which the audit was conducted 
and the applicable dates of the audit.
    Answer. Please refer to the three tables that follow.
                  routine and targeted servicer audits
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   internal controls on site reviews
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                tivs-nfp reviews conducted 2013-present
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             loan servicing oversight and customer service
    Question. In a March 12, 2018, notice of legal interpretation in 
the Federal Register regarding oversight of student loan servicing and 
debt collection, your Department claimed that it is providing 
``exemplary customer service'' for borrowers. Please describe your 
agency's actions with respect to protecting Federal student loan 
borrowers that reflects this exemplary customer service.
    Answer. The Department monitors servicer compliance with the 
Department's contracts, which include requirements related to customer 
service. These oversight efforts include, but are not limited to, call 
monitoring, process monitoring, and servicer auditing, conducted both 
remotely and on-site by FSA. FSA has dedicated staff with the 
responsibility to ensure that servicers are adhering to regulatory and 
contractual requirements for servicing loans. For example, FSA reviews 
interactions between servicers and borrowers and compares the 
servicers' performance against a detailed Department checklist. FSA 
provides its performance evaluations to servicers through written 
reports and meetings and requires servicers to alter their practices 
when needed to correct deficiencies. FSA also maintains direct access 
to servicer systems and therefore can review individual borrower 
accounts to evaluate the servicers' treatment of those accounts against 
regulatory and contractual requirements.
    The Department's procurement and contracting requirements provide 
incentives for improved customer service by allocating more loans to 
servicers that meet performance metrics, such as high levels of 
customer satisfaction and by paying servicers higher rates for loans 
that are in a non-delinquent status, including those enrolled in an 
income-driven repayment plan. Poor-performing servicers lose loans in 
their portfolio to better-performing servicers.
    FSA maintains a Feedback System, which includes a formal process 
for borrowers to report issues or file complaints about their loan 
experiences, including problems with servicing. Borrowers may also 
elevate complaints to the FSA Ombudsman Group--a neutral and 
confidential resource available to borrowers to resolve disputes 
related to their loans.
              controls on abuses in direct loan servicing
    Question. There are countless examples of abuse in the student loan 
industry--from servicers to debt collectors--including borrowers being 
driven into forbearance where they face billions of dollars in 
unnecessary interest; being given bad advice about forgiveness options; 
disabled veterans erroneously reported in default; and servicers 
routinely miscalculating and misapplying payments. What are specific 
examples of when the Department has taken action to stop Direct Loan 
servicers from abusing student loan borrowers?
    Answer. When the Department becomes aware of errors in servicing 
with a borrower's account, we work directly with the servicer to 
remediate the account. In the instances of more egregious errors, such 
as regulatory or contractual violations, the Department's procurement 
and contracting office will review and determine where/when to impose 
warranted fees and/or penalties.
         basis for initiation of enhanced servicing at 90 days
    Question. In a memorandum dated May 3, 2018, the Department stated 
that ``FSA's new vision [for debt collection] is for an enhanced 
servicer(s) to provide services to borrowers beginning ninety (90) days 
after a borrower account becomes delinquent and continue those services 
through the resolution of any subsequent default.'' What evidence 
supports the Departments choice of 90 day as an inflection point for 
borrower success?
    Answer. Based on market research, FSA has determined that we must 
engage at-risk borrowers with more intensive outreach much earlier in 
the process. Consequently, FSA intends to expand its focus to include 
default prevention efforts 91 days after the date of delinquency.
    benefit of enhanced servicing versus private collection agencies
    Question. In the May 3, 2018 memorandum on debt collection, the 
Department noted that ``FSA's need for Private Collection Agency (PCA) 
services as a function separate from the work provided by the enhanced 
servicer(s) will diminish rapidly in the coming months and ultimately 
become nonexistent . . . FSA Business Operations has identified 
significant benefits to the Government and to borrowers from this new 
approach.'' Please identify the specific benefits to borrowers, 
including any cost savings for the borrower.
    Answer. We expected that the enhanced services provided to 
borrowers beginning at 91 days after the date of delinquency should 
reduce defaults, allowing for borrowers to avoid negative credit 
reporting and the increased loan burden that comes with collection fees 
assessed at the time a student loan defaults. Additionally, focusing on 
default prevention means expanded options for distressed borrowers, 
including various repayment plans, deferments, and forbearance, most of 
which are not available once the loan is in default.
              costs of private collection agency phase-out
    Question. Would the Department's plan to phase out the use of 
private collection agencies potentially involve any increase in 
collection costs for borrowers, including but not limited to shifting 
costs onto borrowers that are current provided through mandatory fees 
the Debt Collection Improvement Act of 1982 (DCIA) through contingent 
fee contracts? If so, please describe these potential costs in detail.
    Answer. No. FSA's plan will not increase collection costs for 
borrowers.
     consumer protection standards for servicing contract selection
    Question. The Consolidated Appropriations Act, 2018 (P.L. 115-141) 
requires the Department to ensure that contractors selected for 
participation in the FSA Next Generation Processing and Servicing 
Environment have a ``history of compliance with applicable consumer 
protections laws.'' Please describe the consumer protection laws upon 
which the Department will evaluate such history of compliance, and how 
previous audits and reviews of compliance with the Department's own 
contract requirements and standards will be used in this process.
    Answer. Because the Next Generation Financial Services Environment 
acquisition is currently an active procurement, there are legal 
restrictions on the information that FSA can share publicly regarding 
the selection process. Information regarding the internal evaluation 
process is source selection information subject to the restrictions on 
disclosure of the Procurement Integrity Act. The Phase One solicitation 
includes past performance as one of the selection factors.
     student loan record data sharing with law enforcement agencies
    Question. In a document published on the Federal Register on June 
13, 2018, regarding the Privacy Act provisions for the Customer 
Engagement Management System (Docket ID ED-2018-FSA-0053) the 
Department indicates that it is ``removing former routine use (2) 
entitled ``Disclosure for Use by Other Law Enforcement Agencies'' 
because the Department no longer intends to disclose any records under 
this routine use.'' The effect of this change will be to deny access to 
student loan information that supports a legitimate law enforcement 
interest by a State, local, tribal, or other Federal agency charged 
with the responsibility of investigating or prosecuting violations or 
potential violations of any applicable statute, regulation, or order of 
a competent authority. Please provide a detailed justification for why 
would the Department take action to remove the sharing of student loan 
record data with law enforcement agencies, including how this action 
protects and supports student loan borrowers.
    Answer. The Department is not changing policies regarding the 
sharing of data from the Customer Engagement Management System (CEMS). 
The Department is in the process of modernizing the application system 
for Federal student loan borrowers who wish to apply for relief under 
the Borrower Defense to Repayment (BD) provisions. In doing so, the 
Department is moving the BD system to CEMS. As a result, the CEMS SORN 
needed to be updated to reflect routine uses associated with processing 
Borrower Defense claims.
    The SORN update, and specifically the removal of the law 
enforcement routine use, does not indicate a policy change. The 
Department can and will continue to share information for law 
enforcement purposes pursuant to 5 USC Sec. 552a(b)(7) and the routine 
use governing ``enforcement disclosure.'' We are removing this routine 
use as it is redundant. The Department will continue to share data from 
CEMS with the FTC, DOJ, and other appropriate law enforcement agencies.
        hold on exploring additional borrower defense categories
    Question. The Department's Office of Inspector General (OIG) 
released a report on December 8, 2017, titled ``Federal Student Aid's 
Borrower Defense to Repayment Loan Discharge Process'' which notes, on 
page 16, that further research into additional categories of borrower 
defense claims was ``placed on hold'' during the current 
Administration. Who placed this research on hold and why?
    Answer. As previously announced, the Department put a hold on 
certain borrower defense evaluation activities in order to conduct a 
comprehensive review of the program. This review was done by high-level 
career and political leaders. One of the recommendations based on the 
review was a request that the Inspector General review the overall BD 
adjudication process.
    The IG review focused initially on the over 16,000 claims that had 
been approved in the previous Administration but not yet discharged. 
Given the significant fiscal implications of full discharge of these 
claims and because there were numerous complexities involved with many 
of the claims, the Department focused on those claims first to ensure a 
smooth discharge process for those borrowers.
    Once the processes to discharge those loans were finalized, 
Department leadership decided to prioritize updating its relief 
methodology and assessing the large number of existing Corinthian 
claims not yet adjudicated, including how to handle large numbers of 
claims that the previous Administration had flagged for denial but had 
not developed any processes or procedures to effectuate.
                     borrower defense and itt tech
    Question. According to the OIG report on borrower defense, one 
category of evidence for borrower defense claims relates to ITT 
Education Services, Inc. (``ITT Tech'') misrepresentations of 
guaranteed employment. Has the Department provided borrower defense 
discharges from former ITT Tech students due to guaranteed employment 
misrepresentations or any other category of evidence since January 20, 
2017? Furthermore, has the Department made any additional findings or 
documented any additional evidence or findings that could support 
borrower defense claims from former ITT Tech students since January 20, 
2017? If not, why not?
    Answer. No. The Department continues to review borrower defense 
applications related to various institutions, including ITT Tech. As 
part of this review, the Department is considering whether the 
allegations in the claim would give rise to a cause of action under 
applicable State law. The Department is working to evaluate the merits 
of these claims including applicable evidence related to an 
institution's alleged wrongdoing.
    Regarding additional findings, no. The Department put a hold on 
Borrower Defense (BD) claim processing during the change of 
Administration while it requested that the Inspector General review the 
overall BD adjudication process and the new Administration reviewed BD 
policies.
          digitizing public service loan forgiveness paperwork
    Question. The Government Paperwork Elimination Act calls on Federal 
agencies to increase their use of electronic forms, electronic filing, 
and electronic signatures. Although it is positive that borrowers can 
digitally upload many forms and documents on the web with their 
servicers, Public Service Loan Forgiveness (PSLF) forms have not been 
significantly digitized. What is the status of the Department's effort 
to implement a fully digital signing and uploading process for all PSLF 
forms and allow borrowers with any servicer to utilize such process, 
consistent with bipartisan requests from Congress?
    Answer. FSA is currently in the process of creating and 
implementing a PSLF online assistance tool that will allow borrowers to 
submit Employment Certification Forms (ECF) and PSLF applications 
online. The tool will assist borrowers with a better understanding the 
PSLF program, knowing when they should provide the ECF or PSLF 
application and assist borrowers to understand what payment plans are 
eligible for PSLF. The tool will use NSLDS data to provide borrower 
specific information and help to pre-fill forms being submitted. 
Borrowers with loans that do not qualify for PSLF will be advised on 
how they can begin a consolidation application and complete that form 
on the same online site. FSA anticipates the tool to be in place by the 
end of 2018.
                     pslf employment certification
    Question. Has the Department considered improvements to make the 
employment certification process more efficient, including logging 
known employers for PSLF in a centralized database, or entering into a 
data match with the Office of Personnel Management to eliminate the 
need of Federal employees to certify Federal employment for the 
purposes of PSLF? If not, why not?
    Answer. FSA is currently in the process of creating and 
implementing a PSLF online assistance tool that will allow borrowers to 
submit Employment Certification Forms (ECF) and PSLF applications 
online. FSA envisions future enhancements to this tool that will 
maintain a database of qualified PSLF employers and allow integration 
of that database with the PSLF forms simplifying the process for form 
completion. Integration with various sources to populate and update the 
employer information is being evaluated and will be implemented to the 
extent feasible. The implementation of this employer database feature 
is expected to be in place in 2019.
             borrower defense and court reporting institute
    Question. In a January 17, 2018, response letter to me from James 
Manning, Delegated the Authority to Perform the Functions and Duties of 
the Under Secretary, regarding the status of borrower defense 
discharges for victims of the Court Reporting Institute (CRI), I was 
told that the agency could not provide ``an exact timetable for when 
the Department will reach a decision regarding the specific BD claims'' 
but that the Department was ``working tirelessly to reduce the number 
of pending claims.'' It has been more than a year and a half (18 
months) since I asked the Department to provide debt relief to at least 
335 student loan borrowers from Washington who were subject to fraud 
and abuse by CRI, as detailed in a November 21, 2016, letter from 
Washington State Attorney General Bob Ferguson to the Department. CRI 
induced students to enroll and finance their educations with 
extraordinary levels of debt by systematically misrepresenting its 
educational practices, instructor qualifications, graduation rates, and 
employment prospects.
    Has this Administration reviewed the evidence provided in the 
November 21, 2016, letter from Washington State Attorney General Bob 
Ferguson to the Department regarding CRI's misrepresentations that give 
rise to State law causes of action under Washington's Consumer 
Protection Act, RCW 19.86, and common law fraud?
    When will the Department answer my requests, the requests of 
Washington State Attorney General Ferguson, and the pleas of hundreds 
of former CRI students that were cheated and deserve student loan debt 
relief?
    Answer. While we cannot comment on internal or deliberative 
discussions, we assure you that the Department is working tirelessly to 
reduce the number of pending claims.
           loan discharge for total and permanent disability
    Question. Is the Department aware of any single example of State 
tax liability for veterans receiving a total and permanent disability 
(TPD) discharge of their Federal student loans?
    Answer. No. The Department has not reviewed each State's tax laws 
on this point. The Department does not have expertise on the various 
State tax laws and does not want inadvertently to provide inaccurate 
tax advice to our borrowers; however, servicer correspondence and 
websites encourage borrowers to contact a tax professional.
          automating loan-related processes for servicemembers
    Question. Senate Report 115-150 accompanying the 2018 
appropriations bill notes that under the ``Higher Education Relief 
Opportunities for Students Act of 2003, servicemembers enrolled in 
income-driven repayment programs are eligible for a waiver from annual 
recertification obligations of their income [and] servicemembers with 
Federal Perkins Loans are also eligible for a cancellation of a 
percentage of their debt, based on qualifying years of military 
service, in accordance with Section 465 of the Higher Education 
Opportunity Act of 2008.'' I have not received the information required 
by the explanatory statement on either of these provisions. Please 
describe the Department's plans to automate the application of both of 
these benefits for our Nation's service members.
    Answer. The Department is currently pursuing a data matching 
agreement with the Department of Defense (DoD). This arrangement will 
commence with a ``no-interest accrual'' benefit. The agreement will 
then expand to include additional facets of data matching for borrowers 
who are service members.
    While we move toward automation, there will be some instances, such 
as with the Higher Education Relief Opportunities for Students (HEROES) 
Act, where waivers for service members that are required as part of the 
Act would create a disproportionate hardship to the borrower. As the 
borrower (i.e., the service member) would self-determine their income 
information for their IDR application, this self-determination could 
prevent the ability for total automation.
         restorations to pell eligibility due to school closure
    Question. Please provide an update on Pell Grant Lifetime 
Eligibility Used (LEU) restored due to school closure, according to the 
Department's April 3, 2017, notice, Guidance on COD Processing of Pell 
Grant Restoration for Students who Attended Closed Schools, including 
total number of unduplicated students receiving restoration of Pell 
LEU, total number of institutions which those students attended, and 
total number of semesters restored.
    Answer. Pell Closed School Restoration as of June 27, 2018:
  --Unduplicated Student Count: 309,497
  --Closed School Count w/Restorations: 984
  --Estimate of Equivalent Semesters: 489,436
       commitment to expanding ccampis to reduce childcare costs
    Question. Given the 233 percent increase in funding, will you 
commit to substantially expanding the overall number of CCAMPIS 
beneficiaries by a similar level, and, if so, how will the Department 
ensure that low-income students are prioritized in new CCAMPIS awards 
in a manner that reduces their childcare costs--and that does not 
supplant existing childcare funding provided by institutions?
    Answer. The Department anticipates an increase in the number of 
grantees commensurate with the funding increase. In determining the 
final number of awards to make in fiscal year 2018, the Department will 
also take into account such factors as the number and quality of 
applicants and the likelihood of the current funding level being 
retained in future years.
    state authorization for distance education and foreign locations
    Question. Why does the Department believe the entire rule governing 
State authorization for distance education and foreign locations should 
be delayed if concerns have only been raised with select parts of the 
rule? For example, the Department did not cite any concerns about the 
State authorization component for foreign locations of American 
colleges.
    Answer. The Department did not delay the entire rule. The component 
regarding State authorization of foreign locations of domestic 
institutions (34 CFR 600.9(d)) was not delayed and went into effect 
July 1, 2018.
           comment period on delayed state authorization rule
    Question. Why did the Department wait so many months to publish a 
notice of delay regarding State authorization for distance education 
and foreign locations when it had more than a year to consider the 
rule's implementation, and then provide only a 15 day comment period?
    Answer. The Department received 2 letters from representatives of 
regulated parties in February 2018. These letters made us realize that 
the extent to which clarifications to the 2016 rule were needed to 
implement the 2016 rule were more substantive than we initially 
thought. We further believed that the needed clarifications were so 
substantive that a delay in the effective date would be required to 
review and possibly revise the regulations. We do not believe that 
guidance would be the appropriate vehicle to provide needed 
clarifications. Finally, due to the complexity of the issues and the 
substantive nature of the necessary clarifications, we believed that, 
to develop workable solutions, it would be important to conduct 
negotiated rulemaking under the Higher Education Act in order to 
solicit the input of stakeholders who have been engaged in meeting 
these requirements.
    Regarding the 15-day comment period, this was necessary because, 
given that the 2016 rule was scheduled to take effect on July 1, 2018, 
a final rule delaying the effective date needed to be published prior 
to that date. A longer comment period would not have allowed sufficient 
time for the Department to review and respond to comments and publish a 
final rule.
 deferment applications and grants under hbcu capital financing program
    Question. The Consolidated Appropriations Act, 2018 (P.L. 115-141) 
provided $10 million to allow multiple financially struggling HBCUs to 
apply for the deferment of HBCU capital finance loans. Applications for 
those deferments were due on June 8, 2018.
    a. Does the Department expect to be able to provide eligible 
institutions with deferments by the end of the academic fiscal year, 
which is June 30, 2018?
    b. The Consolidated Appropriations Act, 2018 (P.L. 115-141) 
specifically mentioned that the authority for loan deferment would be 
made to eligible institutions (plural). Does the Department expect to 
provide all institutions that meet the qualifications named in law to 
all receive support from the deferment authority? If not, why not?
    c. Please provide the number of institutions that applied for a 
deferment, the number of institutions that meet all the qualifications 
for a deferment as named in law, and the number of institutions the 
Department expects to grant a loan deferment.
    d. Does the Department plan to proactively notify the accrediting 
agency of an approved institution under the new deferment authority?
    Answer. a. We notified successful institutions prior to June 30, 
2018. The paperwork will extend past that date.
    b. The deferment requests exceeded $10 million per year, so not all 
institutions were successful.
    c. We received 15 applications. Of those, 13 were eligible. Eight 
institutions were notified that they would receive deferments.
    d. We notified each successful applicant of its deferment pending 
completion of revised loan agreements. Each institution may share its 
notification with any other party.
     credit for hbcu payments made prior to 2018 appropriation for 
                     modification and consolidation
    Question. Separately, the Consolidated Appropriations Act, 2018 
(P.L. 115-141) provided $20,150,000 to cover the cost of HBCU Capital 
Financing Program loans, which includes the cost of modifying such 
loans. Some institutions are in need of relief from their loan, and 
some are institutions that have already made their second biannual 
Capital Finance Program loan payment for fiscal year 2018. In some 
cases, the payments were made after the provisions authorizing 
deferment and modification were signed into law. Institutions made the 
responsible choice to remain current on their loan payments, but in 
doing so placed the entire institution in a poorer fiscal position.
    a. Does the Department plan to credit back all or some portion of a 
school's fiscal year 2018 payment? If not, why not?
    b. If the Department plans to credit back some or all of a school's 
fiscal year 2018 payment, does the Department plan to assist 
institutions in accounting for a modification in their end of year 
audit?
    c. If the Department plans to credit back some or all of a school's 
fiscal year 2018 payment, does the Department plan to proactively 
notify the accrediting agency of that institution's institution pending 
credit to a school's account?
    Answer. a. The deferments are provided on a fiscal year basis, so 
past payments for fiscal year 2018 will be credited.
    b. We are pleased to provide technical assistance within our 
authority. Institutions are responsible for their own financial 
reporting.
    c. Each institution may share its situation with any other party.
                    hbcu capital financing outreach
    Question. The Consolidated Appropriations Act, 2018 (P.L. 115-141) 
also directed the Department to create and execute an outreach plan to 
work with States and the Capital Financing Advisory Board to improve 
outreach to States and help additional public HBCUs participate in the 
program. What is the status and timeline of the creation and execution 
of that outreach plan? Please share details on the key activities that 
will be undertaken under the plan.
    Answer. We are making progress in developing such a plan and have 
so shared with GAO.
                           acics outcome data
    Question. Please provide an updated ACICS outcomes data file as of 
April 2, 2018, (prior to when the Secretary restored ACICS' 
recognition) and June 12, 2018, that shows for all ACICS-accredited 
colleges:
    a. the date of a school's site visit, if any
    b. the date that a school's application to a prospective accreditor 
was denied, if applicable
    c. the date that a school's application to a prospective accreditor 
was withdrawn, if applicable
    d. Compliance status of each institution with the terms of the 
Program Participation Agreement (PPA) in control as of April 2, 2018
    e. Status of any colleges deemed non-compliant with their PPA 
terms, including provisions are they non-compliant with and 
corresponding consequences
    f. For any closed or announced to be closed institutions, 
information on the schools' plan for closing and teach-out agreements
    g. A summary of any revisions to the PPA made for each school after 
August 30, 2017.
    h. A list of colleges that were determined subject to the June 12, 
2018, deadline at the time of the Secretary's April 3rd decision to 
restore ACICS as a federally recognized agency and any updates in 
accredited status since then.
    i. The status and applicability of the June 12, 2018, deadline for 
each school to find a new accreditor.
    Answer. Please refer to the following attachments for responses to 
parts a-i of this question.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    a. Column L of attachment #1 provides the date of the institution's 
site visit by a prospective accreditor (as applicable) as of April 2, 
2018. Column L of attachment #2 provides the date of the institution's 
site visit by a prospective accreditor (as applicable) as of June 12, 
2018.
    b. Column J of attachment #1 provides the date of the institution's 
application to a prospective accreditor was denied (as applicable) as 
of April 2, 2018. Column J of attachment #2 provides the date the 
institution's application to a prospective accreditor was denied (as 
applicable) as of June 12, 2018.
    c. Column K of attachment #1 provides the date of the institution's 
application to a prospective accreditor was denied (as applicable) as 
of April 2, 2018. Column K of attachment #2 provides the date the 
institution's application to a prospective accreditor was denied (as 
applicable) as of June 12, 2018.
    d. Column G of attachment #1 provides the PPPA compliance status of 
each of the 269 institutions originally impacted by the December 2016 
decision to rescind ACICS's status as a federally recognized accreditor 
as of April 2, 2018
    e. Attachment #3 provides the status of the 17 institutions deemed 
to be out of compliance with the then-current PPA terms and conditions 
as of April 2, 2018, and their accreditation and eligibility status as 
of June 13, 2018. Attachment #4 is the original PPPA addendum which 
outlines the original terms and conditions governing participation 
while Attachment #5 contains the August 2017 letter modifying select 
terms and conditions of the December 2016 PPPA addendum. Taken 
together, these better explain the triggered conditions for each of the 
institutions deemed non-compliant as of April 2, 2018.
    f. As noted in attachment #4, condition 6, entitled, Teach Out 
Plans, instructed all institutions to submit a teach-out plan to the 
Department within 30 calendar days of the Secretary's final decision 
withdrawing recognition of the Institution's accrediting agency. 
Extensions could be granted by the Secretary, in the Secretary's sole 
discretion, for good cause shown. That said, the Department has teach-
out plans on file for nearly all participating institutions that signed 
their PPPA in December 2016. We will ask for clarification from the 
Senator's staff on which plans she may like to receive and we will 
provide them to her electronically.
    g. Attachment #4 is the original PPPA addendum which outlines the 
original terms and conditions governing participation while attachment 
#5 contains the August 2017 letter modifying select terms and 
conditions of the December 2016 PPPA addendum. Attachment #6 is 
correspondence which describes the March 2018 United States District 
Court for the District of Columbia's Memorandum Opinion in Accrediting 
Council for Independent Colleges and Schools v. DeVos; its impact on 
the recognition petition that ACICS submitted to the Department in 
January 2016; and the disposition of the Addendum Conditions governing 
the participation of institutions.
    h. The 122 institutions with a coded status of ``Compliant with 
PPPA terms,'' ``Non-Compliant with PPPA terms'' or ``Intending to 
Close'' in column ```G'' Current Status of the attachment #1 serves as 
comprehensive listing of institutions which were subject to the June 
12, 2018, deadline as of April 2, 2018.
    i. Attachment #2 provides the status of each of the 269 
institutions originally impacted by the December 2016 decision as of 
June 12, 2018. The June 12, 2018, deadline required all institutions 
listed to be accredited (or, if applicable, pre-accredited) by a 
recognized accreditor as of that date.
                evidence considered in acics recognition
    Question. You've indicated in response to other questions for the 
record from Representative Rosa L. DeLauro that the Department ``will 
not consider the application for initial recognition filed by ACICS as 
part of its review of the 2016 final agency decision, including 
evidence submitted as part of that application.'' Can you please 
clarify:
    a. What is the legal authority that allows the Department of 
Education to not consider this additional evidence without making the 
decision subject to being arbitrary and capricious?
    b. If ACICS submits any evidence or documents that are the same as 
ones submitted for the draft staff analysis, will the Department 
consider the staff's analysis of those exhibits?
    c. Will the Department of Education be consulting career staff at 
all around the forthcoming decision with ACICS?
    Answer. a. An agency that is already recognized need not submit an 
application for initial recognition, so the application for initial 
recognition submitted by ACICS in 2017 was withdrawn when the agency's 
recognition status was restored pending the review of the Part II 
submission.
    It would be inappropriate to consider a staff analysis that is no 
more than an incomplete draft, that consequently does not incorporate 
corrections to possible errors of fact from the Agency, and that uses a 
methodology that applies to petitions for initial recognition and not 
petitions for continued recognition. Under the ``focused review'' 
methodology developed by the prior Administration, petitions for 
continued recognition can include attestations rather than narrative 
and documentation for certain criteria for recognition, unlike 
petitions for initial recognition. In addition, the Department has 
always required full compliance of agencies seeking initial 
recognition, whereas agencies seeking continued recognition may be 
given up to 12 months to rectify areas of non-compliance. As a result 
of these factors, it would be inappropriate to use the staff analysis 
of the petition for initial recognition for the purpose of considering 
ACICS' petition for continued recognition. In addition, because that 
petition was withdrawn before ACICS had the chance to respond to the 
draft staff analysis, the draft staff analysis potentially contains 
errors and an incomplete understanding of certain recognition criteria 
that the agency would typically be permitted to correct and clarify in 
its response to the draft staff analysis. The full and final staff 
analysis of the petition for initial recognition was never completed.
    In addition, because the 2016 decision was based on a specific set 
of negative findings, our current review is limited to those findings. 
Our responsibility is to review the Part II submission and consider it 
in determining whether or not ACICS had sufficiently addressed the 
deficiencies noted in 2016. Because so much time has passed since the 
2016 decision, ACICS was permitted to submit additional evidence to 
show its more recent performance in areas relevant to the 2016 negative 
findings. As a result, although we will not consider the application 
for initial recognition in our review of evidence regarding the 2016 
findings, it is likely that at least a portion of the additional 
evidence provided by ACICS in response to the 2016 findings may include 
evidence that was also provided in the agency's petition for initial 
recognition in 2017.
    b. As stated above, the draft staff analysis performed for a 
petition of initial recognition is very different from the analysis 
performed for a petition of continuing recognition. Therefore, the 
Department will not consider the draft staffs analysis, which was not 
final and which adhered to the ``full compliance'' standard required 
for petitions for initial recognition.
    c. No. The final decision on remand remains with the Secretary, who 
will consider the response submitted by ACICS on May 30, 2018, and the 
response of the Senior Department Official to be submitted on July 30, 
2018.
     title iv eligibility for schools no longer accredited by acics
    Question. There are currently 18 colleges that are no longer 
accredited by ACICS. They either voluntarily withdrew their 
accreditation or had their accreditation revoked or expired. Therefore, 
despite the Secretary's restoration of ACICS as a federally-recognized 
accrediting agency, these 18 colleges are still without accreditation 
and should not receive access to Title IV aid. The 18 colleges are: 
Ambria College of Nursing (IL), Camelot College (LA), Colegio 
Technologico y Comercial de Puerto Rico (PR), Detroit Business 
Institute--Downriver (MI), Dewey University (PR), Global Health College 
(VA), Key College (FL), MDT College of Health Sciences (OH), Northwest 
Suburban College (IL), Pacific Institute of Technology (GA), Pacific 
States University (CA), Pioneer Pacific College (OR), PPG Technical 
College (PR), SAE Institute of Technology--New York (NY), Seattle Film 
Institute (WA), South Coast College (CA), Southern California Health 
Institute (CA), and The Recording Conservatory of Austin (TX). Can you 
confirm the Title IV eligibility status for those 18 colleges?
    Answer. Please see the attached Excel file for current eligibility 
status. Note that pursuant to 20 U.S.C. Sec. 1099c(h)(2), ``[W]henever 
the Secretary withdraws the recognition of any accrediting agency, an 
institution of higher education which meets the requirements of 
accreditation, eligibility, and certification of the day prior to such 
withdrawal, the Secretary may, notwithstanding the withdrawal, continue 
the eligibility of the institution to participate in the programs 
authorized by this title for a period not to exceed 18 months from the 
date of the withdrawal of recognition.'' Under this provision, the 
Secretary is authorized to permit institutions to participate in Title 
IV, without recognized accreditation, for a period of 18 months 
following a Departmental decision to withdraw those institutions' 
accrediting agency's recognition. The Secretary exercised that 
authority in this case with respect to ACICS-accredited institutions, 
and the 18 month period did not expire until June 12, 2018.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    list of adverse actions taken against title iv and hea program 
                              participants
    Question. Please provide a list of all recertification denials, 
emergency actions, fine actions, suspension actions, termination 
actions, or limitation actions taken, released, or initiated by ED 
since January 20, 2017, relating to any participant in the Title IV, 
HEA programs (including, without limitation, institutions of higher 
education, loan servicers, and other third-party servicers).
    Answer. The list of adverse actions is attached.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    proposed funding, staffing and investigation workload in fsa's 
                            enforcement unit
    Question. The Office of Inspector General in its most recent 
management challenges report stated that ``The Department must provide 
effective oversight and monitoring of participants in the SFA programs 
under the HEA to ensure that the programs are not subject to fraud, 
waste, abuse, and mismanagement.'' During the hearing, you stated that 
``the enforcement unit, part of Federal student aid, is very robust and 
functioning very well.'' Please provide the funding level, number of 
unduplicated full time equivalent staff, disaggregated by each of the 
four staff groups, and managerial and non-managerial employees, for the 
current fiscal year and the budget request. Additionally, please 
indicate the number of unduplicated, non-managerial employees of the 
Investigations Group who have been assigned to primarily conduct 
investigations work.
    Answer. For fiscal year 2018 and the fiscal year 2019 request, the 
budget for the Enforcement Unit is approximately $7.3 million, which 
includes personnel compensation and benefits, travel, and operational 
funds. In terms of staff disaggregated by group, please see the 
attachment.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       compliance with gainful employment disclosure requirements
    Question. What actions is the Department taking to ensure that 
Gainful Employment disclosures required by the regulations are being 
appropriately posted and are current for each program?
    Answer. As part of its oversight authority, Federal Student Aid 
manages various actions such as program reviews, recertification, new 
program and new location additions, and annual audits to determine 
whether Title IV participating schools are meeting the requirements for 
institutional eligibility, financial responsibility, and administrative 
capability. The gainful employment disclosure templates are checked as 
part of these other actions.
            transparency and documentation for essa waivers
    Question. To date, you have approved 41 waivers of the Every 
Student Succeed Act (ESSA) with very little transparency to members of 
Congress or the public. Will you commit to posting not only the final 
letters approving or denying waivers of the law, but also the initial 
waiver request from States (or school districts as applicable), any 
supporting documentation required by statute in order to request a 
waiver, and if any waiver requests or waivers granted are amended, the 
amendment requests and approvals. If not, why not?
    Answer. States waiver requests are publicly available through the 
State in accordance with section 8401 of the Elementary and Secondary 
Education Act, as amended by the Every Student Succeeds Act. States are 
required to provide the public, and any interested local educational 
agencies within the State, with notice and a reasonable opportunity to 
comment in a manner the agency customarily provides such notice. States 
are also required to submit any such comments and input as part of its 
waiver request to the Department, including a description of how the 
State addressed the comments and input. In practice this occurs through 
the posting of such waiver requests on States websites. In accordance 
with long standing historical procedures the Department will continue 
to post final approval and denial of such waivers.
                bipartisan essa implementation briefings
    Question. Both Ranking Member Bobby Scott and I have requested 
numerous times that your staff conduct regular bipartisan 
implementation briefings on ESSA implementation as the Obama 
Administration did on a routine basis in 2016. Yet to date, you and 
your staff have failed to hold these regular briefings. Will you commit 
to beginning these bipartisan briefings on a biweekly basis and if not, 
why not?
    Answer. We appreciate the significant interest from our committees 
of jurisdiction in the implementation of the Every Student Succeeds 
Act. The Office for Legislation and Congressional Affairs (OLCA) will 
continue to be responsive to all committee inquiries in a timely 
fashion and proactively convene bipartisan calls and meetings as 
necessary to ensure questions related to implementation are addressed. 
We believe this longstanding practice is the most responsive and 
efficient method in responding to inquiries and keeping Congress 
informed of activities. We look forward to continuing to work with 
Congress to ensure the successful implementation of the Every Student 
Succeeds Act.
         monitoring protocols and title i compliance under essa
    Question. Please provide an update on the development of the 
Department's monitoring protocols for ESSA, particularly for Title I of 
the law, and the Department's monitoring plans for ensuring State and 
school district compliance of Title I requirements.
    Answer. The Office of State Support (OSS) administers programs of 
financial assistance to State and local educational agencies, including 
Title I, Part A; Title II, Part A; and Title III, Part A of Elementary 
and Secondary Education Act (ESEA) of 1965. OSS is organized 
specifically to provide high quality performance management and support 
to SEAs in administering and leveraging grant programs, focusing on SEA 
quality of implementation while continually reducing the burden of the 
Department's necessary stewardship and compliance responsibilities. The 
overall monitoring framework, referred to as the performance review 
system, ensures that grantees meet performance standards and grant 
requirements, identifies potential areas of concern through 
implementation of an annual risk assessment, documents and closes out 
instances of noncompliance through written correspondence with 
grantees, and regularly evaluates and updates the efficiency and 
effectiveness of monitoring practices, procedures, and controls. The 
system includes quarterly Progress Check conference calls to discuss 
implementation and transition issues related to OSS administered 
programs, along with regular desk and on-site monitoring of fiscal and 
administrative requirements.
    Since the passage of the Every Student Succeeds Act (ESSA), OSS is 
focused on monitoring the implementation of Title I, Part A; Title II, 
Part A; Title III, Part A; and School Improvement Grant programs to 
ensure SEA administration is consistent with the fiscal and 
administrative requirements contained in the Uniform Administrative 
Requirements, Cost Principles, and Audit Requirements, 2 CFR Part 200, 
and the Education Department General Administrative Requirements 
(EDGAR). OSS focused on those fiscal requirements applicable to the 
covered programs under both the ESEA, as amended by NCLB and the ESEA, 
as amended by the ESSA. As a result, OSS developed its protocols in 
sections--piloting new sections each year, revising them after 
receiving State and OSS staff feedback, and then submitting the 
protocols for public comment through the Paperwork Reduction Act 
process.
    In fiscal year 2016 and 2017, OSS piloted a fiscal review protocol, 
which was finalized in 2018; the protocol is available for comment in 
the Federal Register. In fiscal year 2017, OSS added a data integrity 
protocol section that covers State internal controls related to data 
quality and reporting, and in fiscal year 2018, OSS is piloting an 
accountability section that assesses the fidelity of State 
accountability system implementation. As a result, fiscal year 2018 
performance reviews for selected States cover:
  --Fiscal requirements contained in Uniform Guidance, EDGAR, and ESEA, 
        as amended by NCLB, where applicable, and ESSA (piloted in 
        fiscal year 2015 and fiscal year 2016)
  --Data Reporting and Quality requirements (for continued pilot)
  --Accountability requirements (for initial pilot)
    Throughout the ESSA transition, OSS has also tracked, compiled, and 
assessed performance of State administration of OSS formula programs 
based on data collected through the annual Consolidated State 
Performance Report. This process includes regular data definition 
reviews, data quality checks, and publication of demographic and 
performance data submitted by States via EDFacts. OSS has also 
continued to conduct quarterly progress checks with each State, which 
helps us understand implementation successes and challenges and informs 
our technical assistance plans. OSS recently shared an updated progress 
check protocol for public comment, adopting to improve the quality and 
utility of information collected during quarterly progress checks.
    compliance with evidence standards for school improvement funds
    Question. Please provide an update on the Department's effort to 
ensure compliance with the evidence-based requirements in section 
1111(d)(1)(B)(ii), 1111(d)(2)(B)(ii), namely how the Department will 
ensure that school districts and States are ensuring that the 
interventions provided in comprehensive support and improvement schools 
and targeted support and improvement schools are evidence-based.
    Answer. Our Office of Elementary and Secondary Education (OESE) 
annually monitors a select number of State educational agencies to 
ensure they meet the ESEA requirements. As part of the monitoring 
process, OESE meets with two local educational agencies to examine the 
supports and guidance they are receiving from the State. A key focus of 
monitoring for 2019 will be the support and oversight that each State 
provides for its local educational agencies with schools identified for 
comprehensive or targeted support and improvement. In preparation for 
this effort, OESE is piloting a monitoring protocol in 2018 that 
includes questions on local school improvement plans and the 
implementation of school improvement requirements under section 
1003(a).
               rationale for requested cut to impact aid
    Question. Your budget proposed cutting more than $500 million from 
Impact Aid Basic Support Payments that fund 1,000 school districts 
serving military families, Native American students, and other 
federally-connected children. This program is critical for school 
districts like Central Kitsap School District in my home State of 
Washington, where educating a high-percentage of military-connected 
children makes it difficult to raise local tax revenue. Fortunately, 
our budget agreement allowed you to restore these critical funds. 
Please explain your rationale for these cuts, given the historic 
Federal role in supporting school districts that educate federally-
connected children. How would you explain to communities like those 
served by Central Kitsap School District, where so many families are 
valiantly serving their country, why you want to cut funding for a 
program that offsets the revenue challenges they face through no fault 
of their own?
    Answer. As acknowledged in your question, our initial request for 
Impact Aid Basic Support Payments was developed prior to the completion 
of the Bipartisan Budget Agreement of 2018 (BBA), and reflected the 
tough decisions required to meet the President's overall goal of 
increasing support for national security and public safety without 
adding to the Federal budget deficit under the spending caps in effect 
prior to the BBA. We were pleased to be able to restore this funding, 
and we understand how important it is for districts that participate in 
the program.
  needs assessments for student support and academic enrichment grants
    Question. In fiscal year 2018, Congress appropriated $1.1 billion 
for the Student Support and Academic Enrichment Grants program under 
Title IV-A of the Every Student Succeeds Act and rejected your proposal 
to eliminate funding for the program. These grants have the potential 
to assist States, school districts, and schools to address many of 
their most pressing challenges. In order to ensure Title IV-A funds are 
used to do so, Congress required school districts to conduct a 
comprehensive needs assessment. How will you ensure school districts 
conduct this needs assessment with fidelity?
    Answer. We agree that conducting a comprehensive needs assessment 
can be a critical requirement to ensuring the effective use of Title 
IV-A funds by school districts. In addition to previously issued 
guidance on strengthening investments across ESEA programs by 
conducting needs assessments and identifying evidence-based responses 
(see https://www2.ed.gov/policy/elsec/leg/essa/guidanceusese
investment.pdf), the Department, through the National Center on Safe 
and Supportive Learning Environments, has developed an instrument to 
assist school districts in conducting needs assessments under Title IV-
A. We are also developing a protocol for monitoring State 
administration of the Title VI-A program that will examine how States 
are ensuring school districts comply with comprehensive needs 
assessment requirements. It also is important to note that because the 
comprehensive needs assessment requirements apply only to school 
districts receiving $30,000 or more in Title IV-A funds, we estimate 
that less than one-third of districts will be subject to these 
requirements in fiscal year 2018.
    proposed elimination of 21st century community learning centers
    Question. Keeping young people safe in their schools and 
communities is one of the most important priorities for all of us. 
Striving To Reduce Youth Violence Everywhere (STRYVE)--which is the 
Centers for Disease Control and Prevention's national initiative to 
prevent youth violence--sites a host of key recommendations and 
evidence based strategies that can protect our children. One of those 
effective community level strategies recommended is providing youth 
with more structured and supervised afterschool opportunities in order 
to increase monitoring and healthy skills development. Yet the proposed 
elimination of the bipartisan-supported and authorized 21st Century 
Communities Learning Centers program directly contradicts this 
recommendation. Please explain why the Department does not support 
afterschool as part of a comprehensive solution to keep young people 
safe?
    Answer. We recognize that the 21st Century Community Learning 
Centers program often supports safe places for children to participate 
in a range of activities outside of the school day. However, we believe 
that afterschool activities are primarily the responsibility of 
families and communities, and not the Federal Government, and that 
limited Federal education resources should be dedicated to programs 
with a stronger emphasis and track record in improving student 
educational outcomes. And to the extent that local school districts 
seek to prioritize afterschool activities in meeting the educational 
needs of students and families, other Federal funds are available for 
this purpose, including the $15.8 billion Title I Grants to Local 
Educational Agencies program.
      enforcement of essa protections for children in foster care
    Question. I remain concerned about compliance with ESSA's 
educational stability requirements for children in foster care. These 
requirements, which ensure children in foster care are able to stay in 
their original school when they move foster care placements, have been 
in effect since December 10, 2016--over a year and a half. During that 
time, what have you done to monitor States and local educational 
agencies' compliance with the new requirements; and collaborate with 
HHS to ensure child welfare agencies are implementing these 
requirements with fidelity?
    Answer. Although the Department has not yet formally monitored 
State implementation of ESSA's new Title I, Part A educational 
stability requirements; the Department is currently developing a 
monitoring protocol that includes Title I, Part A provisions, and the 
protocol will include the educational stability requirements. In the 
absence of formal monitoring, the Department has engaged with SEAs and 
LEAs to provide technical assistance to support the implementation of 
these new provisions. Through this technical assistance, the Department 
has identified early implementation challenges and has worked with SEAs 
and LEAs to help them meet the requirements of the law.
    Since the passage of ESSA, the Department has closely collaborated 
with the U.S. Department of Health and Human Services (HHS) to support 
SEA and LEA implementation of the Title I, Part A educational stability 
requirements. Immediately following the passage of ESSA, for example, 
the Department and HHS collaborated on a number of projects to support 
the field. For instance, in June 2016, the Department and HHS jointly 
released non-regulatory guidance to help stakeholders both understand 
the law's new educational stability provisions and spotlight promising 
practices from across the Nation. Following the release of this joint 
guidance, the Department and HHS also jointly held a five-part webinar 
series to further discuss the non-regulatory guidance. Each webinar in 
the series featured speakers from the Department and HHS, who discussed 
the Title I, Part A requirements and the related provisions of the non-
regulatory guidance; in addition, each webinar spotlighted State and 
local practitioners implementing promising practices aligned with the 
requirements. Recordings and materials from these webinars are 
available on the Department's website.
    The Department and HHS have also collaborated on other projects, in 
addition to the joint non-regulatory guidance and related technical 
assistance, to support State and local implementation of the 
educational stability requirements. For example, the Department's 
Office of State Support (OSS) hosted a webinar for SEA foster care 
points of contact in September 2017; representatives from HHS' 
Administration on Children, Youth, and Families (ACYF) participated in 
this webinar for education agency stakeholders. Similarly, OSS will 
hold a four-part series of technical assistance webinars for SEA foster 
care points of contact in July and August 2018, and representatives 
from ACYF will participate in those webinars and provide subject matter 
expertise on child welfare agencies. Finally, as States have reached 
out to OSS with questions about the implementation of the Title I, Part 
A educational stability requirements, OSS has at times worked with ACYF 
colleagues to provide responsive support to the field.
 effect of provisions limiting use of appropriations for desegregation-
               related transportation on essa activities
    Question. Why does the budget propose to continue applicability of 
sections 301 and 302 to Federal funds available in the Departments of 
Labor, Health and Human Services, and Education, and Related Agencies 
Appropriations Act? How is section 301 different from language in 
section 426 of the General Education Provisions Act? Does section 302 
limit the use of Federal funds provided in the Departments of Labor, 
Health and Human Services, and Education, and Related Agencies 
Appropriations Act for any activity authorized by the Every Student 
Succeeds Act? If so, please describe the conflict.
    Answer. The Department engaged in extensive consultation with staff 
from Congressional authorizing and appropriations committees during the 
fiscal year 2018 appropriations process regarding these longstanding 
prohibitions in appropriations acts funding the Department's programs 
and activities. Congress addressed potential conflicts between these 
provisions and authorities in the Elementary and Secondary Education 
Act, as reauthorized by the Every Student Succeeds Act, through 
additional bill language in the Department of Education Appropriations 
Act, 2018. The House and Senate fiscal year 2019 appropriations bills 
funding Department programs that now are moving through Congress no 
longer include sections 301 or 302, effectively eliminating those 
potential conflicts.
 proposed consolidation of office of english language acquisition into 
              office of elementary and secondary education
    Question. The Office of English Language Acquisition (OELA) 
provides invaluable resources to the education community in order to 
facilitate stronger instruction for our Nation's five million English 
learner students. As part of the Education Department's reorganization 
plan, you have proposed consolidating OELA into the Office of 
Elementary and Secondary Education, preventing the director of OELA 
from reporting directly to the Secretary and threatening the office's 
critical independence. What evidence do you have that making this 
change will improve outcomes for our Nation's English learners?
    Answer. The Department of Education recognizes the importance of 
ensuring that English learners are afforded equal access to education 
and the valuable role that the Director's position and OELA contribute 
to meeting that goal. The Department notes that the amendments made by 
the Every Student Succeeds Act (ESSA) to the Elementary and Secondary 
Education Act (ESEA) places a heightened emphasis on English learners. 
ESSA moved the accountability provisions relating to English learner 
progress from Title III to Title I. Thus, the statute requires State 
ESEA plans to address long-term goals for English learner progress, 
including an English learner indicator, as an integral part of State 
school accountability systems. Just as States are adjusting to this 
change by breaking down silos between Title I and Title III State-level 
offices, so too is the Department. The proposed reorganization will 
allow the Department to provide States with the technical assistance 
needed across programs. If implemented, the Department expects that its 
proposed changes will enhance Department operations and leverage 
resources to better serve English learner students and their families. 
The Department of Education is proposing to integrate the Office of 
English Language Acquisition (OELA) into the Office of Elementary and 
Secondary Education (OESE), not eliminate it or its functions. The 
Department is committed to maintaining an effective OELA that continues 
to support and helps to facilitate compliance by States and local 
educational agencies in their efforts to provide a high-quality 
education to English learners.
          reorganization plans for department's budget service
    Question. The Department of Education Appropriations Act, 2018 and 
accompanying explanatory statement state clearly the intention that 
funds available in the Act not be used for the purpose of reorganizing 
or decentralizing the Department's budget service. In fiscal year 2019, 
does the Department plan to implement a reorganization that 
decentralizes, reduces the staffing level, or alters the 
responsibilities, structure, authority, or functionality of the Budget 
Service of the Department of Education, relative to the organization 
and operation of the Budget Service as in effect on January 1, 2018? If 
yes, please describe the changes and timeline for implementation.
    Answer. No. The Department of Education does not plan to 
decentralize, reduce staffing levels, or alter responsibilities, 
structure authority or functionality of Budget Service in fiscal year 
2019. Pursuant to the Department's reorganization, Budget Service will 
move intact to the new Office of Finance and Operations.
   oversight efforts for disaster-related emergency education funding
    Question. Last year, Hurricanes Maria and Irma devastated the 
island of Puerto Rico and its students, teachers, and families. Save 
the Children estimates that 6 months after the hurricanes, school-age 
children had collectively missed out on more than 13 million full days 
of school. In addition, many children are struggling with trauma and 
desperately need both educational and psychological supports. In 
response to these challenges and those affected by those Hurricanes and 
California wildfires, Congress provided nearly $2 billion for restart 
of operations of elementary and secondary schools, of which Puerto Rico 
has received an initial allocation of $589 million. How will the 
Department conduct oversight and ensure that these resources are used 
effectively to rebuild schools and support students?
    Answer. The Puerto Rico Department of Education (PRDE) has primary 
responsibility for developing and implementing a comprehensive plan for 
restarting schools and restoring the learning environment following 
Hurricanes Irma and Maria. We are providing regular technical 
assistance and other support to PRDE, including information on 
allowable uses of funds and reporting requirements designed to maintain 
strong accountability for the effective use of Federal resources.
      federal commission on school safety and proposals requiring 
                          congressional action
    Question. I have written you two letters about the Federal 
Commission on School Safety (FCSS), which I believe you are using to 
shift the Nation's focus away from meaningful gun safety reforms that 
will save lives. I expect full responses to these letters and the 
questions I have posed concerning the scope of the FCSS's work and the 
NRA's involvement in setting its agenda. Do you believe there are any 
reforms Congress can make concerning gun safety that could reduce 
school shootings? Please list those reforms.
    Answer. President Trump launched the Federal Commission on School 
Safety (FCSS) on March 12, 2018, as part of a comprehensive plan to 
secure our schools in response to the mass shooting at Marjory Stoneman 
Douglas High School in Parkland, Florida. The March 12 announcement 
noted that as a part of the immediate actions of President Trump to 
secure our Nation's schools, Department of Justice (DOJ) assistance 
programs will be leveraged to enable schools to partner with State and 
local law enforcement to provide firearms training for school 
personnel. The President also called upon States to adopt Extreme Risk 
Protection Orders, which will allow law enforcement, with approval from 
a court, to remove firearms from certain individuals who are a threat 
to themselves or others.
    As a part of the President's charge to the FCSS, he requested the 
FCSS to study and make recommendations on, among other things, age 
restrictions for certain firearm purchases. To carry out the 
President's charge, the Commission has held formal meetings, field 
visits, and listening sessions to hear from the public and others. DOJ 
will provide key direction to the FCSS on this aspect of the 
Commission's work.
    Given the information gathering of the Commission is ongoing, no 
specific recommendations of the Commission have been proposed or 
adopted at this time.
      student performance under dc opportunity scholarship program
    Question. The most recent evaluation of the Washington D.C. 
Opportunity Scholarship Program showed math scores for students who 
accepted a voucher were 10 percentile points lower than students who 
applied but were not selected by lottery. This rigorous evaluation 
shows us what parents, teachers, students, and community members have 
been saying all along: vouchers do not work. In light of this 
evaluation, how will you change your position to better reflect current 
research on the effectiveness of private school voucher programs?
    Answer. While the treatment group did not score as high in 
mathematics as the control group in the second year of the evaluation, 
it is important to note that students in both the treatment and the 
control groups scored higher after 2 years than they did at the time of 
application; achievement for the treatment group has not decreased. We 
know from other research, including studies of charter schools, that 
the impact of new choice options on student achievement may increase 
over time. Consequently, we are eager to see the third and final impact 
report of the current evaluation expected during fiscal year 2019.
 implementing collective bargaining agreement without union negotiation
    Question. AFGE has been in negotiations with the Department for a 
new collective bargaining agreement, but earlier this year, the agency 
ended those negotiations and imposed its opening proposal on over 4,000 
Dept. of Education staff represented by AFGE. Please explain why you 
eliminated all but 8 of 44 contract articles without negotiating with 
the Union on the substance of your proposals?
    Answer. The Department of Education commenced its effort concerning 
a new national collective bargaining agreement (CBA) in October 2016. 
The new 2018 CBA is a streamlined contract that covers in eight 
articles everything that the 2013 CBA and 2017 Past Practice Document 
covered in 44 articles. This CBA came into effect only after months of 
good faith attempts by the Department to engage the Union in interest-
based bargaining. The current CBA (implemented in March 2018) is 
shorter but covers the same issues.
    Unfortunately, the Union refused to negotiate with the Department. 
The Department employed multiple methods to support the parties in the 
renegotiation. The Union's unprecedented resistance to negotiations, 
mediation support, and training disallowed any progress. With its eight 
articles, the current CBA was implemented only after the Union ignored 
the many opportunities provided by the Department to negotiate, to 
issue a proper and timely demand to bargain, and to make a counter-
proposal to the current CBA; the Union repeatedly failed to do so in a 
timely manner.
    Department employees retain all of the benefits and rights not 
dependent on the collective bargaining agreement. The Department does 
not know why the Union abandoned mediation and assistance from the 
Federal Mediation and Conciliation Service and the Federal Service 
Impasses Panel or why it failed to file a proper and timely demand to 
bargain through its designated chief negotiator.
        deadlines, statute and good faith in union negotiations
    Question. My understanding is that at the time your management team 
curtailed these negotiations, there were additional days of 
negotiations already scheduled for January, February and March. Why 
would the Department not move forward with negotiations on those 
agreed-upon dates when the substantive provisions of the entire 
contract remained to be negotiated?
    You have said the Union missed a deadline in the negotiations. Are 
you referring to a statutorily set deadline?
    If you are not referring to a statutorily set deadline, will you 
commit to restoring the status quo contract, return to the bargaining 
table, and negotiate in good faith for a successor contract?
    Answer. The Department of Education set additional dates for 
negotiation; however, despite multiple requests from the Department to 
negotiate the Agency's last and best offer on ground rules, as well as 
outreach to the Union by the Federal Mediation and Conciliation 
Services (FMCS), the Union declined to proceed with the negotiating 
sessions and failed to preserve its right to bargain ground rules. As a 
result, the Department moved forward with notice of the proposed 
collective bargaining agreement (CBA).
    The statute does not contain specifically prescribed timeframes; 
rather, it prescribes the framework for conducting labor-management 
relations. The Federal Labor Relations Authority (FLRA) has the 
authority to interpret and oversee the functions of the statute, and 
this includes issuing precedential case law decisions to guide the 
parties. The dates set by the Department were based upon well-
established FLRA case law. Despite multiple requests from the 
Department to negotiate the Agency's last and best offer on ground 
rules, as well as outreach to the Union by the Federal Mediation and 
Conciliation Services (FMCS), the Union declined to proceed with 
negotiating sessions.
    Litigation regarding the 2018 CBA is pending with the FLRA, which 
provide direction to the parties.
  office for civil rights jurisdiction over sexual discrimination and 
                               harassment
    Question. In order for the Committee to understand how changes in 
the Department's views of the jurisdiction of the Office for Civil 
Rights and in the procedures used to review and resolve complaints, 
please provide the Committee with a complete list of all complaints 
involving sexual discrimination and harassment open for investigation 
as of today disaggregated by docket number, whether the recipient is an 
elementary or secondary school, the issue code, and an issue 
description.
    Answer. Please see the attachment that follows.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
  for-profit college sector influence in administration's approach to 
               student aid investigation and enforcement
    Question. Over the last several years nearly every major for-profit 
college has been investigated or sued by one or more Federal or State 
agency for some form of deceptive and abusive practices. Some--notably 
Corinthian, ITT Tech, and Westwood Colleges--have collapsed under the 
weight of years of abuse and wrongdoing. But the abuse didn't end with 
these companies. The abuse in this industry is more than a one-off--
it's systemic and it continues. Unfortunately, you're taking the cops 
off the beat at the Department of Education. According to a New York 
Times article entitled, ``Education Department Unwinds Unit 
Investigating Fraud at For-Profits'' you have gutted the Student Aid 
Enforcement Unit's Investigations Team which was set up in the wake of 
Corinthian to ensure that fraud would be detected and stopped to avoid 
a repeat where thousands of students are harmed and hundreds of 
millions of taxpayer dollars are lost. The article notes that what 
included a dozen or so attorneys and investigators by the end of the 
Obama Administration has dwindled to just three employees under you 
because those employees have been ``marginalized, reassigned, or 
instructed to work on other matters.'' The result is that important 
investigations into fraud by major for-profit college companies have 
``ground to a halt.'' Conveniently, several of the investigations that 
have been disrupted by gutting the Enforcement Unit's Investigations 
Team were of companies that formerly employed some of your top 
officials--including Julian Schmoke, Robert Eitel, Diane Auer Jones, 
and Carlos Muniz.
    a. When these individuals began working at the Department, either 
as a result of your hiring or presidential appointment, were you aware 
that they had been employed by for-profit education companies that the 
Department had or was, at the time, investigating?
    b. Your spokesperson has denied the allegation in the New York 
Times article that the Enforcement Unit's investigatory work has been 
hampered or ``ground to a halt.'' Does the Enforcement Unit currently 
have open investigations of DeVry University and Bridgepoint Education? 
If so, how many dedicated staff are assigned to each investigation?
    c. You and I disagree about the Department's responsibilities to 
students under Borrower Defense when fraud has been committed, but 
would you agree that preventing the types of fraudulent and illegal 
activities that lead to large numbers of Borrower Defense claims is the 
best way to protect students and prevent taxpayers from losing money to 
student loan discharges?
    d. If so, how can you explain gutting the Department's resources, 
including personnel, dedicated to proactively investigating, 
identifying, and stopping fraudulent practices by institutions?
    e. How many new investigations has the Investigation Team opened in 
2018?
    Answer. a. Julian Schmoke, Robert Eitel, Diane Auer Jones, and 
Carlos Muniz were hired for their qualifications, years of experience, 
and total body of work that spans multiple sectors across higher 
education. These individuals have spent more years working in 
Government or in sectors outside of the proprietary sector than years 
working in the proprietary sector, a fact which is ignored by those who 
wish to impugn their characters.
    b. It is not Department policy to comment on any deliberative, 
preliminary, or ongoing investigative work.
    c. I do not believe that we disagree about the Department's 
responsibilities to students who have been defrauded in connection with 
their educational programs and suffered financial harm. The Department 
has honored its commitment to borrowers of Corinthian Colleges; it 
continues to process those claims to identify victims of 
misrepresentation who relied on those misrepresentations to make 
enrollment decisions and were harmed financially by those decisions. We 
will continue to review claims and provide appropriate student loan 
relief; however, we cannot forgive loans where misrepresentations did 
not occur or did not cause harm to the borrower; the Department also 
has a duty to the taxpayer. FSA continues to perform its oversight 
duties to enforce compliance with its rules and requirements.
    d. Staff reduction in the Enforcement Unit is due to attrition, not 
a Department-initiated reduction in force, and FSA is working to hire 
qualified employees to fill vacancies. That said, oversight is not 
relegated solely to the Enforcement Unit, which was not established 
until 2016. We have teams of people across the agency, including in our 
regional offices and in the Office of the General Counsel, who play 
critical roles in performing program reviews and evaluating the 
compliance of institutions with all FSA regulations.
    As part of its oversight duties, Federal Student Aid requires the 
submission of annual compliance and financial audit reports, and it 
routinely conducts program reviews to confirm that a school meets FSA 
requirements for institutional eligibility, financial responsibility, 
and administrative capability. Final Program Review Determinations 
(FPRD) are screened for any necessary redactions and posted publicly at 
https://studentaid.ed.gov/sa/about/data-center/school/program-reviews.
    In fiscal year 2017 alone, Program Compliance (PC) staff commenced 
over 200 new program reviews at institutions determined to present a 
risk to Title IV dollars. Additionally, PC staff issued over 300 FPRDs 
to institutions and collectively assessed over $75 million in 
liabilities due the Department via those FPRDs issued in fiscal year 
2017.
    In addition to program reviews and audits, FSA also reviews 
financial statements, 90/10 compliance, and cohort default rates as 
part of our review process and to inform our investigations and related 
activities. When appropriate, the Department places institutions on 
heightened cash monitoring (HCM) or collects and maintains Letters of 
Credit to hold institutions accountable and to reduce risks to students 
and taxpayers. For example, in Award Year 2015, the Department 
requested and received 426 LOCs from 396 institutions or main OPEIDs 
totaling approximately $932 million.
    Additionally, all institutions are required to undergo a 
recertification for continued participation in the Title IV programs at 
least once every 6 years. This recertification includes a comprehensive 
review of the institution. In fiscal year 2017, PC staff completed over 
1,150 recertification reviews/applications and processed another 2,300 
eligibility updates and approval applications.
    Finally, in fiscal year 2017, PC staff reviewed and resolved over 
6,000 inquiries, concerns, or institutional complaints submitted by 
students and constituents.
    e. There has been one new investigation opened by the 
Investigations Group in 2018, but there are investigations from 2017 
that are still ongoing.
                    pending borrower defense claims
    Question. How many borrower defense claims are currently pending 
review, decision, or adjudication by any Department official in total 
and disaggregated by State?
    a. How many pending claims are from students who attended 
Corinthian or ITT, respectively, disaggregated by State?
    b. After Corinthian and ITT, what are the next three largest 
sources of borrower defense claims, disaggregated by institution?
    c. How many borrowers who have a pending borrower defense 
application have had their forbearance expire?
    d. How many borrowers who have a pending borrower defense 
application will have their forbearance expire within the next 6 
months?
    e. What is the total dollar value of accumulated interest and fees 
for borrowers whose claims are pending?
    Answer. For parts (a) and (b), please refer to Tables (A) and (C) 
in the following attachment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Table A continues:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    As of May 1, 2018, there are a total of 99,335 claims are currently 
pending review, decision or adjudication. State level data is provided 
in Table A.
    a. As of May 1, 2018, there are approximately 45,675 pending claims 
associated with students who attended Corinthian and 13,175 claims 
associated with students who attended ITT. State level data is provided 
in Table A.
    b. (May 1, 2018): The next three largest sources of borrower 
defense claims are associated with DeVry University with approximately 
10,275 claims, Education Management Corporation (EDMC) with 
approximately 4,435 claims, and the Apollo Group (University of 
Phoenix) with approximately 3,965 claims. Institution level data is 
provided in Table C.
    c. Borrowers who have submitted a substantially complete 
application have not had their forbearance expire within the last 12 
months.
    d. The Department has no borrowers with a pending borrower defense 
application that will have their forbearance expire within the next 6 
months.
    e. Outstanding interest for borrowers with pending claims total 
approximately $368.8 million for all loans, including loans unrelated 
to the Borrower Defense claim. This includes all unpaid interest on all 
outstanding loans (some of which may have accrued prior to submission 
of the claims). Previously paid or capitalized interest is not 
included.
             disaggregated borrower defense claims by state
    Question. How many borrower defense claims has the Department 
received on or after January 20, 2017, disaggregated by State?
    a. How many of those claims received are from students who attended 
Corinthian or ITT, respectively, disaggregated by State?
    Answer. Please refer to Table (B) in the following attachment.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Table B continues:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    The Department has received approximately 63,525 borrower defense 
claims since January 20, 2017. State level data is provided in Table B.
    a. As of May 1, 2018, the Department has received 23,555 claims 
that are associated with students who attended Corinthian; 7,935 are 
associated with students who attended ITT. State level data is provided 
in Table B.
               approved borrower defense claims by state
    Question. How many total borrower defense applications has the 
Department approved between January 20, 2017 and today? What is the 
total dollar amount of relief?
    a. How many of any approved borrower defense claims during this 
time period are from students who attended Corinthian or ITT, 
respectively, disaggregated by State?
    Answer. Please refer to Table (D) in the following attachment.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Table D continues:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Between January 20, 2017 and May 1, 2018, 12,385 approved borrower 
defense to repayment claims were from borrowers who attended Corinthian 
Colleges, and 10 approved BD claims were from borrowers who attended 
ITT Tech. The Department has prioritized claims from Corinthian College 
borrowers, so very few claims from ITT Tech borrowers have been 
reviewed to date. State level data is provided in Table D.
     borrower defense refunds discharged under trump administration
    Question. Of the borrowers whose borrower defense claims were 
approved (as designated by an email from Federal Student Aid) but who 
had not yet received a discharge or full refund on or before January 
19, 2017, how many have since received a discharge or full refund 
posted to their accounts?
    a. How many attended Corinthian, ITT, or ACI, respectively, 
disaggregated by State?
    b. What is the total dollar value of accumulated interest and fees 
for these borrowers whose applications have not yet received their 
previously-approved discharge or refund, if any?
    Answer. All borrowers who were notified of the decision on their 
claim prior to January 20, 2017, have received the appropriate loan 
discharge, unless the borrower was notified that he or she did not have 
a qualified loan and needed to first consolidate their loans so that it 
could be discharged and the borrower has not done so.
    a. As of May 1, 2018, approximately 11,715 students who received 
discharges attended Corinthian, 35 students attended ITT, and 2,705 
students attended ACI. State level data is provided in Table E.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Table E continues:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    b. As of May 1, 2018, the outstanding interest for borrowers with 
pending claims totals approximately $143.2 million. This includes all 
unpaid interest on all outstanding loans (some of which may have 
accrued prior to submission of the claims).
  institutions and programs with students granted refund or discharge 
                         under borrower defense
    Question. Please indicate which institutions and programs have 
borrowers with approved claims that are eligible for or have been 
granted:
  --Full refund of amounts paid; or
  --Discharge of loan balances outstanding.
    Answer. The following institutions and programs have borrowers with 
approved claims:
    Corinthian-Direct Loans, Federal Family Education Loans (FFEL), and 
Federal Perkins Loan (Perkins); American Career Institute (ACI)--Direct 
Loans; and ITT-Direct Loans and FFEL.
 wage garnishment and collections affecting former corinthian college 
                                students
    Question. How many former students of Corinthian Colleges, Inc. 
with first enrollment dates between 7/1/2010 and 9/30/2014 are in the 
Debt Management Collection System (DMCS)? Please also provide the 
number of those borrowers in wage garnishment or in the Treasury Offset 
Program (TOP).
    Answer. There are 143,318 former Corinthian Colleges, Inc. students 
who have accounts in the Debt Management Collection System (DMCS). 
5,305 of those borrowers are subject to Administrative Wage 
Garnishment. 59,951 of those borrowers are in the Treasury Offset 
Program.
              quarterly reports on borrower defense claims
    Question. Per Senate Report 115-150, the Department is directed to 
issue quarterly reports on borrower defense claims that include the 
total and median dollar amount of outstanding debt from borrowers prior 
to discharge, the percentage of the total approved claims receiving 
partial relief, the median student loan debt remaining as part of 
claims receiving partial relief, the total number of pending borrower 
defense claims, total number of approved borrower defense claims, total 
dollar amount of relief, and total number of denied claims, all 
disaggregated by State. The Explanatory Statement accompanying the 
fiscal year 2018 Consolidated Appropriations Act (P.L. 115-41) required 
the Department to include additional information in these reports: the 
total and median dollar amount of outstanding debt from borrowers prior 
to discharge, the percentage of total approved claims receiving partial 
relief, and the median student loan debt remaining as part of claims 
receiving partial relief.
    a. Why has the Department not yet provided these quarterly reports?
    b. When will the Department provide the first report?
    c. Will the Department post these reports on its website as 
encouraged by Senate Report 115-150?
    Answer. a. FSA had not yet developed metrics that would allow it to 
provide these reports. Additionally, time was needed to develop, 
document, and communicate the new processes to the servicers.
    b. FSA anticipates the first report will be published on July 31, 
2018 for the reporting period ending June 30, 2018.
    c. Yes, the Department will post these reports.
   response to report recommending actions to help defrauded students
    Question. In November 2017, Senator Warren and I published a report 
entitled, ``Insult to Injury: How the DeVos Department of Education is 
Failing Defrauded Students.'' The report included nine recommendations. 
On November 14, 2017, Senator Warren and I, along with 14 of our 
colleagues, sent you a letter asking for your response to the 
recommendations. We have yet to receive one. Please respond here to 
each of the nine recommendations.
    Answer. Recommendation #1: Immediately provide full discharges for 
borrowers with borrower defense claims approved prior to January 20, 
but who have still not received relief.
    The Department has completed nearly all discharges on the claims 
that were approved by the previous administration prior to January 20, 
2017. The few that have not have special circumstances, namely that 
affirmative action is needed by the borrower to consolidate their 
Federal Family Education Loan Program (FFELP) Loans in order to receive 
a discharge. Unfortunately, the previous Administration gave borrowers 
unrealistic and unnecessary timeframes for them to expect discharge and 
had not developed the procedures to process the more complex claims.
    Recommendation #2: Immediately begin processing pending borrower 
defense claims.
    Processing of pending borrower defense applications has been on-
going, and in December 2017, the Department resumed adjudicating 
claims.
    Recommendation #3: Provide full relief for approved borrower 
defense claims.
    The borrower defense regulation gives the Secretary the discretion 
to fashion relief and a borrower with an approved claim may be 
``relieved of the obligation to repay all or part of the loan...that 
the borrower would be otherwise obligated to pay.'' 34 C.F.R. 
Sec. 685.206. The Department has determined that relief in the full 
amount of the loan may not be appropriate in every case.
    Recommendation #4: Provide full, automatic discharges to Corinthian 
students covered by Department of Education findings.
    The Department's Corinthian job placement rate findings require a 
borrower to attest to multiple certain facts in order to be eligible 
for borrower defense relief, including that the borrower was enrolled 
in certain programs at certain times and received information from 
Corinthian on job placement rates and that they enrolled at Corinthian 
in substantial part on the information received about those rates. 
Accordingly, the Department requires applications from borrowers in 
order to determine eligibility.
    Recommendation #5: Issue findings of wrongdoing against ITT Tech 
that will allow the Department to provide full, automatic discharges to 
covered students.
    The Department continues to review borrower defense applications 
related to various institutions, including ITT. As part of this review 
the Department is considering whether the allegations in the claim 
would give rise to a cause of action under applicable State law as 
required by the Department's regulations. The Department is working to 
evaluate the merits of these claims, including applicable evidence 
related to an institution's alleged wrongdoing.
    Recommendation #6: Extend forbearance for all borrowers with 
pending claims.
    A borrower who submits a Borrower Defense application and is in 
repayment with monthly installments due will have their loans placed 
into forbearance or collections activity will be stopped if the loan is 
defaulted, unless they opt out. The borrower remains in that status 
until the claim has been decided.
    Recommendation #7: Use evidence and information submitted by state 
Attorneys General to provide full, group discharges to affected 
students.
    Due to pending litigation the Department is unable to provide a 
response to this question.
    Recommendation #8: Immediately implement the directive in the 
fiscal year 2018 Senate Labor, HHS, Education Appropriations 
Subcommittee Report (S. Rept. 115-137) to provide quarterly public 
reports on the receipt and processing of borrower defense claims.
    Quarterly reports on the receipt and processing of borrower defense 
applications will begin with the period ending June 30, 2018, with the 
first report released by July 31, 2018.
    Recommendation #9: Immediately halt collections activity on 
defaulted borrowers with pending applications for borrower defense and 
all defaulted Corinthian borrowers.
    Collection activities for defaulted borrowers with pending 
applications cease unless the borrower opts out of forbearance.
 inspector general report on loan discharges under borrower defense to 
                               repayment
    Question. On December 8, 2017, the Department's Office of Inspector 
General (OIG) released a report entitled ``Federal Student Aid's 
Borrower Defense to Repayment Loan Discharge Process.''
    a. The report indicates that FSA's Borrower Defense Unit (BDU) 
reduced contractor staffing by more than two-thirds from November 2016 
to September 2017. In response to previous questions to the OIG from 
me, OIG noted that FSA did not provide a specific rationale for the 
decrease in staff in the BDU. What was the specific rationale for the 
decrease in contractor staffing for the BDU from November 2016 to 
September 2017, even as the number of pending claims continued to 
increase?
    b. The OIG also found that, ``[a]s of January 20, 2017, BDU had 
identified additional categories of claims warranting further 
research.'' In response to previous questions to the OIG from me, OIG 
clarified that FSA's BDU had started research and analysis for five 
additional categories of claims at Corinthian schools. What is the 
current status of research in these five additional categories, and 
other potential categories not yet publicized, for Corinthian schools?
    c. The OIG report on borrower defense, on page 16, noted that 
further research into additional categories of borrower defense claims 
was ``placed on hold'' during the current Administration. In response 
to previous questions to the OIG from me, OIG noted that, in early 
2017, the Enforcement Unit was instructed not to continue developing 
new memoranda on additional categories of claims at the direction of 
then-Acting Under Secretary James Manning and the Review Panel. Why did 
then-Acting Under Secretary Manning instruct BDU not to continue 
developing new memoranda on additional categories of evidence for 
borrower defense claims?
    d. The OIG report also found that one category of evidence for 
borrower defense claims relates to ITT Tech guaranteed employment 
misrepresentation. In response to previous questions to the OIG from 
me, OIG noted that FSA ``maintained one legal memorandum related to 
misrepresentations of ITT guaranteed employment. The memorandum applies 
only to only the California locations but does not indicate the number 
of potential borrowers.'' Has the Department continued to process 
claims from ITT Tech applicants using this specific category of 
evidence, and has it gathered any additional categories of evidence for 
ITT Tech of other types or for other States? If not, why not?
    Answer. a. As previously announced, the Department put a hold on 
Borrower Defense (BD) claim processing during the change of 
Administration while it requested that the Inspector General review the 
overall BD adjudication process and the new Administration reviewed BD 
policies.
    When new leadership placed a hold on BD claims processing and 
requested that the IG review the BD adjudication process, there were 
fewer than 20 contractor staff in place.
    At that point in time, career staff was supporting a number of 
issues including:
  --developing a database to manage BD claims and migrating the 
        existing legacy excel-based system into it;
  --supporting the IG review (due to its accelerated pace);
  --assessing the population of BD claims beyond just those from 
        Corinthian; and
  --developing and pilot-testing various review process streams while 
        working with ED leadership and legal counsel to ensure they met 
        policy objectives and legal requirements.
    After the Administration announced its new BD policies, FSA began 
ramping up contractor staff to support BD claim processing under the 
new policies. While that ramp-up process is ongoing, FSA currently has 
approximately 16 contractor staff (as of July 9, 2018) in place 
supporting BD processing.
    b. Additional categories of claims warranting further research are 
still under review at this time.
    c. As previously announced, the Department put a hold on certain 
borrower defense activities in order to conduct a comprehensive review 
of the program. This review was done by high-level career and political 
leaders. One of the recommendations based off of the review was a 
request that the Inspector General review the overall BD adjudication 
process.
    Additionally, the review focused initially on the over 16,000 
claims that had been approved in the previous administration but not 
yet discharged. Given the significant fiscal implications of full 
discharge of these claims and because there were numerous complexities 
involved with many of the claims, the Department focused on those 
claims first to ensure a smooth discharge process for those borrowers.
    Once the processes to discharge those loans were finalized, 
Department leadership decided to prioritize updating its relief 
methodology and assessing the large number of existing Corinthian 
claims not yet adjudicated, including how to handle large numbers of 
claims that the previous administration had flagged for denial but had 
not developed any processes or procedures to effectuate.
    Meanwhile, there were other time sensitive projects that, when 
completed, would result in long term efficiencies. These projects 
included:
  --developing a database to manage BD claims and migrating the 
        existing legacy excel-based system into it;
  --supporting the IG review (due to its accelerated pace);
  --assessing the population of BD claims beyond just those from 
        Corinthian; and
  --developing and pilot-testing various review process streams while 
        working with ED leadership and legal counsel to ensure they met 
        policy objectives and legal requirements.
    Consideration and discussion of other pending claim categories have 
been ongoing throughout this period.
    d. The Department continues to review and make progress on borrower 
defense applications related to various institutions, including ITT. As 
part of this review the Department is considering whether the 
allegations in the claim would give rise to a cause of action under 
applicable State law. The Department is working to evaluate the merits 
of these claims including applicable evidence related to an 
institution's alleged wrongdoing. However, the Department's top 
priority is to complete the review of Corinthian claims since the 
Department instructed Corinthian students and graduates to file BD 
claims. In the case of ITT Tech, the prior administration recommended 
for qualified students to submit closed school discharge claims. We 
will review those claims once we complete the review of claims made by 
Corinthian students.
    use of social security administration earnings data for partial 
                        borrower defense relief
    Question. On December 20, 2017, the Department announced, via the 
release entitled Improved Borrower Defense Discharge Process Will Aid 
Defrauded Borrowers, Protect Taxpayers, that it would use earnings data 
received from the Social Security Administration (SSA) through a 
Memorandum of Understanding (MOU) to limit relief to defrauded 
borrowers. However, the Department, through its legally dubious delay 
and rewriting of the Gainful Employment Rule, has been unwilling to use 
the same data for its intended purpose--to hold poor performing Title 
IV programs accountable.
    a. Why does the Department believe that it is appropriate to use 
earnings data to punish defrauded borrowers be limiting relief, but not 
to limit Title IV access to poor performing programs--for which the 
Department's access to the data was legally intended?
    b. Why does the Department believe it is appropriate to use a 
student's earnings to reduce loan relief if the student cannot find a 
job in the field of study and is working in a field unrelated to their 
program? How can the program be considered to have had any value to the 
student?
    c. Did the Department consult with SSA about using the Gainful 
Employment earnings MOU for the purposes of the partial relief scheme 
prior to its December announcement? If so, did SSA assent to the use of 
data for purposes of informing limited relief?
    d. Please provide any correspondence (prior to or after December 
20, 2017) between SSA and the Department related to the latter's use of 
earnings data obtained through the MOU for purposes of informing 
limited relief.
    e. With the expiration of the MOU on May 24, 2018, has the 
Department ceased basing partial relief to defrauded borrowers on the 
earnings data obtained through the MOU? If so, has the Department 
developed a new basis for providing partial relief?
    Answer. a. The Department stands by its commitment to provide 
relief to borrowers who were harmed by an institution's fraudulent 
actions. However, borrowers should be eligible for relief from their 
Federal student loan obligations only to the extent they were harmed by 
an institution's misrepresentations. For example, when publicly 
available data reveal that programs associated with successful borrower 
defense claims perform quite well when compared to their peer programs, 
the Department's commitment to safeguarding taxpayer dollars and the 
integrity of Federal student loan programs demand that it consider such 
information when assessing any relief owed to borrowers.
    b-d. Due to pending litigation, the Department is unable to provide 
detailed information about its use of aggregate earnings data from the 
SSA.
    e. In accordance with the recent ruling in the case of Manriquez v. 
U.S. Department of Education, No. 17-7106 (N.D. Cal.), the Department 
is not currently adjudicating any additional borrower defense claims 
utilizing the improved discharge process.
       alternative earnings appeals under gainful employment rule
    Question. On January 9, 2017, the Obama Department of Education 
released the first round debt-to-earnings rates under the Gainful 
Employment Rule. The Department under your leadership provided an 
extension from June 2017 to February 2018 for schools to submit an 
alternative earnings appeal.
    a. To date, how many schools have filed a notice of intent to 
appeal?
    b. To date, how many schools have submitted a viable appeal?
    c. To date, how many schools have abandoned their request for an 
appeal?
    d. To date, how many appeals has the Department approved?
    e. To date, how many schools submitted incomplete requests for 
appeals and how many schools did the Department give the opportunity to 
provide missing information?
    f. To date, how many appeals has the Department denied?
    g. When does the Department plan to issue the second round of debt-
to-earnings rates?
    Answer. a. 872 Notices of Intent have been filed.
    b. 252 appeal packages have been received.
    c. 620 schools have abandoned their request for an appeal.
    d. The Department has issued 66 approvals.
    e. To date, FSA has followed up with 150 schools to request 
additional information or clarification. Among these 150 schools were 
those that submitted materially complete appeals packages; however, as 
a result of reviewer questions or requests for source materials, some 
have been asked to provide additional information. The Department has 
made three attempts, by email and phone calls, to try to gather 
outstanding information from the schools.
    f. The Department has not yet denied any appeals.
    g. The Department does not yet know when it will issue the second 
round of debt-to-earnings ratios because of outstanding litigation 
regarding the use of IRS or Social Security data, and the need to issue 
a new Memorandum of Understanding with the IRS or SSA subsequent to the 
judge's decision.
    g. This is to be determined; no confirmed date at this time.
   deliberations, meetings, evidence, and decision-making regarding 
                         reinstatement of acics
    Question. In 2016, then-Secretary King denied the appeal of the 
Accrediting Council for Independent Colleges and Schools (ACICS) to 
remain a federally-recognized accreditor after a staff report, the 
National Advisory Committee on Institutional Quality and Integrity, and 
the Senior Department Official (SDO) all concurred that ACICS should 
lose Federal recognition. In March 2018, the U.S. District Court for 
the District of Columbia found that Secretary King erred in not 
considering ACICS's Part II submission. The Court did not, however, 
order that ACICS be reinstated as you did in April--erroneously citing 
the Court's decision as requiring it. This week, the Department was 
forced to release its draft staff analysis which found that ACICS 
failed to meet 57 of the 93 criteria required under Federal law.
    a. On April 10, 2018, Senators Brown, Warren, Blumenthal, and I 
wrote to you demanding release of ACICS' Part II submission, which 
includes the 27-page narrative responding to each of the Department's 
questions regarding specific recognition criteria and approximately 
36,000 additional pages of documentation filed by ACICS. We did not 
receive a response by the letter's April 17 deadline. Will the 
Department release this information? If so, when?
    b. As stated in your remand, the Department provided ACICS until 
May 30, 2018, with the opportunity to provide additional supporting 
data in response to the negative findings in 2016. Please provide a 
copy of that data and the date it was submitted.
    c. Is the Department's review of the additional evidence ACICS 
provided by May 30, 2018, restricted to the agency's actions and 
enforcement in 2016, or will it consider additional evidence of the 
agency's actions and enforcement in 2017 and 2018 as well?
    d. Will the Department provide new opportunities for public comment 
or consider the public comments already submitted for the May 2018 
NACIQI meeting at which review of ACICS was scheduled? If a new 
opportunity for public comment is planned, when can the public expect 
such a request?
    e. The Department has indicated that Diane Auer Jones will serve as 
the Senior Department Official for reviewing the May 30, 2018, 
materials submitted by ACICS as well as prior items submitted in 2016. 
However, 34 CFR 602.3 states that the SDO must be a ``senior official 
in the U.S. Department of Education who reports directly to the 
Secretary regarding accrediting agency recognition.'' [Emphasis added.] 
Ms. Auer Jones's title is senior adviser to the assistant secretary for 
postsecondary education, a position that does not report directly to 
the Secretary. Can you clarify how Ms. Auer Jones is legally allowed to 
be the SDO in the ACICS case while complying with 34 CFR 602.3?
    f. Please provide a list of any meetings between yourself, Mr. 
Robert Eitel, Ms. Diane Auer Jones, Mr. James Manning, Ms. Kathleen 
Smith, Mr. Frank Brogan, The Honorable Carlos G. MuNiz, Steven Menashi, 
and any institution that currently has or on December 12, 2016, had 
ACICS accreditation and, on that list, please include any institution 
in question and the complete roster of participants.
    Answer. a. With the exception of student transcripts included in 
that submission, the Department will release the Part II submission as 
soon as the Agency and the Department have had sufficient time to 
complete their review of those documents for personally identifiable 
information, which must be redacted. The Department does not currently 
have an estimate for when that process will be completed.
    b. Those data were submitted by the May 30, 2018, deadline and are 
currently under review. The Department will release them once it has 
completed its necessary review and redaction of personally identifiable 
information.
    c. The Department will consider the Part II submission, as well as 
any additional evidence submitted by May 30, 2018, in response to the 
negative findings of the 2016 staff analysis and the letter issued by 
Secretary King. If the Agency submits evidence of its actions and 
enforcements in 2017 and 2018 and they are relevant to the 2016 
findings, those pieces of evidence will be considered in the review 
process.
    d. No. The Department received public comments in 2016 while the 
Agency's petition for continued recognition was pending before the 
National Advisory Committee on Institutional Quality and Improvement.
    e. Recently promoted, Ms. Jones currently serves as Principal 
Deputy Under Secretary Delegated to Perform the Duties of Under 
Secretary and Assistant Secretary for the Office of Postsecondary 
Education. As such, she reports directly to the Secretary as the senior 
official in the Department concerning accreditation agency recognition.
    f. These persons have attended meetings with representatives of a 
diverse group of institutions of higher education since coming to the 
Department but have not checked the accreditation affiliation of those 
institutions in connection with those meetings. To the best of their 
recollections, this question is answered as follows:
    Secretary DeVos. To the recollection of Secretary DeVos and her 
scheduler, the Secretary has not knowingly participated in any meetings 
with an institution that has, or on December 12, 2016 had, ACICS 
accreditation. Secretary DeVos' full schedule can be found through the 
Department of Education website.
    Robert Eitel. On April 11, 2017, Mr. Eitel, Jim Manning, Robin 
Minor, Josh Venable, and Susan Crim met with Jeanne Herrman of 
Broadview Education Consortium; John Ladd and Steve Gunderson also 
attended that meeting. On May 22, 2017, Messrs. Eitel, Manning, 
Venable, and Justin Riemer met with Stuart Reed and John Carreon of 
Education Corporation of America; Tonnie Wybensinger also attended that 
meeting. On May 24, 2017, the U.S. Department of Justice conducted a 
conference with representatives of the U.S. Department of Education and 
ACICS. To the best of his recollection, Mr. Eitel recalls that the 
following attended that conference: Justin Riemer, ED OGC; Jay Urwitz, 
ED OGC; Roger Williams, ACICS; Michelle Edwards, ACICS; and former U.S. 
Representative John Klein. DOJ litigation counsel also attended the 
settlement conference; Mr. Eitel does not remember their names. Other 
persons from ED and ACICS-accredited institutions attended the 
settlement conference, but Mr. Eitel does not specifically recall them, 
and his calendar does not reflect a list of meeting participants.
    Diane Auer Jones. Ms. Jones has not knowingly participated in any 
meetings with an institution that currently has, or on December 12, 
2016 had, ACICS accreditation. It is possible that an ACICS accredited 
institution was present in the audience at one or more events where she 
delivered remarks, but, to the best of her recollection and memory, she 
does not recall meeting with any such institutions. Michelle Edwards, 
ACICS, introduced herself to Ms. Jones at the May 22, 2018 meeting of 
the National Advisory Council for Institutional Quality and 
Improvement, but no conversation took place.
    James Manning. On April 11, 2017, Mr. Eitel, Jim Manning, Robin 
Minor, Josh Venable, and Susan Crim met with Jeanne Herrman of 
Broadview Education Consortium; John Ladd and Steve Gunderson also 
attended that meeting. On May 22, 2017, Messrs. Eitel, Manning, 
Venable, and Justin Riemer met with Stuart Reed and John Carreon of 
Education Corporation of America; Tonnie Wybensinger also attended that 
meeting.
    Kathleen Smith. In the limited circumstances that Ms. Smith has met 
with or spoken before institutions. She does not inquire as to 
accreditors--she has not knowingly participated in any meetings with an 
institution that currently has, or on December 12, 2016 had ACICS 
accreditation. It is possible that an ACICS accredited institution was 
present in the audience at any event at which she has spoken or 
attended--however she is not aware of any such institution with which 
she has interacted.
    Frank Brogan. Mr. Brogan has not knowingly participated in any 
meetings with an institution that currently has, or on December 12th 
2016 had, ACICS accreditation.
    Carlos G. MuNiz. Mr. Muniz has not knowingly participated in any 
meetings with an institution that currently has, or on December 12, 
2016 had, ACICS accreditation.
    Steven Menashi. Please note that Mr. Menashi is no longer at the 
Department of Education. He is now serving in the White House Counsel's 
office.
      proprietary institutions converting to not-for-profit status
    Question. In recent years, several for-profit colleges have 
attempted to convert to not-for-profit status in an effort to avoid the 
stigma associated with the predatory for-profit college industry and to 
avoid regulations meant to protect students and taxpayers. Please 
provide a list of all for-profit conversions in the last 10 years 
including those pending (with current status), previously approved, and 
denied or withdrawn.
    Answer. Please find attached the validated data set of all for-
profit conversions applications the Department has received.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
        data supporting need for fsa prepaid card pilot program
    Question. What data has FSA collected demonstrating the need for 
this prepaid card pilot program, including:
    a. data regarding the number of students who lack access to an 
account in which their student financial aid can be deposited;
    b. data regarding the effectiveness of the Department's existing 
cash management regulations and the benefits of those regulations for 
students; and
    c. information about the existing options students have for student 
aid disbursement under the cash management regulations, including 
information about current account providers, the number of higher 
education institutions and students served by each of those account 
providers, the average fees paid by those students, and any other 
information about relationships between higher education institutions 
and account providers or any compensation paid by providers to 
institutions?
    d. Please provide this data.
    Answer. a. Please note that this question and many others refer to 
the Payment Vehicle Account as a prepaid card, which is inaccurate. The 
Payment Vehicle Account will not be a prepaid card. While the Payment 
Vehicle Account will have payment utility functions, the physical 
aspect will be most like a bank debit card. However, the Payment 
Vehicle Account will also have virtual payment and check payment 
capabilities, as well as connectivity to an overall student loan 
information portal.
    According to publically available National Postsecondary Student 
Aid Study (NPSAS) data, about 10 percent of undergraduate students 
reported not having a checking or savings account. Further, the NPSAS 
data show that students receive their student aid funds in a variety of 
ways. In addition to having funds directly deposited to bank accounts 
for which they often pay a fee, students reported other methods of 
receiving funds, including by cashing or depositing checks at a bank, 
or somewhere other than a bank, once again for which they often pay a 
fee; and receiving funds via a prepaid debit card or student 
identification card linked to a prepaid or debit cards, again often 
with fees. Please note that the fees mentioned here are not unique to 
Title IV funds but are common characteristics of the general fund usage 
and transaction methods applicable to most types of funds.
    The goals of the pilot are such that even those students who 
currently receive their funds via electronic funds transfer to an 
existing bank account (about 37 percent of students) could benefit from 
the Payment Vehicle Account we envision. One of the primary benefits 
will include no cost to the customer for the Payment Vehicle Account.
    b. The Department's existing cash management regulations became 
effective on July 1, 2016, and benefit students by ensuring they:
  --Have convenient access to their Federal student aid funds;
  --Do not incur unreasonable and uncommon financial account fees on 
        their Title IV funds; and
  --Are not led to believe they must open a particular financial 
        account to receive their Federal student aid.
    Already, there is more transparency for students and the public by 
virtue of institutions now publicly disclosing certain contracts they 
have entered into with financial account providers. This increased 
transparency will help ensure accountability and encourage 
institutional practices that are in the interests of students. The 
intended actions by FSA regarding the Payment Vehicle Account serve to 
foster enhanced awareness.
    c and d. The following is based on analysis of FSA data. For the 
2016-2017 Academic Year, there were 14 Account Providers (Financial 
Institutions) identified by colleges that have 1.3 million students 
across 573 schools. The aggregate compensation paid to schools by those 
Financial Institutions totaled $16.7 Million. Furthermore during this 
time period, 116 colleges reported they collectively received an 
average of $36.52 per active account in payout from financial services 
providers. In contrast, 457 colleges collectively reported they 
received an average of $11.93 per active account.
    The Department's cash management regulations define two different 
types of arrangements between institutions and financial account 
providers: ``tier one (T1) arrangements'' and ``tier 2 (T2) 
arrangements.'' A T1 arrangement is an arrangement between an 
institution and a third-party servicer under which the servicer 
performs one or more of the functions associated with processing direct 
payments of title IV funds on behalf of the institution, and (2) offers 
one or more financial accounts under the arrangement or that directly 
markets the account to students itself or through an intermediary. A T2 
arrangement is an arrangement between an institution and a financial 
institution or entity that offers financial account through a financial 
institution under which financial accounts are offered and marketed 
directly to students. If no or relatively few students receive Title IV 
student aid credit balances at an institution, certain requirements do 
not apply to T2 arrangements.
    Under the regulations, institutions that enter into T1 arrangements 
are required to post their T1 contract(s) to their websites (with 
certain personal and security information redacted). Institutions with 
T1 arrangements are also required to post annually the total 
consideration paid or received by the parties under the contract, the 
mean and median costs that student account holders incurred, and the 
number of student account holders for whom these mean and median costs 
were calculated. Institutions must send the URL for the contract and 
contract data to the Department for the Department to make publically 
available. Institutions with T2 arrangements that enroll at least one 
student who received a Title IV credit balance in each of the three 
most recent award years also are required to disclose the contract and 
send the related URL to the Department. Institutions that have a T2 
arrangement and average Title IV credit balance recipients in numbers 
at or above applicable thresholds also will be required to disclose the 
total consideration paid or received by the parties under the contract, 
the mean and median costs that student account holders incurred, and 
the number of student account holders for whom these mean and median 
costs were calculated; they will also be required to send the related 
URL to the Department.
    To protect student privacy and data validity, institutions at which 
fewer than 30 students open an account offered under a T1 or T2 
arrangement are not required to disclose usage data. The Department, in 
turn, has provided links to these URLs on FSA's virtual data center, 
which can be accessed at https://studentaid.ed.gov/sa/about/data-
center/school/cash-management-contracts.
        data supporting prepaid card pilot over direct deposits
    Question. What data has FSA collected demonstrating that this pilot 
program will benefit students more than direct deposit of student 
financial aid into an account selected by the student? Please provide 
this data.
    Answer. This will not be a prepaid card; the Payment Vehicle 
Account refund method's features and benefits will exceed direct 
deposit. Moreover, a direct deposit is a simple financial transaction, 
whereas the Payment Vehicle Account Program will provide a free method 
for students that provide benefits beyond a simple financial 
transaction. The Payment Vehicle Account will be an essential part of a 
larger FSA initiative to improve communication and build meaningful 
relationships with students throughout the entire student aid 
lifecycle. The Payment Vehicle Account will allow the student to see 
real-time account balances, to use refund funds free from fees, and to 
connect to the FSA Super Portal App, which contains a wealth of 
additional financial literacy resources. Establishing these early and 
consistent connections will allow students to gain a better 
understanding of their rights and obligations, improve repayment 
outcomes, and work to minimize unnecessary borrowing.
       planned resource allocation to support prepaid card pilot 
                             implementation
    Question. Please list the staffing and resources that FSA intends 
to devote to developing and implementing this pilot program. Please 
also describe how FSA will ensure that the fee information required 
under the Department's cash management regulations is accurately 
reported by colleges.
    Answer. Regarding staffing and resources, there is a two person 
core project team and ``as needed'' team members that participate when 
necessary. Additional oversight is provided by the Core NexGen project 
team to ensure alignment of the Payment Vehicle Account with the 
overarching NextGen project and its successful integration into the new 
FSA mobile app.
    FSA will continue to monitor institutions for reporting activity on 
cash management regulations.
              public hearings regarding prepaid card pilot
    Question. Will FSA or the Department hold any public hearings to 
gather input on the appropriate features of any prepaid card pilot 
program?
    Answer. FSA does not plan to conduct public hearings; however, FSA 
has received instrumental input from multiple sources, including 
Congress, public interest groups, and the BCFP. For example, all 
parties approve of; agree that a ``no fee'' Payment Vehicle Account 
would be beneficial for students. The Department will ensure the pilot 
is introduced in a transparent manner.
 treasury department direct express card program applicability to fsa 
                                 pilot
    Question. Will FSA utilize the Treasury Department's Direct Express 
card program for its pilot program, or is FSA considering a separate 
program? If a separate program, will the FSA program provide equal or 
better terms for students as those offered under the Direct Express 
program?
    Answer. FSA will not utilize the Treasury Department Direct Express 
card program and will pursue a better solution through its New Payment 
Vehicle Account. FSA did consult with Treasury regarding the 
possibility of using the Treasury Direct Express card program during 
the course of creating the initial design for the Payment Vehicle 
Account and it decided that borrowers would be better served with an 
alternative product.
consultation with consumer financial protection bureau on prepaid card 
                                 pilot
    Question. Will FSA consult with experts at the Consumer Financial 
Protection Bureau regarding the pilot program?
    Answer. FSA and the BCFB have met several times, and FSA 
understands that the BCFP is favorable and supportive of the Payment 
Vehicle Account program.
 prepaid card pilot compliance with cfpb safe student account scorecard
    Question. Will prepaid cards issued under the pilot program comport 
with the CFPB's Safe Student Account Scorecard?
    Answer. Although the Payment Vehicle will not be a prepaid card, 
the Payment Vehicle Account will comport with the BCFP Safe Student 
Account Scorecard and will assist schools in comparing products in 
order to make the best choice for student financial products.
   fsa prepaid card effect on schools with pre-existing card options
    Question. Does FSA intend that its card would replace existing card 
options currently offered by schools or function alongside them? If 
FSA's card would replace existing card options, please describe FSA's 
authority for doing so and explain why students would benefit from such 
measures.
    Answer. The Payment Vehicle would serve as an alternative for 
students.
 authority to disburse state and institutional aid through fsa prepaid 
                                  card
    Question. Does FSA intend to allow State and institutional aid to 
be disbursed on prepaid cards issued as part of this pilot program? If 
so, please describe FSA's authority for doing so and explain why 
students would benefit from such measures.
    Answer. Although not a prepaid card, funds would be disbursed onto 
the Payment Vehicle Account in the same manner, and from the same 
sources, that funds are disbursed by way of ACH.
      transparency and competition in prepaid card implementation
    Question. What steps will FSA take to ensure that any contracting 
with third parties to implement this pilot program will occur on a 
transparent and competitive basis?
    Answer. The public will be well-informed on the process for 
selecting any participants in the pilot and on the parameters for 
administering the pilot.
  student outreach and informed choice regarding prepaid cards versus 
                             direct deposit
    Question. Will FSA or the Department take any steps to prevent 
students from being steered or pushed into this prepaid card option, 
rather than giving students a clear option to have their funds 
deposited into the account of their choice?
    Answer. Student customers are free to open or close accounts; 
students will have the option to determine their account of choice for 
the deposit of funds.
 plans and authority to restrict spending permitted with prepaid cards
    Question. Will FSA allow this pilot program to be used to restrict 
the ability of students to spend financial aid dollars for certain 
types of products or at certain types of merchants? If so, please 
describe FSA's authority for doing so and explain why students would 
benefit from such measures.
    Answer. The pilot will not include purchasing restrictions.
        consultation over merchant fees under prepaid card pilot
    Question. As you know, interchange fees and other card transaction 
fees that are imposed on merchants result in increased retail prices of 
consumer goods, such as college textbooks. Will FSA consult with 
merchants regarding the interchange fees and other fees that might be 
imposed on merchants that are involved in transactions under this pilot 
program to ensure that such fees are not unreasonable?
    Answer. The Department's plan is that the FSA Payment Vehicle Pilot 
will include no fees for students or schools.
   authority to permit industry marketing efforts to promote use of 
                             prepaid cards
    Question. Will FSA allow industry providers of prepaid card 
services to engage in marketing or other efforts to encourage students 
to use FSA prepaid cards under this pilot program? If so, please 
describe FSA's authority for doing so and explain why students would 
benefit from such measures.
    Answer. This will not be a prepaid card. FSA plans to execute an 
agreement with one or more ``Pilot Implementers'' to implement the 
program. Pilot Implementers will develop and execute a communication 
campaign for each school participating in the Pilot. The communication 
campaign will explain the Program Vehicle Account to students.
  authority to permit industry access to personal and financial data 
                        under prepaid card pilot
    Question. As part of this pilot program, will FSA allow industry 
providers of prepaid card services to use students' personal and 
financial information, including purchasing behavior, to market 
unrelated services or to sell such information to third parties without 
the students' knowledge and affirmative opt-in consent? If so, please 
describe FSA's authority for doing so and explain why students would 
benefit from such measures.
    Answer. FSA will ensure that appropriate safeguards exist to 
prohibit improper access and use of Payment Vehicle Account data. Any 
use of detailed Payment Vehicle Account information will be authorized 
only with an explicit opt-in (on a by-occurrence only basis and not 
through general blanket opt-in methods) by the student.
protective measures for student privacy and financial health under card 
                             pilot program
    Question. What steps will FSA take to ensure that the pilot program 
safeguards students' personal and financial information from fraud, 
data breach, and misuse?
    Answer. FSA will ensure that Pilot Implementers deploy state of the 
industry fraud protection, adhere to data privacy and security 
requirements, and comply fully with applicable laws and regulations.
     safeguards against conflicts of interest in card pilot program
    Question. What steps will FSA take to safeguard against conflicts 
of interest in the pilot program?
    Answer. FSA will ensure that participants in the program comply 
with Federal requirements concerning conflicts of interest.
            industry data received in developing card pilot
    Question. In order to provide transparency on any relationships FSA 
has initiated, or may initiate, with industry providers regarding this 
pilot program, please provide all data FSA has obtained from industry 
providers (including, but not limited to, Visa, MasterCard and American 
Express) regarding this pilot program.
    Answer. Industry provider information was shared with FSA on a 
market research basis, with an understanding of confidentially.
role of data drawn from prepaid card pilot in fsa's management of other 
                                programs
    Question. Does FSA intend to use the data that it gleans from this 
pilot program to inform changes to other programs it manages, such as 
student aid funding? If so please identify the programs FSA plans to 
address using these data.
    Answer. FSA currently has no intention to use the data that it 
obtains the pilot program to inform changes to other programs.
        outside groups consulted in fsa payment card development
    Question. Which outside companies, particularly financial 
institutions, institutions of higher education, advocacy organizations, 
or governmental agencies were consulted in drafting the solicitation 
for the FSA payment card or otherwise had interactions that discussed 
the proposal?
    Answer. To date, FSA has met with a wide variety of groups 
regarding the Payment Vehicle Account Program including:
  --Financial Institutions: Mastercard; Visa; American Express; U.S. 
        Bank, Customers Bank, BankMobile division; Citizens Bank; 
        Fidelity Information Services (FIS); Total Systems (TSYS); and 
        First Data Corporation (FDC)
  --Government Agencies: United States Department of the Treasury; the 
        Treasurer of the U.S.; and the Bureau of Consumer Financial 
        Protection
  --Members of Congress
  --Associations: National Association of Student Financial Aid 
        Administrators; National Association of College & University 
        Business Officers; National Association of College Stores; and 
        the Association of American Publishers, including McGraw-Hill 
        Education in conjunction with Arnold & Porter Kaye Scholer LLP, 
        Cengage, and Pearson
  --Advocacy Organizations: Center of American Progress; New America; 
        The Institute for College Access & Success; Student Veterans of 
        America; and the National Consumer Law Center
    Additionally, FSA received numerous inquiries to the draft 
solicitation of January 19, 2018. The companies inquiring were: 
Citibank, Berkeley College, Capella University, NCC Group, Conduent, 
Knewton, PayPal, Shazam, Deltek, Teleperformance, Discover, IDEMIA, and 
Black Dog Merchant Solutions.
 unauthorized withdrawals for improper title iv payments under prepaid 
                               card pilot
    Question. Does FSA intend to make unauthorized withdrawals from 
students' FSA Payment Card that are not initiated by students, such as 
withdrawing funds from a student's account for improper Title IV 
payments without their consent? If so, from what statutory authority 
does FSA derive this function?
    Answer. FSA does not intend to, nor will it have any authority to, 
make unauthorized withdrawals from a student's Payment Vehicle Account.
    expectation of vendor capacity to segregate different forms of 
                   financial aid in fsa payment card
    Question. How does FSA intend for potential vendors to be able to 
segregate Federal financial aid types into discrete categories, as 
requested in the solicitation for the FSA Payment Card?
    Answer. Based upon input form interested parties, FSA has changed 
its approach and does not intend for potential vendors to be able to 
segregate Federal financial aid types into discrete categories.
              third party access to fsa payment card data
    Question. Will FSA allow any user information (such as purchase 
history, amounts, merchant type, or frequency) to be accessible by a 
potential vendor, institution of higher education, or third-party to 
operate a merchant discount or reward program through the FSA Payment 
Card?
    Answer. No potential merchant or other third party will have access 
to any user information.
   fsa payment card ``opt-in'' information sharing with third parties
    Question. What specific types of information will a student be able 
to opt-in to share with a potential vendor, institution of higher 
education, or third-party to participate in a merchant discount or 
reward program through the FSA Payment Card?
    Answer. All information added to the Payment Vehicle Account is the 
property of the student and sharing of this can only be allowed by the 
student on a specific case-by-case, opt-in basis.
 protecting students from vendor privacy violations under fsa payment 
                             card contracts
    Question. What types of oversight or enforcement actions may FSA 
take or conduct to protect students' right to privacy if a vendor 
violates the terms of any contract of the FSA Payment Card?
    Answer. In the event of a contract violation of a student's privacy 
rights, FSA will have the authority to terminate a vendor agreement. 
Students will also have the right to seek redress from the issuing 
bank.
allocation of revenue derived from merchant reward or discount programs
    Question. How will revenue be divided or shared between FSA, a 
potential vendor, institutions of higher education, a third-party, or 
any other applicable party, under a merchant discount or reward 
program?
    Answer. FSA will not receive any revenue or be charged for any 
expense associated with the Payment Vehicle Account Program. Similarly, 
institutions will not receive any revenue. Students are the beneficiary 
of all aspects of the Payment Vehicle Account Program.
   terms and conditions of student participation in fsa payment card 
                                program
    Question. Will the terms and conditions for fees charged by a 
vendor change over the lifecycle of a student's participation in the 
FSA Payment Card Program?
    Answer. Terms and conditions for fees will not change over the 
lifecycle of a student's participation in the Payment Vehicle Account 
Program.
                  fsa payment card warnings or alerts
    Question. In which scenarios does FSA envision sending students 
warnings or alerts when accessing funds in their FSA Payment Card 
Program account?
    Answer. FSA envisions that a student would receive payment use 
fraud alerts by way of the Payment Vehicle Account; this is an 
effective and proven method to deter fraud.
    preventing payment card alerts from steering students away from 
                          necessary purchases
    Question. How will FSA ensure that notifications do not dissuade 
students from making purchases that are necessary to meet basic needs?
    Answer. FSA will not impose purchasing restrictions nor send 
purchasing cautions in relation to the Payment Vehicle Account Program.
 preventing payment card ``nudging'' from limiting students' access to 
                          their financial aid
    Question. How will FSA ensure that ``nudging'' behaviors in this 
pilot do not result in additional bureaucratic hurdles that may pose 
barriers for students to access their financial resources, including 
Federal student aid?
    Answer. Nothing from FSA in the Pilot will prevent students from 
accessing funds related to their account; however, students have always 
been required to agree that Title IV funds will be used only to pay 
educational and education-related expenses.
scope, intent, and capabilities of ``payment card authorization stream"
    Question. Please define the scope, intent, and capabilities of a 
``Payment Card Authorization stream,'' which is otherwise not specified 
in the solicitation.
    Answer. The scope of access to the Payment Vehicle Account Program 
authorization stream is based on ISO 8583, which is the international 
standard for financial and transaction messaging utilized by the 
payment networks. This capability would enable student elected real-
time fraud alerts and student administered real-time transaction 
controls (as determined by the student) to provide updates, such as 
current balance information, open to buy, card on/off functionality, 
etc.
             metrics to determine fsa payment card success
    Question. Please identify and explain what ``satisfactory 
determination of success of the pilot'' means, including metrics of 
success.
    Answer. FSA will use a mixed-methods research approach to evaluate 
the efficacy of the Payment Vehicle Account Program, measuring Program 
adoption and engagement using both quantitative and qualitative 
elements. The Pilot presents a ``test and learn'' period to identify 
the best long-term approach for a successful Program.
    The quantitative measurements for Program adoption will measure 
numerous items, including: the number of Super Portal Mobile App 
myMoney tile clicks and subsequent downloads; views of the Vendor 
Mobile App; and the number of FSA borrowers that elect to use the FSA 
Payment Vehicle Account option.
    The qualitative measurements for Program engagement will assess, 
through interview-based research, how Payment Vehicle Account students 
and institutions rate and evaluate the customer experience associated 
with the new Payment Account Alternative compared to alternative 
balance refund methods.
    In evaluating performance, an independent party or organization 
will assist FSA.
ensuring students with limited technology access equitably benefit from 
                            fsa payment card
    Question. What specific steps will FSA take to ensure students 
without smartphones or high-speed Internet can equitably benefit from 
the FSA Payment Card Program?
    Answer. FSA will work with all Pilot Implementers to ensure that 
the Pilot Implementation accommodates access to Payment Vehicle 
Accounts for all students.
 input and feedback to be solicited before expanding fsa payment card 
                                 pilot
    Question. What type of public comment, Congressional review, and 
stakeholder feedback processes will FSA conduct before expanding the 
pilot?
    Answer. The extent of public comment feedback processes will be 
determined depending on the evaluation of the Pilot.
                   open textbook pilot implementation
    Question. Can you please provide an update on the Department's 
implementation of this Pilot and how you expect it to achieve savings 
for students?
    Answer. The Notice Inviting Applications for the Open Textbook 
Pilot Program will be published in late July. We anticipate conducting 
peer review of applications in August and making new awards by late 
September. We believe several features of the program will contribute 
to savings for students, including the focus on addressing gaps in the 
open textbook marketplace, the emphasis on providing open textbooks 
that can be used in high enrollment courses and high demand fields, the 
promotion of open source textbooks for multiple courses along a degree 
pathway, and the engagement of subject matter and educational 
technology experts to ensure that materials are high quality.
  leveraging state success to inform department's open textbook pilot
    Question. Georgia, New York, North Dakota, and Washington are among 
several States that have distributed grants to support programs at 
institutions of higher education that expand the creation and use of 
open textbooks and have successfully achieved savings for students many 
times more than the amount originally invested. Has the Department 
consulted with these States and to what extent will the Department 
leverage successful State-level models to expand the savings created by 
open textbooks to the millions of students nationwide in need of 
relief?
    Answer. The Department did use information available about the 
investments in these States to inform the development of our Notice 
Inviting Applications. For example, many of these State-led efforts 
require that institutions work in consortiums and/or partnerships and 
we made a similar requirement a key absolute priority in our 
competition. Additionally, we solicited input from institutions at 
various meetings about existing efforts to expand open textbooks, and 
we will build on these efforts by requiring applicants to describe how 
they will disseminate information about the results of the project to 
other IHEs.
              stakeholder outreach in open textbook pilot
    Question. What other stakeholders has the Department consulted to 
date about implementation of the Pilot? Please provide a list.
    Answer. While consultation was limited due to the tight timeframe 
for implementing the pilot, Department staff consulted with a wide 
range of experts in this area, including representatives of publishing 
companies, college book stores the Task Force on Apprenticeship 
Expansion, the American Council of Community College Trustees, American 
Association of Community Colleges, the U.S. Chamber of Commerce 
Foundation, and other institutions of higher education that 
participated in conferences or meetings where Department staff were in 
attendance.
     anticipated grants to be awarded through open textbook funding
    Question. How many grants does the Department expect to offer as 
part of the Pilot? What does the Department expect the average size of 
grants to be awarded under the Pilot?
    Answer. The Department expects to award between 1 and 3 grants 
through the Open Textbook Pilot. We estimate that the grants will range 
from $1,500,000 to $4,950,000.
           activities supported through open textbook grants
    Question. What primary activity or activities will the grants 
support?
    Answer. The grants will provide funding to one or more institutions 
of higher education that leads a consortium that includes other 
institutions of higher education, subject matter experts, experts in 
educational technology or electronic curricular design, and workforce 
stakeholders to create new open textbooks that have the greatest 
potential to lead to the highest level of savings for students. Grants 
will support the review of existing open source materials, the 
development of new materials that either build upon or fill gaps among 
existing materials, the assessment of the efficacy of those materials 
in improving learning and reducing cost, and widespread implementation 
of the materials through a well-designed dissemination plan that 
includes faculty from other institutions.
    compliance with congressional directive to support children who 
                      experience traumatic events
    Question. Chicago is a great city that I am proud to represent. In 
recent years, the city has experienced an epidemic of gun violence. 
Through the end of May, there had been over 1,000 shootings in the city 
of Chicago. That number is significantly lower than the previous 2 
years, but it is still unacceptably high. Common-sense changes to our 
gun laws are an important part of solving the problem. But we must also 
address the underlying issues present in communities that experience 
high incidents of violence including high unemployment, lack of 
resources, and the trauma that children who are exposed to these 
environments experience. According to the Department of Health and 
Human Services nearly half of children nationwide experience at least 
one traumatic event before they reach the age of 17. We know that 
having experienced trauma as a child makes a person more likely to 
become involved in the criminal justice system and suffer negative 
health, educational, and social outcomes. However, too few children who 
experience trauma are currently identified and provided with the right 
care and support. Frankly, your fiscal year 2019 budget would only 
exacerbate this problem so I want to focus on something Congress did in 
fiscal year 2018 to actually help. In addition to ignoring many of the 
harmful and shortsighted cuts put forward by this Administration, 
Congress also directed the Department of Education--and other agencies 
funded in the Labor-HHS bill--to enhance coordination of activities 
that address child trauma, identify trauma-informed best practices, and 
promote programs to identify, appropriately refer, and implement 
supportive interventions for children and families who have experienced 
trauma.
    In April, Senator Capito and I sent you a letter about this 
directive and the critical nature of this issue across the country--not 
just in Chicago. Can you please provide us with an update on the 
Department of Education's activities to comply with this directive to 
support children who have experienced traumatic events?
    Answer. The Department is engaged in a wide range of activities to 
support State educational agencies (SEAs), local educational agencies 
(LEAs), and schools in meeting the needs of children who experience 
trauma on and off school grounds, including identifying and adopting 
best practices in trauma-informed care. For example, the Project 
Prevent program currently helps 20 school districts: (1) increase their 
capacity to identify, assess and serve students exposed to pervasive 
violence; (2) ensure that affected students are offered mental health 
services for trauma or anxiety; (3) provide support for conflict 
resolution programs; and (4) implement other school--based violence 
prevention strategies to reduce the likelihood that these students will 
commit violent acts at a later time.
    The Department's longstanding School Climate Transformation Grant 
(SCTG) program makes competitive grants to SEAs and LEAs to develop, 
enhance or expand systems of support for schools implementing multi-
tiered behavioral frameworks for improving behavioral outcomes and 
learning conditions for all students. These frameworks help schools 
identify, adopt, and implement evidence-based interventions, which, in 
response to locally determined needs, may include trauma-informed care.
    Our Project School Emergency Response to Violence (Project SERV) 
program funds short-term and long-term education-related services for 
LEAs and institutions of higher education to help them recover from a 
violent or traumatic event in which the learning environment has been 
disrupted.
    We also fund technical assistance that is provided to youth who 
have experienced trauma. Our Office of Safe and Healthy Students (OSHS) 
funds the National Center on Safe Supportive Learning Environments, 
which offers information and technical assistance related to youth and 
trauma, including sexual assault trauma and the effects of the opioids 
crisis on children and families. OSHS also funds the National Center 
for Homeless Education TA Center, which provides a variety of resources 
related to youth trauma, including Child Trauma Toolkit for Educators, 
a Trauma-Informed Care and Trauma-Specific Services brief, a Trauma-
Informed Organizational Toolkit, and an Understanding Traumatic Stress 
in Children guide.
   planned use of authority to expand performance partnership pilots
    Question. The Performance Partnership Pilot program provides States 
and local communities, like Chicago, with flexibility to improve 
services for disconnected youth. It encourages coordination among 
participating Federal agencies--including the U.S. Departments of 
Education, Labor, Health and Human Services, the Corporation for 
National and Community Service, the Institute for Museum and Library 
Services, and Department of Justice. This flexibility enables 
communities to pursue the most innovative and effective ways to use 
their existing funds to improve outcomes for the neediest youth, 
including those who have experienced trauma and gun violence. Section 
525 of the Consolidated Appropriations Act of fiscal year 2018 allows 
agencies to use Federal discretionary funds to carry out up to 10 
additional Performance Partnership Pilots. Do you plan to carry out any 
new Pilots using this authority? If so, how many?
    Answer. The Department plans to announce a competition for 
Performance Partnership Pilots under the fiscal year 2018 authority 
later this year. The number of pilots awarded will depend on the 
quality and quantity of applications received.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
         proposed cuts in context of supporting great teachers
    Question. When you testified at the House Education and Workforce 
Committee last month, you said, ``I think great teachers need to be 
supported. I think they should be better compensated, and I think they 
should be treated as professionals . . . '' Yet when teachers across 
the country have stood up for their profession and for their students, 
insisting that States invest in public education you told them that 
they should ``keep adult disagreements and disputes in a separate 
place.'' Given that your budget eliminates the Teacher Quality 
Partnership Grant and over $2 billion in the Supporting Effective 
Instruction State Grants to support recruitment, induction, and 
professional development for our Nation's educators, how are you, in 
fact, supporting ``great teachers?''
    Answer. Recruiting, training, supporting, and retaining effective 
teachers is a core State and local responsibility under our education 
system, and the proposed reduction of $2.4 billion for teacher programs 
represents about one-third of 1 percent of the more than $700 billion 
that our Nation spends annually on public elementary and secondary 
education. Moreover, our research and evaluation efforts consistently 
have shown that Federal funds largely have been used for activities 
that have not been shown to be effective.
 evidence for claim that supporting effective instruction state grants 
                            are ineffective
    Question. You have also claimed that the Supporting Effective 
Instruction State Grant program is ineffective, but States are only in 
the early stages of implementation. What is your evidence that the new 
law is ineffective?
    Answer. The reauthorized Supporting Effective Instruction State 
Grant program largely continues the activities supported under the 
antecedent program, Improving Teacher Quality State Grants, and there 
is no evidence that the changes would make a difference in program 
effectiveness. If States and districts have identified teacher 
practices that they would like to continue, they may do so with other 
Federal funds, such as Title I, or with State and local funds.
 performance evaluation and corrective measures regarding teach grants
    Question. Thank you for agreeing to provide information on steps 
the Department is taking to address the servicing issues with the TEACH 
Grant Program. Specifically, please provide information on the on-going 
review of the program and how the Department plans to resolve issues 
related to TEACH Grants that were unfairly converted into loans. 
Additionally, please provide information about the guidance the 
Department has given to FedLoan Servicing regarding administering the 
TEACH Grants and tracking the service requirement. What specific 
metrics are the Department using to evaluate the performance of FedLoan 
Servicing in administering this program?
    Answer. The Department reaffirms its commitment to improve its 
administration of the Teacher Education Assistance for College and 
Higher Education (TEACH) Grant Program. Taking note of past servicing 
issues, the Department is studying all aspects of the program to 
determine necessary modifications so as to align servicing of the TEACH 
Grants with Congressional intent. This will ensure that students who 
agree to teach for 4 years at an elementary school, secondary school, 
or educational service agency that serves students from low-income 
families have the resources and support that they need.
    In the interim, the Department will continue to perform oversight 
and review of TEACH Grant-related disputes and escalated issues 
resulting from interactions with recipients. Moreover, the Department 
will continue to perform periodic on-site and off-site monitoring to 
ensure adherence to existing TEACH Grant regulations, requirements, and 
other issues.
         federal laws applicable to opportunity grants proposal
    Question. You have previously testified that private schools 
receiving Federal funds would have to comply with Federal law. With 
regard to your Opportunity Grants proposal, please provide a detailed 
list of Federal laws that would apply to schools receiving voucher 
funds. For example, would all voucher schools be required to comply 
with all civil rights laws? Would these schools have to provide the 
same rights and protections as required under IDEA? Would they have to 
meet the accountability and reporting requirements of the Every Student 
Succeeds Act?
    Answer. We have consistently stated that all recipients of Federal 
education funds must comply with all applicable civil rights laws. As 
we are flexible on many aspects of program design and intend to work 
out the details of our proposals with Congress, it is impossible to be 
more precise regarding any applicable laws and requirements, including 
those related to accountability.
          negative achievement outcomes in dc voucher program
    Question. The Department of Education's evaluation of the D.C. 
voucher program found the program to have a negative impact on student 
achievement. Given your stated aim to promote evidence-based models, 
why do you continue to promote this program?
    Answer. We know from other research, including studies of charter 
schools, that the positive effects of educational interventions may 
increase over time. Consequently, we believe it is too soon to reach a 
final conclusion on the effectiveness of private school choice options, 
and we look forward to the third and final impact report of the current 
evaluation expected during fiscal year 2019.
    projected impact of department's proposed student aid budget on 
            enrollment, retention, completion and borrowing
    Question. Please provide an analysis of the impact on student 
enrollment, retention, completion, and borrowing if the Department's 
student aid budget were to be implemented. What would be the impact on 
unmet need for students from low- and moderate income families?
    Answer. The fiscal year 2019 Budget for the Federal student aid 
programs focuses on simplifying funding for college and addressing the 
unique needs of today's students. To these ends, the Budget proposes 
expanding Pell Grant recipients' eligibility to include high-quality 
short-term programs that provide students with a credential, 
certification, or license in an in-demand field, with sufficient 
requirements in place to balance student needs with taxpayer interests. 
The Department estimates that in Award Year 2019-2020, 88,000 new 
recipients will avail themselves of this expanded eligibility. These 
numbers are expected to grow steadily to 168,000 new recipients by 
Award Year 2028-2029. As far as impact on overall student enrollment, 
it is difficult to estimate, because some of these recipients would 
have already been enrolled or planning to enroll. Nevertheless, this 
proposal can be seen as an important component of the Administration's 
overall strategy for improving America's workforce and expanding 
alternative pathways to postsecondary education.
    The fiscal year 2019 Budget for the student aid programs is not 
expected to have a demonstrable impact on unmet need. Borrowing is 
expected to remain roughly level, with undergraduate volume largely 
shifting to Unsubsidized Loans. At page 36 of the Department's fiscal 
year 2019 Budget Summary, the first effects of this shift can be seen 
in the 2019 column. Although reductions are proposed in the Campus-
Based Aid programs, these reductions amount to about 1.2 percent of 
Title IV aid available and less than 0.9 percent of all Federal aid 
available; however, these reductions are offset by the proposal to 
expand Pell eligibility. In addition, we propose to target aid more 
effectively (such as through Federal Work Study), which should improve 
the overall effectiveness of Federal student aid dollars. The 
Department does expect that its proposals will simplify student aid 
from the student perspective, which could have positive effects on 
enrollment, retention, and completion.
     funding necessary to close achievement gap in adult education
    Question. In your budget justification, you noted, ``there 
continues to be a need for Federal investment in adult education 
programs, in part because the United States is increasingly losing 
ground in employment related skills to many of its economic 
competitors.'' Yet your budget request once again recommends a cut for 
Adult Education State Grants. Congress provided an increase of $35 
million for adult education for fiscal year 2018. Do you support 
increasing the Federal investment in adult education? What level of 
Federal, State, and local investments would be necessary to close the 
gaps between U.S. adults and our international competitors?
    Answer. The Administration does not currently support an increase 
for Adult Education State Grants. Although we recognize that adult 
education may generally improve literacy, employment, and other 
outcomes, this program has not demonstrated its effectiveness. The 
Department has commenced a program evaluation that should provide 
insight into whether the program is making an impact that could justify 
increased Federal investment.
 plans and stakeholder engagement in shifting from private collection 
                                agencies
    Question. It has been reported that the Department plans to move 
away from hiring collection agencies and instead contract with other 
types of companies to provide enhanced services to borrowers who are 
delinquent. Please provide more details about these plans and the 
services you envision these companies providing. Do you plan to base 
outreach and enhanced services regionally or by some other borrower 
characteristics? How have you engaged stakeholders, including 
institutions of higher education, student loan borrowers, State and 
non-profit student loan entities, and consumer advocates in developing 
the proposal?
    Answer. The Department is in the process of reviewing and refining 
our approach to delinquency prevention and default collection, with the 
goal of improving outcomes for borrowers and enhancing our stewardship 
of the over $1.5 trillion Federal student loan portfolio. Past 
experience, the results of pilots and other analyses, market research 
activities, and input from a broad range of sources within and outside 
of government will continue to inform this process. Details of our 
plans have not been finalized but will be made public as they are 
completed.
                  allocation of trio funding increase
    Question. Congress provided a 6 percent increase for the TRIO 
programs for fiscal year 2018. How does the Department plan to allocate 
that increase to address the issues with the 2017 applications and 
ensure that current grantees have sufficient funds to meet program 
requirements and provide for cost of living adjustments for program 
staff?
    Answer. The Department is using the $60 million increase provided 
for the Federal TRIO programs consistent with the language included in 
the explanatory statement accompanying the Consolidated Appropriations 
Act, 2018. For example, we are currently reviewing the applications 
from 40 applicants from the fiscal year 2017 competitions whose 
applications were previously rejected for budget errors and will 
provide funding to any and all of these applicants that achieve scores 
that would have put them in the funding range in last year's 
competitions. We also plan to use a portion of the additional funding 
to provide an across-the-board increase to all current TRIO grantees.
             policy shifts favoring private education loans
    Question. A June 1, 2018, article on MarketWatch quoted Federal 
Student Aid's Dr. A. Wayne Johnson as having said at a recent 
conference that the Department ``was mainly supportive of Federal loan 
programs, but that would likely change in the near future'' and the 
article noted that a Department spokeswoman didn't respond to requests 
for comment about the speech. Is the Department currently considering 
changes to FSA websites that would no longer encourage borrowers to 
exhaust their Federal loan eligibility before turning to private 
educational loan products?
    Answer. The Department fully supports the current Federal student 
loan programs. We are committed to ensuring that our websites provide 
customers with clear, complete, and accurate information on the full 
range of options available to help finance their education, The 
Department is committed to working with Congress to do more to ensure 
that students fully understand the hazards of over-borrowing, of 
defaulting on their loans, and of the long-term cost of borrowing.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
          effect of proposed work-study cut on undergraduates
    Question. Secretary DeVos, you testified that the proposed funding 
cut for the Federal Work Study Program requested in your Department's 
budget for fiscal year 2019 would only impact graduate students. Given 
that your budget requests $500 million for Federal Work Study, which is 
56 percent below the $1.13 billion the program was funded at in fiscal 
year 2018, how do you anticipate that the undergraduate students who 
rely on the program would not be impacted?
    Answer. As I stated in my response, our budget proposal was focused 
on providing the greatest opportunity for the students with the 
greatest need. Therefore, the Department proposes to focus Federal Work 
Study (FWS) dollars on undergraduate students and prioritize funding to 
institutions enrolling high numbers of Pell Grant recipients. Our 
proposal would also reform Federal Work Study to ensure that it 
supports workforce and career-oriented training opportunities for low-
income undergraduate students as opposed to subsidizing employment as a 
means of financial aid. Overall, coupled with our other student aid 
proposals such as Expanding Pell Grant Eligibility to Short-Term 
Programs, I feel that this budget will positively impact undergraduate 
students with the most need, providing them alternative pathways to 
successful careers while minimizing costs to students and families.
           appeal process for teach grant-to-loan conversion
    Question. I am concerned about reports of problems within the 
Teacher Education Assistance for College and Higher Education (TEACH) 
Grant program, particularly regarding high rates of erroneous 
conversions of participants' grants to loans. What is the current 
process for a TEACH Grant recipient to appeal a grant-to-loan 
conversion?
    Answer. 34 C.F.R. Sec. 686.43(d) states that, once a TEACH Grant is 
converted to a Direct Unsubsidized Loan, it cannot be reconverted to a 
grant; however, this does not preclude the Department from reinstating 
TEACH Grants when it has been determined that a TEACH Grant was 
converted to a loan due to a servicing error. The Department has taken 
steps to define what constitutes a servicing error and has formalized 
this step in contractual servicing requirements for TEACH Grant 
servicers. Recipients who contend that a servicer converted their TEACH 
Grant(s) in error may appeal to the Department. Moreover, recipients 
whose TEACH Grants converted for reasons other than a defined servicing 
error may also appeal to the Department, which will review the appeal.
  number of teach loan conversions disputed, reviewed, and reconverted
    Question. How many TEACH Grant recipients have disputed the 
conversion of their grants to loans? In how many of those cases did ED 
staff review the disputes? In what share of the cases were the loans 
reconverted to grants?
    Answer. The Department does not track the number of recipients 
submitting disputes and instead maintains data on the number of total 
TEACH Grant disputes received since FedLoan Servicing began originating 
TEACH Grants. There have been 10,908 TEACH Grant disputes related to 
grant-to-loan conversions since April 2013; of those disputes, 3,232 
were appealed to the Department. The following table delineates the 
number of disputes approved for TEACH Grant reinstatement.
  --FedLoan Approvals 5,175
  --FSA Approvals 1, 508
  --Total Approvals 6,683
         fedloan servicing corrective actions for teach errors
    Question. Please provide any actions FedLoan Servicing has taken to 
correct grant-to-loan conversions that were or are suspected to have 
been made in error, including details on whether loans were reconverted 
into grants, whether any payments were returned to teachers, and any 
communication to consumer credit bureaus.
    Answer. In 2014, the Department detected anomalies in conversion 
rates that it later determined to be incorrect conversions. Although 
discovered while FedLoan Servicing was the designated TEACH Grant 
servicer, the errors occurred prior to its involvement in the program. 
Therefore, the actions taken consisted of contractual changes that 
required FedLoan Servicing to perform outreach to recipients whose 
TEACH Grants were incorrectly converted to a loan and to offer the 
option of TEACH Grant reinstatements. In general, the reinstatement of 
a TEACH Grant requires the following:
  --Written communication to recipients explaining the TEACH Grant(s) 
        reinstatement
  --Application of previous loan payments to Department-held loans 
        serviced at FedLoan Servicing. If no other Ed-held loans are 
        serviced by FedLoan Servicing, payments are refunded 
        automatically to the recipient; and
  --Updated information to any credit reporting agencies.
             fedloan customer service for teach recipients
    Question. Does FedLoan Servicing have specialized customer 
representative teams to respond to TEACH Grant recipients whose grants 
have been converted to loans?
    Answer. FedLoan Servicing has dedicated Customer Service 
Representatives (CSR) for TEACH Grant servicing, and converted 
recipients are not hindered from handling disputes directly with them. 
Generally, converted recipients initially contact FedLoan Servicing's 
CSRs, who have the specialized training necessary to launch a TEACH 
Grant dispute. Once a dispute has been initiated, it would then be 
assigned to the dedicated TEACH Grant team for review and handling.
              fedloan timeline for correcting teach errors
    Question. Does FedLoan Servicing have clear timeframes for 
reviewing TEACH Grant paperwork for errors and communicating those 
errors to recipients? If so, what are those timeframes?
    Answer. The review and response period for TEACH Grant 
certification is 10 days, which includes the review and the decision 
(approval, denial, or pending, if incomplete) Additionally, the 
Department reviews on a weekly basis various indicators, such as call 
center statistics, data on disputes, and denial reasons to ensure that 
processing anomalies are addressed. In the event an error does occur, 
FSA reviews to ensure a timely remediation, communications to the 
recipient, and completion of any remediation.
 involuntary collection resulting from erroneous teach loan conversions
    Question. How many TEACH Grant recipients are or have been the 
subject of involuntary collection proceedings for repayment of TEACH 
Grants converted to loans?
    Answer. The Department is committed to providing the information 
requested to support the review and oversight of the TEACH Grant 
program; however, the Department does not typically calculate the 
requested metric. The Department is actively reviewing the data 
available to determine the most efficient means to provide this data as 
soon as it becomes available.
      specific public institutions characterized as ``bad actors''
    Question. As part of your confirmation hearing and in response to 
several questions for the record related to fraud and misconduct at 
colleges that misuse taxpayer dollars, you repeatedly stated that 
``Fraud should never be tolerated. Period. Bad actors clearly exist--in 
both public and nonpublic institutions''. While there have been 
individual bad actors across many types of institutions, I am not aware 
of a public institution of higher education that has systematically 
defrauded the Federal student aid program with actions such as making 
false statements about graduates' earnings or misrepresenting the 
purpose of a degree program. Which public institutions were you 
referring to with your statement?
    Answer. In 2012, an investigation revealed that the University of 
Illinois Law School had published inflated median grade-point averages 
and Law School Admission Test scores for six entering law school 
classes (2005 and 2007-2011, graduating in 2008 and 2010-2014). As a 
result, the American Bar Association (ABA) levied an unprecedented 
$250,000 fine and public censure against the institution.
    Unfortunately, no sector of higher education is immune to this kind 
of conduct. By way of illustration, in 2012, it was reported that 
Claremont McKenna College, Emory University, and George Washington 
University submitted false data to U.S. News about undergraduate 
admissions, as did Tulane University's business school with regard to 
MBA degree admissions. Bucknell University has similarly admitted that, 
from 2006 through 2012, the institution misreported SAT and ACT 
averages to make the institution appear to be more selective than it 
was. More recently, Temple University admitted to misrepresentations 
regarding the percentage of its online MBA students who took entrance 
exams prior to being admitted--a misrepresentation that put Temple's 
online graduate business school at the top of U.S. News rankings.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
      ``enforcement disclosure'' policy explanation, requests and 
                             documentation
    Question. It was recently reported that the Department has issued a 
memorandum interpreting the requirements of the Privacy Act to deny 
access to State agencies seeking Federal student loan records from 
student loan servicers, which can include call recordings, and other 
work product created by these Federal contractors. The Department's 
Statement of Records Notice (SORN) for the Direct Loan Program (Common 
Services For Borrowers (CSB), 18-11-16), establishes through its 
``Enforcement Disclosure'' provision that ``in the event that 
information in this system of records indicates, either on its face or 
in connection with other information, a violation or potential 
violation of any applicable statute, regulation, or order of a 
competent authority, the Department may disclose the relevant records 
to the appropriate agency, whether foreign, Federal, State, Tribal or 
local, charged with the responsibility of investigating or prosecuting 
that violation or charged with enforcing or implementing the statute, 
Executive Order, rule, regulation, or order issued pursuant thereto.''
    a. Please provide a detailed explanation of the Department's policy 
that governs such a disclosure, including the name of the official 
responsible for making determinations related to this disclosure and 
the criteria used to determine the scope of records relevant to a 
request from an appropriate agency.
    b. Please provide a detailed list of all individual requests made 
to the Department under the ``Enforcement Disclosure'' provision over 
the last 5 years, including the identity of the third party making the 
request, the identity of the student loan servicer or debt collector 
subject to investigation or oversight, and the date on which such a 
request was made.
    c. Please indicate any requests for which the Department of 
Education has not yet made a determination under the ``Enforcement 
Disclosure'' provision and indicate the number of days such a request 
has been pending.
    d. Please indicate any requests that have been denied under the 
``Enforcement Disclosure'' provision over the last 5 years, along with 
the grounds for denial and the name of the Education Department 
official responsible for making this determination.
    e. Please provide a copy of the memorandum cited in the Politico 
reporting on December 27, 2017, regarding the ``Enforcement 
Disclosure'' policy.
    Answer. a. The Department's policies regarding disclosure of 
records subject to the Privacy Act reflect our utmost concern to 
protect borrowers' privacy and individually identifiable information. 
The Department has discretion (``may disclose the relevant records . . 
.) and generally considers Privacy Act requests from local, State, and 
Federal law enforcement agencies ``on a case-by case basis.'' Common 
Services for Borrowers (CSB) SOR (18-11-16) published at 81 F.R. 60686. 
FSA consults with the Department's Office of the General Counsel 
concerning decisions related to disclosing the applicable records.
    b. The Department does not maintain a list of these applicable 
requests and so is unable to provide the requested information.
    c. The Department does not maintain a list of pending Privacy Act 
requests and will not comment on any deliberations regarding any 
potential disclosure of Privacy Act-protected records requests made 
pursuant to the Privacy Act.
    d. The Department does not maintain a list of the denied requests 
and is unable to provide you with the requested information. The 
decisions related to disclosing the applicable records are made by the 
office of Federal Student Aid in consultation with the Department's 
Office of the General Counsel.
    e. Please see the enclosed memorandum (an example of the letter 
that was transmitted).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


clarification of stance on obama administration borrower defense policy
    Question. You have previously said that a cheated student loan 
borrower simply had to ``raise his or her hands to be entitled to so-
called free money'' under the Obama Administration's borrower defense 
process. Given that the previous Administration simply provided a 
discharge of outstanding loan obligations that students would otherwise 
have otherwise been required to repay for an education that was 
determined to have been fraudulently provided, what did you mean by 
these comments?
    Answer. The policies in this area introduced by the prior 
administration lacked the analytical rigor needed for an adjudicative 
process, without which could result in the loss of billions of taxpayer 
dollars. Borrowers who relied upon and were harmed by fraudulent 
misrepresentations should be eligible for borrower defense relief. The 
standards for evaluating such claims should be rigorous to ensure the 
approval of only valid claims from eligible borrowers.
institutional liability for debt relief expenses under borrower defense
    Question. Is the Department considering any steps to recoup funds 
for the cost of debt relief from the institutions of higher education 
that are subject to borrower defense claims under the current borrower 
defense regulations and process?
    Answer. Consistent with the Secretary's authority under 34 C.F.R. 
Sec. 685.206(c)(3), the Department will initiate proceedings against an 
institution that had engaged in acts or omissions that would give rise 
to a cause of action under State law. To date, the Department has 
approved borrower defense claims related only to institutions that are 
insolvent and for which the appropriate statute of limitations stated 
in the borrower defense regulation has already run.
 extradepartmental instructions regarding budgetary impact of borrower 
                                defense
    Question. Has the Department ever been advised or directed to 
reduce the budgetary impact of borrower defense relief from senior 
officials within the Office of Management and Budget, U.S. Department 
of the Treasury, or the White House?
    Answer. No, it has not.
         delay of borrower defense rule and student protection
    Question. In a press release produced by your agency concerning the 
delay of the borrower defense to repayment (``borrower defense'') 
rules, you stated that ``It is the Department's aim, and this 
Administration's commitment, to protect students from predatory 
practices.'' Please describe specifically how the delay of the borrower 
defense rule protects students from predatory practices.
    Answer. The Department continues to protect students from predatory 
practices through its program reviews, oversight activities and 
investigations, and we continue to process the nearly 170,000 borrower 
defense claims already received. The implementation of the borrower 
defense to repayment regulations was delayed in order to provide time 
for negotiated rulemaking to address the many elements of the 
regulation that were unworkable, costly, and unfair. The Department 
believes that students who have been deceived by predatory practices 
should receive financial compensation and be made whole, but this 
should be at the expense of the institution rather than the taxpayer. 
In addition, judicial proceedings or arbitration are the best ways for 
borrowers to pursue restitution for acts of consumer fraud since those 
proceedings can include not just reimbursement for Federal student 
loans, but for the total cost of attendance (including cash and other 
forms of credit) and for the opportunity costs associated with 
attending an institution that committed an act of fraud.
  total volume and accrued interest on loans receiving partial relief 
                         under borrower defense
    Question. In cases where the Department has granted ``partial 
relief'' to borrower defense claims, what is the current total volume 
and average amount of accrued interest on such loans from the period 
during which the claims were under review, and at the point in which 
the borrowers were expected to re-enter repayment on the remaining 
balance?
    Answer. 15,029 borrowers were approved for partial discharge. The 
average amount of interest that accrued on those loans during the 
review period was $0.00 since borrowers at the time they entered 
repayment received a credit for the approximate amount of interest that 
had accrued during the time the claim was pending.
                 student aid enforcement unit staffing
    Question. What is the number of currently employed, full-time 
equivalent, non-managerial employees in each of the Student Aid 
Enforcement Unit's four staff groups: Investigations, Borrower Defense, 
Administrative Actions and Appeals, and Clery?
    Answer. There are four full-time employees in the Investigations 
Group; six full-time employees and one part-time employee in the 
Borrower Defense Unit; 10 employees in the Administrative Actions and 
Appeals Service Group; and 16 employees in the Clery Act Compliance 
Division.
                investigations group staffing allocation
    Question. How many staff are currently dedicated to the work of 
conducting investigations within the Investigations Group--not 
including managers and others who have been assigned to other tasks?
    Answer. Each member of the staff is dedicated to the work of 
conducting investigations. This investigatory work can be conducted as 
a standalone investigation or in support of other FSA teams, such as 
Program Compliance, the Administrative Actions and Appeals Service 
Group, and the Borrower Defense Unit.
                     status of devry investigation
    Question. The Department announced in October 2016 that it would 
``continue to support the FTC's ongoing lawsuit against DeVry, while 
also continuing its own investigations of the institution.'' Has this 
investigation continued in your Administration?
    Answer. To preserve the integrity of investigations, program 
reviews and other enforcement activities, the Department's practice is 
to neither confirm nor deny current or potential investigations.
      response to staff requests to continue devry investigations
    Question. Has the Department responded to staff requests during 
your tenure (since January 20, 2017) to continue or move forward with 
investigations into DeVry?
    Answer. To preserve the integrity of investigations, program 
reviews and other enforcement activities, the Department's practice is 
to neither confirm nor deny current or potential investigations.
          new investigations in fsa under trump administration
    Question. How many new investigations have been opened by the 
Investigations Group under your Administration (since January 20, 
2017)?
    Answer. Nine new investigations have been opened.
    investigations prompting enforcement under trump administration
    Question. How many investigations--not minor compliance reviews--
conducted by the Investigations Group have resulted in an enforcement 
action under your Administration (since January 20, 2017)?
    Answer. Not all investigations result in an enforcement action, but 
thus far there have been no enforcement actions taken as a result of 
investigations by the Investigations Group that have begun since 
January 20, 2017.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
      bilingualism in national security and cognitive development
    Question. The American Academy of Arts and Sciences released a 
report last year that details the advantages of bilingualism. It calls 
for the U.S. to prioritize investments in language education for the 
purpose of increasing our national security and providing better social 
and cognitive development opportunities to our youth.
    How will you utilize the findings and recommendations in this 
report to inform your work?
    Answer. National security is one of this Administration's top 
priorities. The American Academy of Arts and Sciences' report entitled 
``America's Languages: Investing in Language Education for the 21st 
Century'' cites a number of recommendations to improve access to 
language education for people of all ages, ethnicities, and 
socioeconomic backgrounds, as well as preparing language teachers and 
promoting public-private partnerships in language education.
    The report aligns with a number of the major priorities in the 
President's 2019 Budget Request. For example, President Trump's 
emphasis on providing every student the opportunity to attend a school 
of his or her choice will lead to more options for students and 
families, including both public and private schools that give priority 
to bilingualism and foreign language instruction.
    At the same time, the Administration is committed to strengthening 
the Federal investment in education by eliminating funding for programs 
that are duplicative, ineffective, or more appropriately supported with 
State, local, or private funds. For this reason, no funds are requested 
for the International Education programs at the Department. The 
Department of Defense, the State Department, and other Federal agencies 
offer a number of programs that support similar activities; 
consequently, the Administration's overall fiscal year 2019 request 
provides sufficient resources for programs critical to our national 
security and global competitiveness.
               dual language immersion in charter schools
    Question. In Hawaii, public charter schools play a significant role 
in language immersion education. Dual language immersion schools 
empower students to achieve fluency and literacy in multiple languages.
    Will you commit to studying the impact of high quality dual 
language immersion schools as part of the Charter Schools Program?
    Answer. The Department agrees that language immersion programs 
offer an important educational option for our Nation's students, 
including English learners. We will consider including effective 
charter school immersion programs in our efforts to disseminate best-
practice information under the Charter Schools Program.
authority to fold office of english language acquisition into office of 
                   elementary and secondary education
    Question. The legal basis for the Office of English Language 
Acquisition (OELA) derives from the U.S. Supreme Court's ruling in Lau 
v. Nichols. Under this landmark 1974 case, school districts that 
receive Federal funding are required to ensure all students have equal 
educational opportunities, including through the establishment of 
multi-lingual programs for language minority students.
    What legal authorities do you believe you have to eliminate the 
independent Office of English Language Acquisition and disperse its 
staff across the Office of Elementary and Secondary Education?
    Answer. The Department of Education is proposing to integrate the 
Office of English Language Acquisition (OELA) into the Office of 
Elementary and Secondary Education (OESE), not eliminate it or its 
functions. The Secretary has general authority to reorganize the 
Department pursuant to section 413 of the Department of Education 
Organization Act (20 U.S.C. Sec. 3473), and any reorganization of the 
Department would comply with this provision. The Department is working 
closely with the Office of Management and Budget (OMB), its Office of 
the General Counsel (OGC), and others to ensure that the reorganization 
is conducted in accordance with the law.
    The Department recognizes the importance of ensuring that English 
learners are afforded equal access to education and the valuable role 
that the Director's position and OELA contribute to meeting that goal. 
The Department notes that the amendments made by the Every Student 
Succeeds Act (ESSA) to the Elementary and Secondary Education Act 
(ESEA) places a heightened emphasis on English learners. ESSA moved the 
accountability provisions relating to English learner progress from 
Title III to Title I. Thus, the statute requires State ESEA plans to 
address long-term goals for English learner progress, including an 
English learner indicator, as an integral part of State school 
accountability systems. Just as States are adjusting to this change by 
breaking down silos between Title I and Title III State-level offices, 
so too is the Department. The proposed reorganization will allow the 
Department to provide States with the technical assistance needed 
across programs. Once implemented, the Department expects that its 
proposed changes will enhance Department operations and leverage 
resources to better serve English learner students and their families. 
The Department is committed to maintaining an effective OELA that 
continues to support and helps to facilitate compliance by States and 
local educational agencies in their efforts to provide a high-quality 
education to English learners.
                oela reorganization and essa compliance
    Question. Do you believe the elimination of an independent OELA 
complies with the legislative provisions authorized in the Every 
Student Succeeds Act?
    Answer. The Every Student Succeeds Act (ESSA) amendments to the 
Elementary and Secondary Education Act (ESEA) place a heightened 
emphasis on English learners. ESSA moved the accountability provisions 
relating to English learner progress from Title III to Title I. Thus, 
the statute requires State ESEA plans to address long-term goals for 
English learner progress, including an English learner indicator, as an 
integral part of State school accountability systems. Just as States 
are adjusting to this change by breaking down silos between Title I and 
Title III State-level offices, so too is the Department with its 
proposed reorganization.
             oela reorganization and statutory obligations
    Question. OELA is charged with preserving heritage languages and 
cultures in addition to ensuring educational support for English 
learners. How does the proposed reorganization serve the purposes of 
other statutes such as the Native American Languages Act?
    Answer. The Department is committed to maintaining an effective 
Office of English Language Acquisition (OELA) that continues to support 
and helps to facilitate compliance by States and local educational 
agencies in their efforts to provide a high-quality education to 
English learners. The integration of OELA into the Office of Elementary 
and Secondary Education will not reduce its functions.
              student debt and federal role in addressing
    Question. 44 million Americans currently have student loan debt. 
College debt has increased 170 percent since 2006 and now exceeds $1.4 
trillion dollars. This is the highest category of consumer debt behind 
mortgages. It surpasses even credit card debt and auto loans. We are 
already seeing the economic drag of student loan debt. It is a major 
reason that homeownership is down--as many as 360,000 young Americans 
didn't buy a house in 2015 because of the costs of college.
    a. Do you believe we have a student debt problem?
    b. Do you believe that the Federal Government has a role in 
addressing student debt?
    c. What are your justifications for undermining the Federal 
programs that help address student loan debt, like public service loan 
forgiveness and income-based repayment?
    d. What steps will you take to ensure public higher education is 
affordable and accessible?
    Answer. a. Student loan debt is a tremendous problem for students 
and parents, with potentially catastrophic consequences on the Federal 
budget and the national deficit in the not-so-distant future. The 
Department believes that income-based repayment plans and loan 
forgiveness programs, although beneficial to borrowers in repayment, 
also create perverse incentives that encourage students to borrow to 
the maximum limit because they believe (mistakenly) that income-driven 
repayment programs will reduce the repayment burden. Some institutions 
also promote income-driven repayment plans as a strategy for reducing 
student and parent concerns about tuition costs.
    b. The Department believes that the Federal Government has an 
important role to play in addressing student debt. For too many years 
the Government has promoted student and parent borrowing, first by 
introducing the unsubsidized loan program and raising the cap on 
ParentPLUS loans in 1992, and subsequently by continuing to increase 
borrowing limits. Increased borrowing limits, coupled with prohibitions 
on institutions interfering with a student's right to borrow (except in 
narrowly-defined situations), cost of attendance definitions that 
require institutions to include local housing costs (including for non-
residential campuses) and policy objectives that emphasized the 
importance of every American earning a college degree have all 
contributed to the $1.45 trillion dollar student loan problem.
    The Department is very concerned that, despite the best intentions, 
income-based repayment plans and loan forgiveness programs have created 
a set of perverse incentives that enable students to justify borrowing 
to the limits with the belief that they will not be burdened by large 
monthly payments and that they will receive loan forgiveness. What many 
of these borrowers do not understand is that loan forgiveness is taxed 
as income, resulting in unexpected tax liabilities that many borrowers 
may be unable to pay. Despite their usefulness in helping low-income 
borrowers manage their repayment obligation, research has shown that 
students who benefit most from income-driven repayment plans are those 
who earn a graduate education, meaning that resources intended to help 
the lowest income borrowers are being reappropriated to more affluent 
borrowers with higher earning potentials.
    In addition, for far too long the Federal Government has encouraged 
all students to go to college, even when this may not be the best 
option for all students. The majority of our post-secondary resources 
and most of the major policies of the last four decades have been to 
encourage more and more students to enroll in college, thus using fear 
and threats of lifelong consequences to drive students into taking 
loans. It is time to provide lower-cost, shorter-term options that 
enable Americans prepare for careers and continue to upgrade their 
skills throughout their career, rather than saddling them with such 
large debts before they ever experience work in their chosen career.
    c. Public service loan forgiveness puts the Government in the 
inappropriate position of deciding which jobs or occupations are more 
important than others or signaling, perhaps incorrectly, where 
workforce shortages exist. In addition, PSLF discriminates against 
students who completed the same program as their peers and work for the 
same wages, simply because their employer has a different tax status. 
The notion that private sector jobs always pay more than public sector 
jobs is outdated, and often times public sector jobs have benefits 
beyond a wage premium that make these jobs more desirable, especially 
during times of economic challenge. It seems unfair that a nurse who 
works at a public hospital, for example, receives loan forgiveness but 
a nurse who works in a private hospital does not, even though both 
nurses might have taken on the same level of debt and earn the same 
wages. We believe that institutions, not taxpayers, must be called upon 
to solve the debt crisis by developing innovative ways to reduce 
educational costs and help students manage debts. The Department gives 
tremendous credit to institutions like Perdue University for 
experimenting with Income Share Agreements as a new way for students to 
pay for college without taking on debt.
    d. The most important way to ensure that postsecondary education is 
affordable and accessible is to expand the number of shorter-term 
programs and earn-and-learn opportunities available to students, 
thereby reducing the direct cost and the opportunity cost of education 
and enabling students to enter the workforce more quickly. We have 
proposed that Pell grants be made available to students enrolled in 
short-term programs that help them enter the workforce or update their 
skills throughout their career. We also believe that summer Pell grants 
help reduce the cost of higher education since students who take 
classes through the summer are more likely to graduate early or on 
time, thus saving money. The Department also encourages States to 
invest in public higher education and to resist the urge to give out-
of-State students priority in enrollment decisions because they pay a 
higher tuition rate.
            proprietary institutions and student protections
    Question. Students graduate from for-profit schools at less than 
half the rate of students at public colleges. They also graduate with 
more debt and their student loan default rate is twice as high. Every 
indicator suggests that for-profit schools are expensive and low-
quality. Many of these for-profit colleges have been under 
investigation for fraud and deception by State attorneys general and 
several Federal agencies, including your own department.
    a. What will you do to protect students at for-profit colleges?
    b. What specific steps will you take to ensure quality outcomes?
    c. What is your justification for dismantling the team at your 
department responsible for investigating abuses by for-profit colleges?
    Answer. a. The Department believes that all students, and not just 
those who enroll at proprietary institutions, deserve the same rights 
and protections. Through its program reviews and investigatory 
functions, the Department will continue to hold institutions 
accountable for adhering to all Title IV requirements.
    b. Accreditors play the primary role in evaluating academic 
quality, and they will continue to do so. The Department is working to 
develop new methods for measuring quality and providing more accurate 
data to inform consumer choice.
    c. Staff reduction in the Enforcement Unit can be attributed to 
attrition. The investigations conducted by the Enforcement Unit were 
one part of the department's broad effort to provide oversight. 
Oversight is not relegated solely to the Enforcement Unit which was set 
up in 2016. We also have teams of people working together across the 
Program Compliance Unit and in coordination with the Department's 
Office of General Counsel.
    As part of its oversight duties, Federal Student Aid requires the 
submission of annual compliance and financial audit reports and 
routinely conducts program reviews to confirm that a school meets FSA 
requirements for institutional eligibility, financial responsibility, 
and administrative capability.
    During a program review, reviewers evaluate the school's compliance 
with FSA requirements, assess liabilities for errors in performance, 
and identify actions the school must take to improve its future 
administrative capabilities. After completing a program review, FSA 
issues a Program Review Report (PRR) to the institution and eventually, 
a Final Program Review Determination (FPRD). The FPRD includes each 
finding identified in the PRR, the institutional response, and the 
Department's final determination. The FPRD may or may not require 
additional action by the institution. Once FPRDs are shared with the 
institutions and screened for any necessary redactions, they are posted 
publicly at https://studentaid.ed.gov/sa/about/data-center/school/
program-reviews.
    In fiscal year 2017 alone, Program Compliance staff commenced over 
200 new program reviews at institutions determined to present a risk to 
Title IV dollars. Additionally, PC staff issued over 300 FPRDs to 
institutions and collectively assessed over $75 million in liabilities 
due the Department via FPRDs issued in fiscal year 2017.
    Annually, each school is required to submit a compliance audit, and 
Program Compliance staff resolved approximately 1,400 deficient 
compliance audits in fiscal year 2017. Each audit also is accompanied 
by a financial statement and, in fiscal year 2017, staff resolved over 
1,500 financial statements which had been flagged for additional 
review.
    While audit reports and program reviews are critical instruments, 
they are not the only tools available to the Department to conduct its 
required monitoring and oversight activities. In fact, program reviews 
and audits are but two of a spectrum of tools FSA deploys to monitor 
and manage compliance while gathering the evidence essential to 
implement enforcement actions. Oversight is also inherent via the 
analysis of financial statements which could lead to financial 
composite score issues, the requesting of backup data regarding 90/10 
compliance, the role of heightened cash monitoring (HCM) in performing 
oversight, and in the collection and maintenance of Letters of Credit 
to mitigate financial risk for taxpayers. For example, in Award Year 
2015, the Department requested and received 426 LOCs from 396 
institutions or main OPEIDs in the amount of approximately $932 
million.
    As previewed above and as a result of any of the Department's 
oversight activities, an institution may be placed on a payment method 
other than advance payment, which may require varying degrees of 
documentation and Departmental approval before the institution may 
receive Title IV disbursements on behalf of eligible students. PC staff 
monitored the financial performance of the approximately 550 
institutions which on average participated under the HCM method of 
payment throughout fiscal year 2017.
    Additionally, all institutions are required to undergo a 
recertification for continued participation in the Title IV programs at 
least once every 6 years. This recertification includes a comprehensive 
review of the institution. In fiscal year 2017, PC staff completed over 
1,150 recertification reviews/applications and processed another 2,300 
eligibility updates and approval applications.
    Finally, in fiscal year 2017, PC staff reviewed and resolved over 
6,000 inquiries, concerns or institutional complaints submitted by 
students and constituents.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
               short-term pell grant expansion guardrails
    Question. On June 5, 2018, you shared in response to a question 
from Senator Blunt that you would like to work with Congress to expand 
Pell Grants to short-term programs with ``appropriate guardrails.'' 
Please discuss how the Department is thinking about guardrails. What 
are guardrails does the Department believe are work exploring for 
expanding Pell eligibility to short-term programs, and what is an 
example of a program that should not be eligible?
    Answer. We believe it is important to help low-income or out-of-
work individuals access training programs that can equip them with the 
skills to secure well-paying jobs in high-demand fields more quickly 
than traditional 2-year or 4-year programs. However, we also believe 
there should be sufficient guardrails in place to ensure taxpayer 
dollars are being used wisely and we are balancing students' needs with 
taxpayers' interests. Rather than opine on which programs should or 
should not be eligible, we look forward to discussing with you and your 
colleagues how to find the appropriate balance between access and 
accountability.
              debt relief scams and departmental tracking
    Question. Has the Department maintained a list of known student 
debt relief scams and their owners that can be shared with major 
technology companies, web publishers, social media platforms, and 
search engines to filter out potentially fraudulent advertisements? If 
not, why not?
    Answer. The Department collects information on debt relief scams 
and affiliated companies from customers through the Customer Feedback 
System. In addition, the Department and its Federal loan servicers work 
together to collect and transmit information to the Federal Trade 
Commission and other Federal enforcement agencies for further 
investigation.
    The Department aggressively pursues all companies, including debt 
relief companies that mislead borrowers by using the name or trademarks 
of the Department in any way.
    The Department provided Google with a list of third-party debt 
relief companies that have had enforcement action taken against them or 
are the subject of borrower complaints received by FSA. Based on those 
efforts and information provided by other agencies, the Department has 
developed and provided recommendations to Google on how to help 
borrowers.
    A common practice among companies engaged in debt relief scams 
involves the frequent creation and dissolution of numerous company 
names over a short period of time, often to avoid detection or bad 
publicity and to allow fraudulent debt relief actors to make 
unsolicited telemarketing calls. These tactics makes online advertising 
restrictions largely ineffective.
    efforts to control debt relief scams through servicing contracts
    Question. Has the Department issued any contract change requests to 
require loan servicers to build appropriate procedures to prevent and 
address the use of the debt relief scams, including proactively 
contacting borrowers whose accounts demonstrate the likely activities 
of a scam?
    Answer. The Department and Federal servicers share information on 
potential and confirmed debt relief scams. The Department and its 
Federal loan servicers work jointly and independently to collect and 
transmit information to the Federal Trade Commission and other Federal 
enforcement agencies for further investigation.
    Through the use of data analytics, the Department actively scans 
records to identify possible debt relief scams and has provided these 
data to servicers in order to contact the borrower and determine if 
they might be a victim of a debt relief scams. The Department also 
reaches out to borrowers affected by improper debt relief activity when 
Federal enforcement agencies have identified fraudulent debt relief 
companies. Under this arrangement, the Department recently supported 
the Federal Trade Commission's 2017 sweep of companies engaged in debt 
relief activity--Operation ``Game of Loans''--by contacting 
approximately 12,000 impacted borrowers to make them aware of the 
possible scam and equip them with the name of their assigned Federal 
loan servicer, contact information, and additional resources. The 
Department continues to support Federal enforcement agencies on similar 
cases that may result in contact with additional borrowers.
    Sharing of information also includes coordinated activities. For 
example, the Federal Trade Commission and the Department have worked to 
provide awareness of improper debt relief activity through social media 
and website postings. Additionally, the Department, Federal servicers, 
and enforcement agencies recently contributed to the May 15, 2018, 
Borrower Protection Summit hosted by MOHELA and Great Lakes to share 
important information on debt relief fraud with loan servicers and 
consumer advocacy groups. Presenters included the Federal Trade 
Commission and Bureau of Consumer Financial Protection.
cease-and-desist orders for falsely claiming connection with department
    Question. Since January 20, 2017, how many unique cease-and-desist 
orders has the Department filed against any company or its owner that 
engages in fraudulent, illegal, unfair, or deceptive behavior at the 
expense of students and taxpayers for alleging a connection with the 
Department?
    Answer. Since January 20, 2017, the Department has sent cease-and-
desist letters to two companies based on alleged violations of the 
Lanham Act.
    requirements for loan servicers regarding third-party operations
    Question. Does the Department require loan servicers to identify 
and track student debt relief scams, and any other incidents of 
undisclosed operations of third parties, and to promptly report these 
findings to a dedicated point of contact within the Department?
    Answer. The Department maintains dedicated points of contact for 
Federal servicers and enforcement agencies on matters related to 
improper debt relief activity. The Department and Federal servicers 
share information on potential and confirmed activity, including names, 
addresses, and other identifying information. The Department keeps this 
information on record and uses it to address borrower service calls and 
complaints, including calls to the FSA Ombudsman Group and borrower 
complaints submitted via the FSA Feedback System. Additionally, all 
reports of suspicious activity received in the FSA Feedback System are 
routinely uploaded to the FTC's Consumer Sentinel Network.
  role of evidence and best practices in student support and academic 
                achievement grant program administration
    Question. How does the Department plan to use data collection, 
research, and/or best practices to support State and local education 
agencies as they administer the funds provided under ESSA's Title IV-A 
Student Support and Academic Enrichment Grant program?
    Answer. The Department is committed to assisting States and local 
school districts in using Federal education program funds for 
activities that best meet their needs and are based on evidence of 
effectiveness. In addition to previously issued guidance on using 
evidence to strengthen education investments under the ESEA (see 
https://www2.ed.gov/policy/elsec/leg/essa/guidanceuseseinvestment.pdf), 
the Department is providing a variety of technical assistance 
opportunities under Title IV-A (including general and individualized 
technical assistance to States through a new contract to be awarded 
later this fiscal year) that are designed to help stakeholders identify 
areas of need, connect them with content-area experts, and direct them 
to appropriate evidence-based interventions and programs. The 
Department also intends to collect data on uses of Title IV-A funds 
through the EDFacts system and are currently considering whether to 
conduct an in-depth analysis of how Title IV-A funds are being spent, 
including the extent to which they are used for evidence-based 
activities as intended by Congress.
              guidance on eligible use of title iv-a funds
    Question. Does the Department intend to update or alter the current 
guidance to State and local education agencies regarding the 
permissible uses of Title IV-A funds? If so, what is the timeline for 
any revisions?
    Answer. The Department is currently studying how Title IV-A funds 
may be used to promote school safety and security. We continue to 
respond to questions from States and school districts on Title IV-A 
program implementation, including questions about allowable uses of 
funds. These responses may be found at https://
safesupportivelearning.ed.gov/ESSA-TitleIVPartA-SSAE.
department outreach with leas to allocate funds for all three statutory 
                                purposes
    Question. How does the Department plan to work with districts to 
determine how these funds are spent across the three program areas--
well-rounded education, student health and safety, and meaningful use 
of educational technology--provided for under the statute?
    Answer. States and school districts are responsible for determining 
how funds will be spent under the Title IV-A program. The Department, 
on the other hand, will collect data on uses of Title IV-A funds, 
including by program area, through the EDFacts system. In addition, we 
are developing a protocol for monitoring State administration of the 
Title IV-A program that will examine how States are ensuring school 
districts comply with the content-area expenditure requirements 
applicable to districts receiving $30,000 or more in Title IV-A funds.
                                 ______
                                 
               Questions Submitted by Senator Joe Manchin
                    federal handle with care program
    Question. As you may know, there is a program in West Virginia 
called Handle with Care that works in collaboration between the West 
Virginia State Police and local West Virginia schools. This program 
connects children who interact with law enforcement at traumatic 
events, including domestic violence situations, drug raids, overdoses, 
and more, to school resources that are designed to provide the child 
with trauma-informed care.
    The alert enables the school to exercise its trauma-informed 
training that Handle With Care provides participating schools to ensure 
that the student is provided with the support they need to help handle 
the traumatic event.
    The goal of the program is to promote safe homes, schools, and 
communities, while ensuring that every child is able to thrive in 
school.
    I have introduced a bipartisan bill in the Senate alongside 
Senators Capito and Kaine to establish 5-year demonstration grants for 
States to address the impact of substance use related and other trauma 
by building a Federal Handle With Care program.
    My bill calls on the Secretary of Health and Human Services in 
conjunction with you, as the Secretary of Education, to award these 
demonstration pilots to states.
    Are you familiar with this program?
    If not, would you commit to learning more about the Handle With 
Care program in West Virginia and how we can collaborate together to 
make sure that schools have access to trauma-informed training?
    Answer. The Department is familiar with the Handle With Care 
program, and it is always interested in exploring options for improving 
State and local efforts to strengthen school climate and safety. 
Trauma-informed care and related training are an important of these 
efforts.
   impact on students under proposed cuts to 21st century community 
                            learning centers
    Question. I have always strongly supported funding for the 21st 
Century Community Learning Centers and afterschool programs. In fact, 
this was one of the few programs that was not consolidated into the 
larger block grant when the Congress passed the Every Student Succeeds 
Act, reauthorizing No Child Left Behind.
    That Congressional support for this program comes from the fact 
that we recognize the critical need for safe and secure places for 
students to learn and be before and after school and during the summer 
months.
    That is why I was so disappointed to see that the President's 
budget completely eliminated funding for this program--a $1.2 billion 
cut to Federal funding for afterschool and summer programs.
    Too many students do not have a safe place to go afterschool or 
during the summer and do not have the academic resources or assistance 
at home. And in States like West Virginia, the State budget cannot 
replace the Federal funding needed to run these programs.
    If this program is cut, where will the 7,353 West Virginia students 
go?
    How will they get the academic assistance that they need?
    Answer. We know that the 21st Century Community Learning Centers 
program often supports safe places for children to participate in a 
range of activities outside of the school day. However, we believe that 
afterschool activities are primarily the responsibility of families and 
communities, and not the Federal Government. Limited Federal education 
resources should be dedicated to programs with a stronger emphasis and 
track record of improvement in student educational outcomes. Local 
school districts seeking to prioritize afterschool or summer school 
activities in meeting the educational needs of students and families 
may use other Federal funds for this purpose, including the $15.8 
billion Title I Grants to Local Educational Agencies program.
      effect of eliminating full-service community schools funding
    Question. McDowell County in southern West Virginia is one of the 
poorest counties in the entire country.
    Reconnecting McDowell is a comprehensive effort to make educational 
improvements to give those students a chance to succeed despite the 
county's complex problems--poverty, underperforming schools, drug and 
alcohol abuse, limited medical services, and inadequate access to 
technology and transportation.
    This program highlights the benefits and importance of full 
community schools and having the school be a place that serves the 
whole student. Through this program, schools don't just offer academic 
education, but physical and mental healthcare, counseling, and 
afterschool academic support. For the kids of McDowell County, these 
supports are as necessary to their education as the academic classes 
themselves.
    That is why, when the Senate considered the Every Student Succeeds 
Act, I worked with my colleagues to push for the Full-Community Schools 
program, which provides funding to programs like Reconnecting McDowell.
    So I was so disappointed to see that the President's budget request 
completely eliminates the $10 million in funding for the Full-Community 
Schools program.
    I have seen firsthand how a small investment like this program can 
make a huge difference in the life of a child and can help rebuild a 
community. Reconnecting McDowell is lucky that they are able to attract 
some private funding to support these efforts, but the Federal funding 
is still a critical part of what they do.
    What will happen to the students in communities like McDowell 
County if their schools are forced to cut back on the important health 
and wellness programs that set these students up for academic success?
    Answer. The fiscal year 2019 request reflects the President's 
commitment to spend taxpayer dollars efficiently, in part by 
eliminating duplicative programs funding activities that can be 
supported with other Federal, State, or local resources. For example, 
to the extent that the problems that students face in McDowell County 
contribute to poor educational outcomes, the County's schools may use 
Title I Grants to Local Educational Agencies to address those problems 
as part of their comprehensive Title I schoolwide programs.
          department's process for reviewing trio applications
    Question. The Consolidated Appropriations Act, 2018 (P.L. 115-141) 
included report language instructing the Department to review all 
applications under fiscal year 2017 TRIO competitions that had minor 
technical issues, including those with minor budget issues. Please 
provide all the relevant information regarding the Department's process 
for reviewing and scoring and a timeline for awarding grants to newly 
funded applicants.
    Answer. The Department is currently in the process of reviewing 
applications from all 40 applicants affected by the report language and 
intends to make awards to applicants scoring within the funding range 
of the fiscal year 2017 competitions by September 30.
      determination and transparency regarding gear up priorities
    Question. In the Consolidated Appropriations Act, 2018 (P.L. 115-
141), Congress provided $350 million in GEAR UP funding. The 2018 
notice inviting State and Partnership applications for the Gaining 
Early Awareness and Readiness for Undergraduate Programs (GEAR UP) 
initiative includes a series of expansive and complex absolute 
priorities that if not met, would deem a State or community ineligible 
to receive a new award under this competitive grant program (1-
Fostering Flexible and Affordable Paths to Obtaining Knowledge and 
Skills; 2-Promoting STEM, with a Particular Focus on Computer Science; 
3-Protecting Freedom of Speech and Encouraging Respectful Interactions; 
4-Fostering Knowledge and Promoting the Development of Skills that 
Prepare Students to be Informed, Thoughtful, and Productive Individuals 
and Citizens). Given the high stakes nature of an absolute priority, 
ensuring that the public understands how the absolute priority will be 
administered is important to ensure fairness, transparency, and clarity 
among applicants. Relative to this absolute priority:
    a. When will the determination that an applicant has met or not met 
the absolute priority be determined? Will that determination precede 
the peer-review, occur during the peer-review, or following the peer-
review?
    b. Who will be making the determination if the absolute priority 
has been met or not? Will that be staff from the U.S. Department of 
Education, or the peer-reviewers themselves?
    c. Will those individuals' names be made public or anonymous?
    d. What assurances do you have that the individuals making the 
determination have the relevant expertise to effectively evaluate an 
applicant's response to each of the four categories, each of which 
require substantially different context expertise from one another?
    e. What specific training and support will the individuals making 
the determination receive in advance of making the determination?
    f. Will those training materials and support strategies be made 
public?
    g. What specific steps are you taking to specifically assist 
applicants understand the intricacies of the absolute priority, the 
review process, and the determination process so that applicants may 
take the appropriate steps to meet this challenging priority?
    Answer. a. The Department will determine whether a particular 
application meets the absolute priorities as soon as possible--ideally, 
prior to peer review. However, it is possible that some applications 
may be referred to peer review and subsequently deemed ineligible 
during the peer review process or after the conclusion of the full peer 
review process.
    b. Department staff make eligibility determinations. Peer reviewers 
determine the extent to which an applicant addresses the selection 
criteria in the context of the absolute priorities established for the 
competition by evaluating the entire application.
    c. The Department does not intend to make public the names of 
Department staff making eligibility determinations.
    d. The Department staff making eligibility determinations have the 
relevant content knowledge and expertise to make those determinations
    e. The Department will ensure that all staff making eligibility 
determinations receive specific training and support on the various 
requirements of the absolute priorities.
    f. As a general practice, the Department does not make internal 
training documents publicly available. Applicants will have all of the 
information and support that they need to understand the requirements 
of the absolute priorities in advance of the application deadline.
    g. Department staff held two pre-application technical assistance 
webinars and posted the materials on the Department's website to ensure 
that all potential applicants are aware of the competition 
requirements. In addition, the Department has published a Frequently 
Asked Questions document that discusses the absolute priority, 
available online at https://www2.ed.gov/programs/gearup/faq.html.
    rationale for applying trio funding boost to one-time supplement
    Question. In West Virginia, we have a lot of students who are first 
time college students, many of whom come from low-income families that 
don't have the resources or experience to help their children navigate 
things like AP classes, SAT tests, college applications, financial aid, 
and finally college itself.
    That is why programs like TRIO are so important. TRIO programs 
provide the support that first time college students need to thrive in 
higher education. Without them, we'd see too many students who wouldn't 
know what opportunities are available or who wouldn't have the 
emotional and academic support to succeed.
    As you are well aware, two schools in West Virginia--West Virginia 
University and West Virginia State University--had their applications 
thrown out during the fiscal year 2017 competition because of very 
minor budgeting errors. You and I have spoken about this issue multiple 
times, and I believe you understand how important this issue is for me 
and my State.
    As you should be aware, the Consolidated Appropriations Act, 2018 
(P.L. 115-141) Congress appropriated an additional $60 million to TRIO 
in the fiscal year 2018 Omnibus and included report language 
specifically directing you to read and score the applications from the 
2017 competition that were rejected because of minor technical and 
budgeting errors. Most recently, I joined several of my colleagues in 
sending you a letter reiterating congressional intent for the 
additional $60 million for TRIO. However, it has come to my attention 
that Linda Byrd-Johnson, Senior Director of the Student Service 
Division at the U.S. Department of Education, shared that the 
Department would earmark most of the funds for a one-time supplemental 
increase for Upward Bound and Upward Bound Math/Science grantees 
interested in increasing their STEM activities. What is the 
Department's intent in sponsoring this one-time supplemental increase?
    Why did the Department choose to sponsor a one-time supplemental 
increase over providing a larger increase in funding to existing 
grantees and reserving a greater amount of funds to review and fund 
fiscal year 2017 grant proposals that had been rejected or had minor 
budget formatting errors?
    Answer. As you note, in fiscal year 2017, approximately 40 
applications were deemed ineligible under the Upward Bound, Upward 
Bound Math and Science, Veterans Upward Bound, and Ronald McNair Post-
Baccalaureate Achievement competitions due to budget errors. I have 
appreciated the opportunity to discuss these issues with you and the 
specific implications those decisions have had for the students in your 
State. Our first priority when allocating the $60 million increase for 
Federal TRIO Programs this year is to review those 40 applications and 
make awards to all applicants that receive peer review scores within 
the funding range from last year's competitions. After ensuring we have 
sufficient funding to meet that need, we saw an opportunity to provide 
supplements this year to Upward Bound and Upward Bound Math and Science 
grantees that want to implement new or enhanced STEM activities. Like 
you, this Administration believes deeply in the importance of a high-
quality STEM education so that all students are prepared for 
postsecondary education and careers. Finally, the additional funding 
provided in fiscal year 2018 will allow the Department to provide all 
TRIO grantees with an across-the-board increase--the third such 
increase in 3 years.

                          SUBCOMMITTEE RECESS

    Senator Blunt. The subcommittee stands in recess.
    [Whereupon, at 12:02 p.m., Tuesday, June 5, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
